<html>
<title> - REOPENING THE AMERICAN FRONTIER: PROMOTING PARTNERSHIPS BETWEEN COMMERCIAL SPACE AND THE U.S. GOVERNMENT TO ADVANCE EXPLORATION AND SETTLEMENT</title>
<body><pre>[Senate Hearing 115-283]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-283
 
                    REOPENING THE AMERICAN FRONTIER:
                     PROMOTING PARTNERSHIPS BETWEEN
  COMMERCIAL SPACE AND THE U.S. GOVERNMENT TO ADVANCE EXPLORATION AND 
                               SETTLEMENT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SPACE, SCIENCE, 
                          AND COMPETITIVENESS

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
                             


                Available online: http://www.govinfo.gov
                
                
                
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-770 PDF              WASHINGTON : 2018                   
 
 
 
 
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

          SUBCOMMITTEE ON SPACE, SCIENCE, AND COMPETITIVENESS

TED CRUZ, Texas, Chairman            EDWARD MARKEY, Massachusetts, 
JERRY MORAN, Kansas                      Ranking
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       TOM UDALL, New Mexico
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
SHELLEY MOORE CAPITO, West Virginia  TAMMY BALDWIN, Wisconsin
CORY GARDNER, Colorado  

MAGGIE HASSAN, New Hampshire


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2017....................................     1
Statement of Senator Cruz........................................     1
    Statement from The Center for Advancement of Science in Space 
      (CASIS)....................................................     2
Statement of Senator Markey......................................     5
Statement of Senator Nelson......................................     6
Statement of Senator Sullivan....................................    53

                               Witnesses

Jeffrey Manber, Chief Executive Officer, NanoRacks LLC...........     9
    Prepared statement...........................................    10
Tim Ellis, CEO and Co-Founder, Relativity Space, Inc.............    15
    Prepared statement...........................................    16
Tim Hughes, Senior Vice President, Global Business and Government 
  Affairs, Space Exploration Technologies Corp. (SpaceX).........    22
    Prepared statement...........................................    24
Dr. Moriba K. Jah, Associate Professor, Aerospace Engineering and 
  Engineering Mechanics, Cockell School of Engineering, The 
  University of Texas at Austin..................................    31
    Prepared statement...........................................    32
Robert D. Cabana, Director, John F. Kennedy Space Center, 
  National Aeronautics and Space Administration..................    40
    Prepared statement...........................................    41

                                Appendix

Response to written questions submitted by Hon. Dan Sullivan to:
    Jeffrey Manber...............................................    59
    Tim Ellis....................................................    60
    Tim Hughes...................................................    61
    Dr. Moriba K. Jah............................................    62
    Robert D. Cabana.............................................    64


                    REOPENING THE AMERICAN FRONTIER:



                     PROMOTING PARTNERSHIPS BETWEEN


                     COMMERCIAL SPACE AND THE U.S.



            GOVERNMENT TO ADVANCE EXPLORATION AND SETTLEMENT

                              ----------                              


                        THURSDAY, JULY 13, 2017

                               U.S. Senate,
               Subcommittee on Space, Science, and 
                                   Competitiveness,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9 a.m. in Room 
SR-253, Russell Senate Office Building, Hon. Ted Cruz, Chairman 
of the Subcommittee, presiding.
    Present: Senators Cruz [presiding], Sullivan, Markey and 
Nelson.

              OPENING STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Good morning, everyone. Welcome to this 
hearing.
    Here's to the crazy ones, the misfits, the rebels, the 
troublemakers, the round pegs in the square holes, the ones who 
see things differently. They're not fond of rules, and they 
have no respect for the status quo. You can quote them, 
disagree with them, glorify or vilify them. About the only 
thing you can't do is ignore them because they change things. 
They push the human race forward, and while some may see them 
as the crazy ones, we see genius, because the people who are 
crazy enough to think they can change the world are the ones 
who do. That quote, of course, was made famous by Apple in the 
company's 1997 television commercial, ``Think Different.''
    Nearly 3 months ago, this subcommittee began a series of 
hearings looking at the reopening of the American frontier. 
These hearings are in a way dedicated to the crazy ones who not 
only think differently, but who take risks and are looking to 
push the human race forward by expanding American commerce and 
settlement throughout the universe.
    Our national space program is on the verge of a 
renaissance. This renaissance is being driven by innovators who 
don't accept the status quo and who are changing the very 
nature of space flight. This renaissance is also being driven 
by public-private partnerships between NASA and commercial 
space companies.
    In the last few years, we have witnessed the test flights 
and success of reusable rockets, which will lower the cost for 
Americans to access space. We've seen the deployment of Cube 
Satellites from the International Space Station, which are not 
only helping maximize the utilization of the International 
Space Station, but are expanding research opportunities for 
Federal agencies, industry, and even high schools.
    As our previous hearings have showcased, we also have seen 
an interest for American companies who are looking to expand a 
commercial presence to the surface of the Moon and beyond.
    Space exploration is rapidly expanding, and both commercial 
companies and NASA are complementing one another. A survey by 
the Department of Commerce found that U.S. companies had $62.9 
billion in space-related sales in 2012. While U.S. Government 
programs provided much of this market, about one-quarter of the 
sales were within the commercial sector. Public-private 
partnerships have become the backbone of core NASA programs, 
such as the Commercial Orbiter Transportation Services, the 
COTS program, and the Commercial Crew program, which will 
finally end our dependence on Russia to transport American 
astronauts to and from the International Space Station.
    However, we shouldn't be content to rest on the laurels of 
recent success. There is still a lot of work left that needs to 
be completed to ensure continued U.S. competitiveness in space. 
Congress needs to work to ensure that investment and innovation 
within the commercial space sector isn't effectively chilled by 
obsolete regulations or overly burdensome requirements that may 
not naturally apply to new business models.
    We must also continue to challenge NASA and the commercial 
space community to find new ways to partner to advance our 
national space policy goals, as Congress will never be able to 
fully fund every priority within the space community.
    And in preparation of an expansion of commercial space 
activity, we will also need to examine orbital debris and how 
it impacts exploration and space traffic management.
    There are people who are crazy enough to think that they 
can change the very nature of space exploration, and if they 
keep pressing forward, they just might.
    If there are no objections, I want to enter into the 
hearing record a statement provided by the Center for the 
Advancement of Science in Space.
    [The information referred to follows:]

  Statement of The Center for Advancement of Science in Space (CASIS)
Public-Private Partnerships in Space: Examples from the ISS National 
        Laboratory Model
    Public private partnerships are a key component to driving 
innovation and national leadership. With the potential to address a 
wide array of modern challenges from technology development to 
infrastructure modernization, and from education to the economic 
development of space, public private partnerships unlock new 
possibilities unavailable when we rely solely on public or private 
investment.
    The International Space Station (ISS) National laboratory is a 
great example of a public private partnership model that is working in 
space. The ISS National Lab opens up the incredible possibilities of 
the space station research environment to a diverse range of 
researchers, entrepreneurs and innovators that could create entirely 
new markets in space.
    The International Space Station offers a unique research and 
development platform, unlike any on Earth, enabling research that 
benefits both exploration and life on Earth. In an effort to expand the 
research opportunities this unparalleled platform provides to the 
nation, the International Space Station United States Orbital Segment, 
through bipartisan legislation, was designated as a U.S. National 
Laboratory in 2005, enabling research and development access to a broad 
range of commercial, academic and government users. After final 
assembly of the ISS in 2011, the Center for the Advancement of Science 
in Space (CASIS), a (501)(c)(3) organization, was selected by NASA to 
manage the International Space Station United States National 
Laboratory. CASIS fulfills its mission to accelerate space-based 
research by engaging a variety of non-traditional space users, 
operating in the fields of life science, physical science, technology 
development, and remote sensing. CASIS engages primarily with 
organizations that pay toward the value obtained on the International 
Space Station National Laboratory, as well as with other organizations 
addressing national science and research priorities. This research 
serves commercial, and entrepreneurial needs and other important goals 
such as the pursuit of new knowledge or education. Since 2011, CASIS 
has stewarded more than 200 International Space Station research 
projects, ranging from developing new drug therapies, to monitoring 
tropical cyclones, to improving equipment for first-responders, to 
producing unique fiber-optics materials in space. Working together with 
NASA, CASIS aims to advance the Nation's leadership in commercial 
space, pursue groundbreaking science not possible on Earth, and 
leverage the space station to inspire the next generation.
    Prior to the ISS National Lab Model, NASA traditionally funded all 
aspects of International Space Station research, whether it was 
research needed to further exploration, or discovery-based space 
research that expanded upon its scientific agenda. As the International 
Space Station evolved into a National Laboratory, CASIS has increased 
the diversity of users by accelerating utilization of the International 
Space Station National Laboratory as an innovation platform for a wide 
variety of partners. These include Fortune 500 Organizations, small 
businesses, educational institutions, philanthropic and research 
Foundations, Federal and state government agencies, and other thought 
leaders in pursuit of groundbreaking technology and innovation who are 
interested in leveraging microgravity to solve complex research 
problems on Earth. CASIS plays a role in not only attracting a diverse 
set of users, including private companies, to utilize the International 
Space Station National Laboratory, but also in engaging the private 
sector through various research and cost-sharing arrangements.
    CASIS has developed a successful sponsored program model that 
attracts third party funding from private industry and other government 
agencies to solve big problems or address target challenges. These 
programs translate into projects on the International Space Station 
National Laboratory. The sponsored program enables an organization to 
ask new questions and explore key variables, using the International 
Space Station National Laboratory environment as a tool in their 
innovation portfolio. In return, the organization creates opportunities 
for targeted research and development projects, STEM projects or 
fosters novel ideas of startup companies. Fortune 500 companies, 
government agencies and regional incubators have successfully used the 
International Space Station National Lab sponsored program model. This 
unique research and development model is flexible to meet the needs and 
budget of a partnering organization. Successful sponsored programs 
include Boeing Mass Challenge, Massachusetts Life Sciences Center, 
National Space Foundation (NSF) fluid dynamics and combustion and NIH's 
National Center for Advancing Translational Sciences (NCATS) organ on 
chip technologies that total more than $20 million in third party 
funding over the last two years. Additional sponsored programs totaling 
close to $5 million in 2017 with Fortune 500 organizations are imminent 
and will target major challenges to humankind as well as STEM education 
initiatives.
    Much of the CASIS International Space Station National Laboratory 
portfolio consists of organizations starting new space commercial 
activities. Over the last 5 years CASIS has made concerted efforts to 
educate a wide variety of organizations about the opportunity that the 
International Space Station National Laboratory represents. Many of 
these organizations are now using the International Space Station 
National Laboratory as part of their research and technology 
development process for the first time. Demand for space projects is 
being seen in the following areas:

  <bullet> Better targeting and quick to fail models in drug 
        development that can lead to breakthroughs in curing disease 
        and better drug delivery systems that can lead to increased 
        access of therapies throughout the world

  <bullet> Accelerated Disease Modeling associated with aging and 
        chronic disease

  <bullet> Regenerative Medicine breakthroughs that can repair, restore 
        or replace damaged tissues and organs due to creating ways to 
        expand and grow cells in a three dimensional environment

  <bullet> Crop Science breakthroughs that can lead to ways to feed the 
        growing world population with less land, water, etc.

  <bullet> Understanding of fundamental material properties that can 
        lead to novel materials and better manufacturing processes on 
        earth

  <bullet> Creation of commercially relevant microgravity enabled 
        materials that may transform many U.S. industries including 
        telecommunication semi-conductor manufacturing

  <bullet> 3D-Metal printing and other additive manufacturing capacity 
        in space

  <bullet> Quantum satellite technology that could benefit national 
        security

  <bullet> Remote sensing capability that can impact a variety of 
        downstream applications including maritime security (jamming, 
        spoofing), weather, agriculture productivity, energy and urban 
        development

    As the demand for space research and development projects 
increases, the supply of access to space, and research and development 
facilities will need to be augmented. In space private sector 
commercial research and development facility operators are on the 
forefront of a new era of space research on the International Space 
Station and future space platforms. These organizations operate their 
facilities internally and externally on the International Space 
Station. They provide users with more choices to address unique 
research needs and are the pathfinders for a marketplace in low-Earth 
orbit. Many of these companies have used their own resources to invest 
in on-orbit research and development facilities, reducing the risk for 
the Federal sector to develop these facilities and services. In its 
first five years of International Space Station National Laboratory 
management, CASIS has supported growth in the number of these research 
and development facility operators from one in FY12 to five in FY16--
with four additional facilities expected to begin in-orbit operations 
by FY18. CASIS fosters healthy competition between these supply 
partners by allowing them to bid on each commercial customer projects, 
seeking the best solution for the customer. The current commercial 
facility operators are:

  <bullet> NanoRacks--Since 2009, NanoRacks has provided hardware and 
        services for the International Space Station National 
        Laboratory. Three internal research platforms can house plug-
        and-play NanoLabs and provide critical capabilities such as 
        centrifugation and microscopy. Additionally, the NanoRacks 
        External Platform was launched in FY15 and provides 
        capabilities for Earth and deep space observation, sensor 
        development, and testing for advanced electronics and 
        materials.

  <bullet> BioServe--In-orbit offerings from BioServe include multiple 
        life sciences facilities and kits, including the multi-purpose 
        Space Automated Bioproduct Laboratory (SABL), launched in FY15. 
        SABL supports myriad initiatives for commercial life sciences 
        research as well as physical and material science experiments.

  <bullet> TechShot--Launched in FY15, the TechShot Bone Densitometer 
        is a commercial bone-density scanner for use in spaceflight 
        rodent research. In just one year, the successful operation of 
        this facility has already demonstrated its utility as a 
        catalyst for disease modeling research and commercial 
        biomedical initiatives in space.

  <bullet> Made In Space--In FY16, the Additive Manufacturing Facility 
        developed by Made In Space launched to the International Space 
        Station, enabling 3D printing projects from commercial, 
        educational, and government entities interested in the 
        development of objects for experiments and technology 
        demonstrations. These objects will be produced onboard the 
        International Space Station in a fraction of the time currently 
        required to have such objects manifested and delivered to the 
        station using traditional ground preparation and launch.

  <bullet> Space Tango--TangoLab-1 is a general research platform 
        launched in FY16. This facility from Space Tango allows 
        multiple automated experiments in the life and physical 
        sciences to run simultaneously. This architecture minimizes 
        crewmember interaction and reduces complexity while increasing 
        scalability, enabling improved throughput for users.

    In addition to currently available capabilities, a growing pipeline 
of commercial International Space Station National Laboratory 
facilities in preparation (from Teledyne Brown, AlphaSpace, STaArS, and 
HNu Photonics) will advance research in remote sensing, materials 
testing, molecular biology, and tissue culture. Companies are exploring 
how these capabilities might transition onto future low-Earth orbit 
platforms, from free-flying spacecraft to expandable modules. Through 
support of such companies, CASIS and NASA is enabling the International 
Space Station National Laboratory to serve as an incubator for the low-
Earth orbit market and U.S. private sector spaceflight interests, and 
using public private partnership funding models to share the risk and 
benefits of these emerging human space flight activities.
    CASIS is executing congressional intent by leveraging public 
private partnerships to get the most out of the International Space 
Station and its national lab. With the active involvement of our 
partners, CASIS is helping deliver advances of scientific and economic 
value to the Nation. As our outreach leads more organizations to form 
public private partnerships to use the national lab, the Nation's 
return on its investment in the ISS will continue to increase. And as 
the ISS approaches the end of its planned service life, Congress will 
have an opportunity to consider the value of maintaining a national 
laboratory on another platform in space.

    Senator Cruz. I now recognize the Committee's Ranking 
Member, Senator Ed Markey, for an opening statement.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. And 
thank you for this distinguished panel of witnesses. I think 
it's going to be a great hearing.
    When President Ulysses S. Grant hammered in the Golden 
Spike on the Transcontinental Railroad, he was connecting not 
only the eastern and western United States, but completing a 
project made possible by a public-private partnership. We were 
able to complete this historic achievement of connecting the 
United States by way of rail by connecting government with 
private industry.
    As we now further look toward the stars, we should continue 
to look to maximize these sorts of collaborative partnerships 
between government and business, but we need to ensure that 
these sorts of partnerships continue to benefit both the public 
and the private partners. So we need to identify the ways in 
which the public benefits from projects in space, including 
those projects undertaken by private and commercial entities 
will participate.
    Every day we benefit from the transformational advancements 
made possible due to space exploration. From GPS to cancer 
research and everything in between, our activities in space and 
the knowledge we develop there make life on Earth better. As 
NASA increasingly turns its gaze further from Earth, we need to 
ensure that we protect our capabilities to continue to conduct 
the basic scientific research to conduct in space that has 
driven so much innovation. The responsibility to continue 
pursuing science closer to home needs to continue to be mission 
critical and cannot simply be jettisoned.
    The International Space Station orbiting the planet is the 
successful result of partnerships between 15 countries and five 
international space agencies, including NASA. The Space Station 
is an example of international cooperation, but also of 
successful public-private partnerships, which combine the 
government's ability to invest in infrastructure and basic 
research with the private sector's ability to innovate and 
commercialize.
    The National Laboratory located on the International Space 
Station is managed by the Center for the Advancement of Science 
in Space, which is tasked with promoting public-private 
partnerships with the goals of fostering scientific 
breakthroughs to benefit all of humankind and delivering a 
commercial return on the investment that the United States has 
made.
    This collaboration has made it possible for private 
entities across the United States to take advantage of this 
incredibly important laboratory.
    For example, Visidyne, a company based in Burlington, 
Massachusetts, has conducted three major projects on the 
International Space Station National Laboratory, developing 
algorithms and imagery from the Station that can better predict 
tropical cyclones and save lives. This work was only made 
possible due to the public-private partnerships encouraged as a 
part of the National Lab.
    When we pursue these sorts of public-private partnerships 
in the right way, the public interest will benefit. The Outer 
Space Treaty states that the use of outer space, quote, should 
be carried on for the benefit of all peoples. Therefore, we 
need to make sure that we are continuing to structure our 
priorities in space to maximize the scientific and other 
benefits to all people.
    We should also ensure that our space policies promote the 
inclusion of small businesses and protect our ability to 
conduct scientific and nonprofit activities as well as 
promoting for-profit activities in the new frontier.
    The United States continues to be a pioneer in space 
activities, and our policies should support the continued 
innovation that has been the key to America's economic success. 
While space may be the final frontier, this is not the first 
time that we have looked to innovate by allowing government and 
industry to partner together. There may not be a golden spike 
to symbolically connect Earth to space, but the same successful 
collaboration between governments and business that fueled the 
achievements of centuries past can drive the innovation in this 
century and beyond. I look forward to working with this 
Subcommittee and stakeholders to ensure American scientists and 
American companies continue to be leaders in space.
    Thank you, Mr. Chairman.
    Senator Cruz. Thank you, Senator Markey.
    I would now like to recognize Senator Nelson, the Ranking 
Member of the Full Committee, if he would care to make an 
opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    And good morning. And we have an exciting topic here. We 
are right on the cusp of a major breakthrough and a 
reengagement of the American people in America's space program.
    Now, we have certainly witnessed the gee-whiz stuff as we 
see rovers on Mars and as we understand greater information 
about the depths of the universe through the Hubble. And next 
year we're going to launch the James Webb, which is going to 
look back in time almost to the beginning of the universe.
    We set upon the manned space program a new course with the 
NASA bill back in 2010. It set a dual course. It set one 
course--the commercial operations, as described by my two 
colleagues--bringing new vitality into the space program with 
creativity and ingeniousness, and that obviously is paying off 
in the gee-whiz stuff that we see. We set off on the other dual 
track with getting NASA out of low-Earth orbit and exploring 
the cosmos, deep into the cosmos, and with the goal as set by 
our President three years ago, followed by this President, to 
go to Mars, followed by another NASA authorization bill that 
sets that as its course, Mars with human beings, with American 
boots on the surface of Mars.
    In the course of that, there have been enormous changes. 
The very launch pads that were created for the Apollo program 
to take us to the Moon? Those launch pads, under the able 
leadership of Bob Cabana, have been transformed: one for a 
commercial operation that can handle all sizes of rockets; the 
other, reconfigured.
    And one of the things that we've got to tend to is to make 
sure appropriators get us the $600 million requested to--since 
this new launch vehicle, the monster rocket, the largest rocket 
ever, called the SLS, with its spacecraft on top, Orion--it's 
going to grow over time. It's going to evolve. It's going to 
get up to where it is launching an unbelievable 260,000 pounds. 
The Space Shuttle cargo bay, for example, would carry about 
45,000.
    And so that launch tower has to be capable, not for the 
first of the SLS rockets, which is going to be smaller, but to 
handle, as it evolves, when we put crew on it in 2021 or 2022. 
And then we start doing the deep space missions and taking up 
huge components that in lunar orbit will be assembled, and then 
we will go off with humans to Mars and return.
    That is an exciting future, and it couldn't be done had we 
not had the leadership of Bob Cabana, who you will hear from 
today. It couldn't have been done either if we hadn't had 
finally the U.S. Air Force, NASA, and the FAA all getting in a 
room and agreeing that we can use all of that unused real 
estate down there at the Cape Canaveral Air Force Station for a 
lot of this activity.
    And now we're going to be--within a year and a half, 2 
years--sending Americans on American rockets again. You will 
see the American public reengage like you've never seen, once 
Americans are flying on American rockets again. And that is the 
excitement of the future. Right now, in what's called the 
Operations and Checkout Building, named after Neil Armstrong, 
Bob Cabana took the Vice President of the United States there 
last week and showed him the spacecraft that is going to go--
Orion--on the top of the SLS next--in about a year and a half, 
2 years. And so that's why I say we are right on the cusp.
    I want to thank General Monteith, the Commander, the two-
star, that is the Commander of the Cape Canaveral Air Force 
Station because we've never seen the cooperation of the Air 
Force with NASA and the FAA like we are now seeing. And I'm 
happy to report in last year's--actually, it's this year's 
defense authorization that you and I have helped Chairman 
McCain get out, there are provisions that we inserted to 
improve the launch infrastructure at the range, at the Air 
Force Eastern Test Range, and to accelerate the Air Force's 
adaptation to reusable launch vehicles like SpaceX's Falcon 9.
    And, Mr. Ellis, I want to add that I want you to know we 
have a spot for you at what we generically call the Cape for 
you to launch your rockets. I would love for Relativity Space 
to become a part of the community of the folks as this exciting 
business is being built there.
    So thanks to all of you. Thanks to Senator Cruz and Senator 
Markey for holding this hearing.
    Thank you.
    Senator Cruz. Thank you, Senator Nelson.
    And I will note when the Vice President was down in 
Florida, he promptly reached out and touched the display right 
next to the ``Do Not Touch'' sign.
    [Laughter.]
    Senator Cruz. And then he had the presence of mind and 
quick wit to blame the junior Senator from Florida for enticing 
him to do so.
    Senator Nelson. And thank goodness I wasn't there, or he 
would have blamed me.
    [Laughter.]
    Senator Cruz. Well, we appreciate this very distinguished 
panel coming and testifying this morning. We have five 
witnesses.
    The first is Mr. Jeffrey Manber, who has served as the CEO 
of NanoRacks since 2009, and is the Chairman of the XO Markets 
Board. He has steered the growth of NanoRacks from a garage 
space in Webster, Texas, to where NanoRacks is today, a pioneer 
and leader in the commercial market for low-Earth orbit 
utilization.
    Our second witness is Mr. Tim Ellis, who is Co-Founder and 
CEO of Relativity, based in Los Angeles, California. Relativity 
is using 3D printing to build orbital rockets with zero human 
labor. Prior to Relativity, he worked at Blue Origin as a 
propulsion development engineer, and was involved in the 
initial development of Blue Origin's BE-4 rocket engine.
    Mr. Tim Hughes is Senior Vice President of Global Business 
and Government Affairs at SpaceX. Prior to joining SpaceX, Mr. 
Hughes served as majority counsel to the Committee on Science 
and Technology in the United States House of Representatives. 
He was the principal attorney responsible for helping draft and 
shepherd the passage of groundbreaking commercial human 
spaceflight legislation, the Commercial Space Launch Amendments 
Act of 2004.
    Dr. Moriba K. Jah is an Assistant Professor of Aerospace 
Engineering and Engineering Mechanics at the University of 
Texas at Austin. ``Hook 'Em.''
    Dr. Jah. ``Hook 'Em.''
    Senator Cruz. Prior to beginning at UT Austin, Dr. Jah was 
the Director of the University of Arizona's Space Object 
Behavioral Sciences with applications to space domain 
awareness, space protection, space traffic monitoring, and 
space debris research. Preceding that, Dr. Jah was the lead for 
the Air Force Research Laboratory's Advanced Sciences and 
Technology Research Institute for Astronautics and a principal 
investigator for the Detect/Track/ID/Characterize Program at 
the Air Force Research Laboratory's Space Vehicles Directorate.
    And, finally, Mr. Robert Cabana is a former NASA astronaut 
currently serving as Director of NASA's John F. Kennedy Space 
Center in Florida. In his current role, Mr. Cabana manages all 
NASA facilities and activities at the spaceport, including a 
team of civil service and contractor employees who operate and 
support numerous space programs and projects. A veteran of four 
space flights, Mr. Cabana has logged 38 days in space.
    Thank you, gentlemen, for joining us.
    Mr. Manber, we'll begin with you.

                 STATEMENT OF JEFFREY MANBER, 
             CHIEF EXECUTIVE OFFICER, NANORACKS LLC

    Mr. Manber. Thank you, Chairman Cruz, Ranking Member 
Markey, and other distinguished members of the Subcommittee. 
I'm delighted to discuss with you today the challenges we face 
in developing an American-style marketplace in space.
    Since my last visit before this Subcommittee in 2014, my 
company, NanoRacks, has continued to grow into a commercial 
space station company. We have taken on dozens of new customers 
and have brought over 550 research projects to the Space 
Station, including over 180 satellites, as you mentioned, all 
with no direct NASA funding.
    How is this possible? Through a growing number of public-
private partnerships between us and NASA, each one more 
commercial in nature. Each partnership allows the creativity of 
the private sector to further utilize the public investments 
made by you and Congress for the Space Station.
    NanoRacks has self-funded over $10 million in hardware to 
date. Moving forward, we have partnered with Boeing Aerospace 
and we are co-investing $15 million to manufacture the world's 
first commercial space station airlock, we call it the Gateway 
to Space, to further grow our business. These investments will 
develop the technical expertise and hardware base to own and 
operate our own space stations, a realistic goal we have set 
for ourselves as U.S. policy has matured.
    But why am I not seeking NASA money up front? Because 
that's not how the commercial marketplace works. I want to make 
sure there is no Space Station gap, just as there was with 
Shuttle and transportation. For a seamless transition, I 
believe we need the agility of the private sector to be 
involved. I want to squeeze efficiencies where none existed 
before, efficiencies in cost, efficiencies in use. This is how 
you build a customer base, and this is how you expand markets, 
even in outer space. This is called capitalism.
    So how best to work with NASA to realize these 
efficiencies? Or to put it another way, what is the optimal 
partnership? The short answer is we don't know that answer yet. 
But the good news is that our partnerships are getting more and 
more productive, and the proof is our growing customer base.
    In our partnerships, NASA has always been the safety 
regulator, the launch provider, and station resource provider. 
NanoRacks is the designer and developer of the hardware, 
provides the funding, and builds the customer base.
    Sometimes NASA is a customer to us at NanoRacks, but there 
is no guarantee. To my understanding, this is how our 
partnerships with NASA are unique, no guarantee of NASA use, no 
preoperational funding. We invest our own capital and pray 
there's a market.
    More recently, we have agreed to pay the space agency for 
use of Space Station resources via pricing discounts and other 
tangible advantages to the taxpayer. Our station satellite 
deployment service is a great example. We, at NanoRacks, were 
the program originator and the operator. In other words, it was 
our idea and our capital and our hardware to deploy satellites 
from the Station. NASA provided the existing Station resources.
    The result? Today, we are one of the leading American 
providers of CubeSat deployment opportunities. We have shown 
that Space Station has a unique role in satellite deployment, 
such as our Stash and Deploy program, where we store satellites 
on the Station for months at a time before timely deployment. 
You can't do that with a launch vehicle.
    However, an even larger success is that we, NASA and 
NanoRacks, have accelerated the growth of the small satellite 
market on behalf of customers like Spire, Planet Labs, 
universities, and other agencies of the U.S. Government now 
using the Station for satellite deployment. Better use of 
Station; again, no direct NASA funding.
    What's next? We are proud to be part of the NASA NextSTEP 
program. Specifically, NanoRacks, along with Space Systems 
Loral, is studying the reuse of upper stages, including that of 
the ULA Atlas 5, for use as a low-Earth orbit commercial 
habitat. This pathway is made possible because of the growing 
maturity of the partnership between NASA and NanoRacks.
    Let me add one key point necessary for continued commercial 
growth, if I may. I respectfully ask that by 2019, we know the 
end date for Station services, whether it's 2024, whether it's 
2028, the date to me is not as critical as the certainty. This 
will help us attract investment capital.
    Additionally, let me compliment this committee's work on 
the ISS Transition Plan and specifically addressing this issue 
in the NASA Transition Authorization Act of 2017.
    In summation, we have a range of partnerships today, each 
with greater commitments by NanoRacks. And I applaud the NASA 
Space Station folks for more and more venturing out of their 
own comfort zone in forging new relationships with companies 
like NanoRacks. And I thank Congress and I thank you gentlemen 
here today for the leadership you've shown on allowing us to go 
down the commercial pathway.
    I know we will continue to be successful because creating 
new markets and tapping the next frontier is what America does 
best, whether on the Earth or for the benefit of those of us on 
Earth.
    I look forward to answering your questions. And please 
accept my written testimony as part of the record. Thank you.
    [The prepared statement of Mr. Manber follows:]

    Prepared Statement of Jeffrey Manber, Chief Executive Officer, 
                             NanoRacks LLC
    Chairman Cruz, Ranking Member Markey, and other distinguished 
members of the Space, Science, and Competitiveness subcommittee, thank 
you for giving me the opportunity to return to this room to testify 
before Congress once again. I look forward to discussing with you the 
challenges we face at my company NanoRacks, and within the larger 
commercial space industry, in seeking to develop a robust, American-
style, service-based economy in space. We seek a marketplace that will 
realize multiple commercial space stations, in multiple orbits--within 
near and deep space, serving both traditional and unique customers from 
around the world.
    Since my visit before this subcommittee in April of 2014, NanoRacks 
has continued to grow into a commercial space station company via 
greater utilization of the International Space Station and other 
platforms. In the past three years we have taken on dozens of new 
customers, ranging from high schools you represent, to multiple U.S. 
agencies, other members of the commercial space industry and even 
foreign governments. To date, NanoRacks has brought over 550 research 
projects to the Space Station, including approximately 180 satellites, 
many of which are educational-based experiments representing schools 
throughout the country. All of this has been done with no direct NASA 
funding. We are a company that lives on our customers and the revenue 
generated from our ability to bring payloads and provide services to 
the Space Station.
    How is this all possible? Through a growing number of non-
traditional public-private partnerships between my company and NASA. 
These relationships have grown in time to be more robust, as both 
organizations learn what works and what doesn't for industry and for 
government.
    As I discussed three years ago before this subcommittee, we at 
NanoRacks have chosen a business model that is quite normal here on the 
Earth, but far less common in our space program. Fundamentally, we pay 
for our own hardware. For example, we have invested $5 million in our 
External Platform, over $4 million in our satellite deployment program, 
and close to $1 million in our internal research frames. We are now 
partnered with Boeing Aerospace and investing $15 million to 
manufacture the world's first commercial space station airlock. This 
expenditure of at least $30 million from one company, one small company 
I would emphasize, has made the International Space Station more 
robust, asserted American leadership and spurred the growth of new 
markets.
    Why am I not seeking upfront NASA money? Because that's not how the 
commercial marketplace works. I want to make sure there is no space 
station gap as there was with shuttle. For a seamless transition, we 
need the agility of the private sector. I want to squeeze efficiencies 
where none existed before: efficiencies in cost and efficiencies in 
use. This is how you build a customer base, and this is how you expand 
markets--whether on the Earth or in space. This is called capitalism.
    For my company, these investments are intended to develop the 
technical expertise and hardware base to eventually own and operate our 
own space stations--a realistic goal we've set for ourselves as U.S. 
policy has matured. Why does this work? Because the growth and 
development of our public private partnership with NASA allows each of 
our customers--whether NASA, the European Union, pharmaceutical 
companies, schools, or industry, to pay fees to use our services--just 
like any other business here on Earth.
    When last here, I ended my talk by stating how we have forged a 
new, and constantly evolving relationship with NASA. NASA is our 
landlord, and NASA is our safety official. But every day the agency has 
become less and less of a competitor. Still true! And today, we work 
with NASA, not without challenges, but focused on establishing the 
agency as a facilitator for the private sector building a space economy 
in low-Earth orbit, and eventually, beyond LEO, that will make all 
Americans proud.
    This is what I would like to briefly talk with you more about 
today: The changing relationship between NASA, NanoRacks and other 
members of the industry--and how we together are working to fulfill the 
wishes of you, in Congress, to inject more commercial practices in the 
conduct of the American space program. The growing partnership between 
NASA and NanoRacks adds value to each new program on the space station, 
and, if utilized to its fullest potential, it can bring about a future 
in which we can only dream today.
Our Evolving Partnership with NASA
    Seven years ago when I first approached NASA, I told the space 
agency I didn't want their funding. Boy that got their attention. 
Instead, I wanted the right to put research hardware on the 
International Space Station and offer services to the public, including 
NASA, for a fee.
    Some at NASA were shocked. How could we charge money for a service 
onboard the station? Others asked so many questions from their public-
sector perspective: Who would set the price? What if there were no 
customers? What would be the relationship between NASA and the company? 
Would astronauts work on a commercial service? What services would we 
offer? How would NASA know if we were successful? By the way, I told 
them if we were still in business in five years with customers, we 
would have been successful!
    Both sides survived those initial days. And I applaud the Space 
Station Program Office for more than once leaving their comfort zone to 
meet our objectives at least half-way. Today, it is more accepted that 
companies can utilize the space station for commercial gain. That's 
great. And NanoRacks has competition--some offering very similar 
services. That's a sign of policy success. Now comes the hard part. 
What is the optimal partnership and policy between NASA and private 
companies to assure a robust commercial marketplace in low-Earth orbit? 
And, at the same time, is their one type of partnership that is optimal 
or do different commercial programs, customers, and sectors require 
differing partnerships?
    Permit me to illustrate the landscape as we see it at NanoRacks.
    For the past seven years, NanoRacks and NASA have worked together 
in what has become the first public-private partnership that 
demonstrates a true path to a commercial marketplace in orbit. Our 
partnership serves two goals:

  1.  To unleash the power of the private sector in space services;

  2.  To assure U.S. leadership and new programs including commercial 
        space station platforms during a time of difficult Federal 
        budgets.

    In our partnerships, NASA is the safety regulator, launch provider, 
and station resource provider. NanoRacks is the designer and developer 
of chosen hardware, the funding source for the hardware, and chief 
marketer of on-orbit services.
    Our relationship works because this program is voluntary. The 
private sector (NanoRacks) can choose which hardware it wishes to 
develop and market. Consequently, the government can choose if to 
utilize the hardware. In plain language, NASA acts sometimes as a 
customer to NanoRacks to use our services, but there is no guarantee 
they will. And we should perform the service to be paid by customers. 
And, in a growing number of cases we ``pay'' the space agency for use 
of space station resources via pricing discounts and other tangible 
advantages.
    There is one other implicit understanding: the private sector 
program can fail--and there may not be customers. NanoRacks assumes 
this risk.
    One of our largest demonstrated successes with this partnership has 
been the development of our space station satellite deployment program. 
NanoRacks recognized that American industry wanted to develop 
sophisticated small satellites, but was stymied by the fact that the 
only real small satellites launch opportunities were non-domestic. 
NanoRacks believed the International Space Station could play a pivotal 
role.
    Today, our responsibilities in the public-private partnership have 
expanded: we are the program originator and program operator related to 
launching the small satellites of our customers. The government risk 
remains confined to the safety of the hardware. And we use the NASA-
Japanese space agency (JAXA) barter relationship to utilize the 
Japanese airlock to deploy the satellites, until the NanoRacks Airlock 
Module, now under development, is on station in 2019.
    As such, I believe this is as pure an example that has ever existed 
of a public-private partnership between NASA and the private sector. 
Unlike the Commercial Resupply Mission program (CRS), NASA did not 
institute our program. NASA did not fund our program, and there was no 
guarantee that NASA would even use our program. Let me add, however, 
that CRS has proven to be everything we hoped in allowing a company 
like SpaceX to leverage NASA as a customer, and truly change space 
transportation today.
    But look at what the NASA-NanoRacks partnership has provided: 
American leadership in a marketplace for small satellite services.
    Today, we are one of the leading American providers of small 
satellite deployment opportunities in low-Earth orbit. Our experiment 
has been a wonderful success: our satellite customers range from NASA 
and other government agencies, the European Commission, private 
companies, startups, universities, high schools--and yes, even 
elementary schools. Over 180 small satellites have been deployed from 
the station. Just as importantly, we have shown that space stations can 
have several unique roles in satellite deployment. To cite just one 
example, we have customers who store satellites on the space station to 
deploy on demand, when necessary. That can't be done from a launch 
vehicle!
    So industry (NanoRacks) suggested a commercial space station 
program (satellite deployments) to NASA. We fully funded the hardware. 
We made use of NASA resources. NASA is ``paid'' via defined deployment 
opportunities. And the U.S. Government has become growing customer as 
well.
    However, an even larger success is that we--NASA and NanoRacks--
accelerated the growth of the small satellite market. Without a doubt. 
Because of our demonstrated success, private capital exists for non-ISS 
launch services. Companies around the world are able to tap private 
capital because there is an existing market. There are (literally!) 
dozens of companies that offer low-cost, efficient CubeSats and 
SmallSats.
    For example, our customer Spire is changing the way we track ship 
movements and weather from space through their CubeSat constellation. 
The leadership at Spire tells me that this is causing NOAA to re-look 
at public-private partnerships for the availability of commercial 
weather data.
    Clearly, our initiative and willingness to take the risk worked. 
The market is growing and the number of customers is increasing, but 
the ISS share of the marketplace is dropping, as it should, in a 
growing competitive marketplace. This is a public-private partnership 
at its best, whether on the ground or in low-Earth orbit.
Partnership Stage Two: Commercial Airlock on Space Station
    As I previously mentioned, NanoRacks is currently manufacturing the 
world's first commercial Airlock Module onboard the International Space 
Station. The NanoRacks Airlock Module, which we call our ``Gateway to 
Space,'' will be on the station in 2019. We solicited NASA for the 
right to build and operate the Airlock. We did not seek NASA funding. 
We saw a market need and are willing to invest our own capital to 
increase the capacity of the station as a deployment platform for 
smaller satellites and for moving larger cargo out of the station.
    The advantages for the program are many: the NanoRacks Airlock 
Module will be five times larger in volume than the current airlock 
owned and operated by our friends at JAXA. It will be commercially 
operated, efficient, allow NASA capabilities not possible today, and 
best of all, at the proper time, the hardware can be removed and mated 
onto our own future commercial platform. NASA is not funding the 
Airlock Module. Rather, in an exciting and unique partnership with 
Boeing, our two organizations are privately funding the hardware. Yet 
we are aware that the Airlock Module is also utilizing valuable NASA 
resources, and we have voluntarily entered into negotiations with the 
space agency to forge a partnership that makes smart sense for both 
parties.
    In this regard, NanoRacks is a commercial space market pioneer. 
Together with NASA we are forging an even larger partnership than that 
for the satellite deployment program. At the same time, we have made 
clear to the Space Station Program Office officials that we expect 
other companies will also enter into such partnerships. And not just 
for space station use. Use of taxpayer resources for commercial 
services should either be at no-cost for all, or some sort of barter 
arrangement for all.
    For us, our Airlock Module is a stepping-stone to the goal of 
working with NASA on commercial habitats in an equitable manner.
From Airlock to Commercial Space Stations beyond ISS
    NASA has a unique opportunity, one previously only dreamed about: 
fostering U.S. leadership in opening the door for commercial space 
stations in low-Earth orbit and beyond. I have spent the last three 
decades working to bring about a more commercial space marketplace, 
including helping set up the first investment fund for commercial space 
ventures on Wall Street and commercially marketing the Russian space 
station Mir.
    My time at NanoRacks has been focused on our long-term goal: owning 
and operating commercial space stations, all while democratizing access 
to space. One where NASA is a customer; where the capital is 
commercial, and the operating system onboard the station is one based 
on American-style free markets.
    There are a number of approaches companies can take as we look to a 
future beyond the International Space Station. Some of our colleagues 
in the industry seek to realize the commercial habitats after the ISS 
by constructing new platforms and stations on the ground, and launching 
them into orbit. That's one way. And that's the expensive way.
    Let's consider another strategy: the re-use of in-space hardware. 
We have seen recently the value of re-using the first stage of launch 
vehicles, as shown by both Elon Musk's SpaceX and Jeff Bezos' Blue 
Origin. At NanoRacks, we are focused on re-using the second stage, not 
for use in another rocket, but as the shells of commercial habitats. 
I'm pleased to report that NASA has given us a chance to prove the 
value of using re-purposed in-space hardware for commercial habitats in 
low-Earth orbit.
    Over fifty years ago, NASA's Marshall Space Flight Director Werner 
von Braun proposed the idea of re-using the spent upper stage of a 
rocket and converting it into an orbiting platform. From this concept 
came America's first space station, Skylab, which was a re-purposed 
second stage of a Saturn 5--the vehicle that took America to the Moon.
    We are ``back to the future'' now at NanoRacks. We have been 
awarded funding through the NASA NextSTEP Phase II program for the 
``Ixion Initiative,'' a concept study for re-using in-space hardware 
and converting upper stages of rockets into commercial habitats in low-
Earth orbit and deep space. Specifically, NanoRacks, along with Space 
Systems Loral (SSL), is studying the re-use of upper stages, including 
that of United Launch Alliance's (ULA) Atlas 5, for use as a low-Earth 
commercial habitat.
    This pathway is made possible because of the growing maturity of 
the partnership between NASA and NanoRacks. From NASA's acceptance of 
our first self-funded research platforms to our satellite deployers to 
the commercial Airlock, we together have paved a partnership where the 
gravity pull is mutual: both sides contribute what it does best. In 
NASA's case, that is resources and hardware already paid for by the 
taxpayer and available for further utilization. In NanoRacks' case, 
that is capital and the expertise in attracting and working with 
customers in a cost-efficient manner.
    Let me add, if I may, one key point necessary to make our program a 
success: The announcement of a firm date for the end of the current 
mode of ISS operations. I respectfully ask that by 2019 we know the end 
date for station services. Additionally, let me compliment this 
committee's work on the ISS Transition Plan and specifically addressing 
this issue in the NASA Transition Authorization Act of 2017.
    No matter the end of operations date, the private sector needs to 
hear what that date is, rather than keeping it ambiguous--and we seek 
for this committee to emphasize this with the next NASA Administrator. 
Also key is to understand the requirements of the U.S. Federal 
Government as a customer, post-ISS. Keep in mind, this is not only 
about creating a robust economy in space, but also assuring we do not 
leave this territory to foreign governments.
    The Ixion Initiative team and NanoRacks look forward to being part 
of this discussion on the proper ISS transition.
    However, some key questions still remain: How does NASA determine 
the merits of a commercially funded program? How much should a company 
be expected to contribute? How does NASA protect this emerging 
marketplace from foreign government competition dumping at arbitrary 
prices or zero cost? And how do we assure America's continued 
leadership in near space in the event of commercial setbacks?
    In short, what is the policy that will enable flexible, optimal, 
public private partnerships between NASA and industry? We are far 
closer than three years ago, and I'm confident with your continued 
leadership we are close enough to imagine commercial habitats and 
commercial in-space servicing in partnership with NASA. Close enough 
for us to be confident enough to continue investing private capital.
Conclusion
    We are in a new space race, one where to the winner belongs the 
most robust use of the new frontier by all segments of our society. 
NASA is ready, industry is ready, and I'm ready, to focus on our return 
to the Moon and the human exploration of Mars. But I am sure that this 
can only be done once we have freed up our national resources from low-
Earth orbit by creating a sustainable market economy in near space.
    Whether we're reaching for Mars, returning humans to the Moon, 
exploring asteroids, or conducting science and business on commercial 
platforms, flexible partnerships constitute the direction we should be 
heading, and the methodology we should be using. The International 
Space Station has served as a powerful management and policy test bed 
for how the government and private sector can undertake space 
exploration together--and that has been proven by seven years (and 
counting) of customer growth at NanoRacks.
    I'm confident we are on the right pathway even though there is no 
precedent to guide us. There is no proven formula to understand how to 
make space just another place to do business, one where America will 
excel. We are venturing into the unknown.
    However, we will be successful in this venture because creating new 
markets and tapping the next frontier is what America does best, 
whether on the Earth, or for the benefit of those of us on Earth.
    Thank you. I will look forward to answering your questions.

    Senator Cruz. Thank you, Mr. Manber.
    Mr. Ellis.

 STATEMENT OF TIM ELLIS, CEO AND CO-FOUNDER, RELATIVITY SPACE, 
                              INC.

    Mr. Ellis. Chairman Cruz, Ranking Member Markey, members of 
the Committee, thank you for this opportunity to testify.
    My name is Tim Ellis. I'm a native of Plano, Texas, and the 
CEO and Co-Founder of Relativity. We're a stealth-mode startup 
creating a new launch service for orbital payloads, allowing 
for enhanced launch certainty at significantly reduced cost. 
Relativity's rockets are 100 percent designed, built, and flown 
in the United States. We are based in Los Angeles with current 
testing operations in Mississippi, and we are looking to expand 
operations into Florida, Texas, and beyond.
    We're a 2016 graduate of the prestigious startup 
accelerator Y Combinator, whose alumni include Dropbox and 
Airbnb. We then raised an eight-figure funding round led by top 
Silicon Valley firm, Social Capital. As an entirely privately 
funded startup, I believe Relativity offers a unique 
perspective on building a space business.
    The VC funding model is fantastic for creating innovation 
in a short timeframe, but the reality is that startups often 
operate on 12- to 24-month do-or-die funding cycles during 
which we must hit aggressive growth goals or risk not being 
able to raise more money to survive. This environment creates 
both challenges and opportunities for time- and capital-
intensive efforts, like developing space infrastructure. This 
reality is what led Relativity to first explore public-private 
partnerships.
    For the past 10 months, Relativity has worked with NASA 
Stennis Space Center via a Reimbursable Space Act Agreement. We 
are actively testing our liquid oxygen/liquid methane engines 
with over six dozen hot fires in the past 6 months of testing. 
Due to this partnership with NASA, we are able to spend more of 
our precious time and investment capital on Relativity's other 
never before seen technology innovations rather than commodity 
infrastructure buildup for engine testing, and as a result, 
we're a much more attractive opportunity for investors.
    We believe the U.S. Government has an historic opportunity 
to act as an accelerator for space startups, much like 
President Eisenhower catalyzed the American automobile industry 
when he created the interstate highway system.
    I think progress would be made by addressing the four 
following challenges.
    First, the current incarnations of the Space Act Agreement 
and Commercial Space Launch Act Agreement frameworks are not 
ideal instruments for providing startups access to 
infrastructure due to their limited applicability and 
certainty. Relativity proposes a Commercial Space Lease 
Agreement, a new framework similar to SAA or CSLA, but with 
standardized provisions for greater access to leasing engine 
test, rocket stage launch, or satellite development 
infrastructure at direct cost, much like LC-39A and LC-13 at 
Kennedy Space Center.
    Second, currently there are lack of ideal launch sites in 
the U.S. for small-class launch vehicles to meet polar, 
retrograde, and sun synchronous orbits. Consequently, many 
small satellite customers look to foreign launches from India, 
Russia, and Europe. The use of an offshore drone ship launch 
platform operating under an FAA license could potentially 
alleviate this problem by allowing for launches in 
international waters. The concept we envision is more like the 
reverse of the drone ships and barges SpaceX and Blue Origin 
pioneered for landing recovered boost stages versus the 
expensive Sea Launch platform. Creating an open access West 
Coast launch site similar to Kennedy's 39C could be another 
alternative.
    Third, for our potential customers, issues such as orbital 
debris reduction and spectrum rights need to be tackled in a 
way that do not limit the potential revenues of satellite 
companies or the launchers that fly them. A large addressable 
market needs to exist to attract private investment on both 
sides.
    Fourth, we also encourage NASA to explore a modulated 
version of the Venture Class Launch Services program that 
provides for larger recurring contracts.
    In closing, Relativity is but one example of the hundreds 
of dynamic space startups hard at work in suburban garages and 
repurposed airplane hangars all across America. I believe we 
are united by a vision for America that is predicated on 
pushing the limit of what is possible, both in technology and 
in spirit. We are all convinced that an incredible future waits 
for us among the stars and that America will lead it.
    Space is the ultimate stage for exploring our humanity. 
What could be more human or more American than aspiring to do 
something in the face of the impossible and succeeding?
    I thank our team at Relativity for embarking on this 
journey. And, Chairman Cruz, Ranking Member Markey, and members 
of the Committee, thank you.
    [The prepared statement of Mr. Ellis follows:]

         Prepared Statement of Tim Ellis, CEO and Co-Founder, 
                         Relativity Space, Inc.
    Chairman Cruz, Ranking Member Markey, Members of the Committee--
thank you for the opportunity to testify here today, and for your 
leadership in guiding America's ambitions in space. I firmly believe 
that this Committee's work in the weeks and months ahead has the 
potential to inspire and empower the next generation of space 
entrepreneurs.
    Relativity is a stealth-mode startup reimagining the way orbital 
rockets are built and flown. We are creating a new launch service for 
orbital payloads enabled by never-seen-before technologies, allowing 
for a high degree of launch schedule certainty at significantly reduced 
cost. The ability to get back and forth from space inexpensively and on 
a reliable launch schedule will unleash not only economic opportunities 
on Earth and beyond, but also push forward humankind's desire to 
explore the heavens we have gazed at in wonder for thousands of years. 
At the moment, however, there is a paucity of affordable launch options 
capable of addressing emerging market demands. Satellite and other 
payload customers increasingly require new models to access space on 
short lead-times, at lower cost, with high frequency, and with scalable 
services. From India to China and Russia to Europe, other countries are 
racing to address these market needs, and at Relativity, we intend to 
help preserve and expand U.S. dominance in commercial space.
    When Dwight D. Eisenhower created the interstate highway system he 
helped to catalyze the American automobile industry. I believe that 
this Committee finds itself at a moment of similar opportunity. Smart 
and aggressive updates to our national space infrastructure and 
regulatory framework have the potential to unleash a new generation of 
American ingenuity in space. Public-private partnerships will be 
critical to continuing this tradition of bold innovation. Partnerships 
build upon the enabling foundations NASA and other U.S. Government 
agencies have created for private companies. They act as accelerators 
that open doors of opportunity which might otherwise remain closed.
    Today, due to a confluence of private investment, emerging markets, 
the continued strong support of the United States Government, and the 
maturation of revolutionary new technologies, commercial space is on 
the cusp of changing forever. My testimony will reflect our company's 
unique perspective from the intersection of these exciting trends. I am 
hopeful that our conversation here today will help us develop a deeper 
understanding of the challenges facing the next generation of 
commercial space companies and the ways in which new legislation could 
address these challenges.
Company Introduction
    I co-founded Relativity in December 2015 with Jordan Noone. We are 
alumni of Blue Origin and SpaceX, where we were both propulsion 
development engineers and worked on programs such as BE-4, New Glenn, 
Crew Dragon, and Cargo Dragon.
    I proudly spent my first eighteen years as a resident of Plano, 
Texas, with both sides of my family residing among the great aerospace 
states of Texas, Florida, Colorado, and Alaska for generations. 
Relativity is based in Los Angeles, California, with testing operations 
in Mississippi, and we are exploring potential test facility expansion 
and launch opportunities in Florida, Alaska, Georgia, Texas, 
California, and Hawaii. As cofounders, Jordan and I originally met 
seven years ago as students at the University of Southern California in 
the Rocket Propulsion Laboratory. We led the first student group in the 
United States to attain FAA clearance to launch a suborbital rocket 
above the Von Karman line of 100 km, a project that ambitiously 
involved us designing and building our own rockets from scratch as 
young students. We were inspired by the long and storied history of the 
great American innovators who were willing to dream big and boldly 
claim: Impossible is nothing.
    In January 2016, Relativity joined Y Combinator, a Silicon Valley-
based startup accelerator that is widely recognized as the most 
prestigious accelerator in the world and whose notable alumni include 
Airbnb, Dropbox, Stripe, and others among its combined $80 billion 
company portfolio valuation. In March 2016, Relativity graduated from 
the Y Combinator program and shortly afterwards, we raised an eight-
figure funding round led by Silicon Valley venture firm Social Capital, 
with participation by Y Combinator Continuity, Phillip Spector 
(formerly of Intelsat), the University of Southern California, Stanford 
University, and other private investors. Still just two cofounders, we 
expanded to our current Los Angeles facility in July 2016, and worked 
to scale up a bigger and extraordinarily talented core team.
    Relativity has begun testing of our liquid oxygen/liquid methane 
engine with over six dozen hot fires across multiple test articles at 
NASA Stennis Space Center, with plans for continued routine testing. 
Additionally, we are hard at work developing a series of novel, never-
seen-before technologies for creating our own orbital launch service 
and changing the way things get to space. Altogether, we made 
significant progress in the last ten months and achieved dramatic 
results that we will begin sharing publicly once out of stealth. We are 
happy to discuss more details of our progress specifically with 
government policy makers and regulators to ensure there is early 
awareness of development plans for Relativity's capabilities, and form 
public-private partnerships that will help get us there.
The Venture Perspective
    Relativity is an entirely privately funded company and, as such, we 
believe we have a rather unique perspective on building a successful 
private space business.
    As first-time founders, Social Capital, Y Combinator, and our other 
investors and advisors taught Jordan and me some fundamental lessons 
about how to run a successful startup. This advice may best be 
distilled by the proverbial motto: ``Make something people want.'' 
Relativity was founded on the belief that people crave a fantastic 
future, a future that pushes the boundaries of what we dream to be 
possible and then brings those dreams to life. The very idea of America 
is predicated on pushing the limit of what is possible, both in 
technology and in spirit. Space is the ultimate stage for exploring our 
humanity. We are convinced that an incredible future waits for us among 
the stars, and that America will lead it. We believe this is 
``something people want.''
    But to help make this vision a reality Relativity must first build 
a thriving business and, while Relativity's investors share our 
conviction and ambition to build an iconic company, they also have very 
real financial targets that we must reach, together, to be successful. 
Working alongside some of the top venture capitalists (VC's) in Silicon 
Valley, we have learned that investors generally focus on the following 
key criteria when deciding whether or not to fund a company:

  <bullet> Potential for Outsized Returns: small capital investments 
        create large company value increases, normally in a 5-10 year 
        return on investment (ROI) timeframe

  <bullet> Large Total Addressable Market: the target market needs to 
        be $1B+, growing quickly, or emerging and highly disruptive

    The VC funding model is fantastic for creating industry-disrupting 
innovation in a relatively short timeframe, but it comes with some non-
intuitive quirks. Venture capital is predicated on the financial model 
that approximately one-third of companies funded will fail, one-third 
will simply break even, and one-third will successfully pay for all the 
others and then some. Often, only a few breakout successes within an 
investment portfolio constitute a vast majority of the ROI for a 
venture capital firm. Thus, private investors seek to quickly determine 
if a bet placed on a company will succeed or fail, primarily focusing 
their attention on the ones that show the most promise. This dynamic 
means startups often have only 12-24 months of funding remaining to 
prove they are worth continued support from the venture community, or 
left behind in the annals of entrepreneurial endeavor.
    It is worth noting that investors have the entire economy's array 
of industries on which to place their bets--space is but one sector, 
and effectively must compete for limited investment capital against 
scalable businesses in the software, consumer product, industrial, 
biomedical, and a multitude of other sectors as well.
    I mention this because in addition to the critical, daily challenge 
of proving our technological concept, we must also reckon, on a daily 
basis, with the equally critical challenge of meeting growth metrics 
sufficient to remain an attractive private investment in repeated 12-24 
month do-or-die timeframes.
The Startup Perspective
    The above business-building parameters have real and immediate 
implications for the way in which we think about and approach many 
aspects of our R&D. For example, as capital is infused in discreet 
funding rounds spaced approximately 12-24 months apart, we face not 
only short-term execution timelines, but also must simultaneously focus 
on achieving long-term goals that may be years into the future, well 
past our current funding amounts. Interruptions to this timeframe, even 
on the order of weeks or months, are highly impactful and can cause an 
increase in business risk.
    As a startup in the launch services industry, test infrastructure 
is paramount to validating our technologies. However, this 
infrastructure is extremely slow and expensive to procure, develop, and 
operate. In the context of already enormous initial risks, neither 
founders nor VC's have much desire to spend the bulk of our precious 
time and capital toward de-risking what we view to be commodity 
infrastructure: test sites, launch facilities and ranges, and other 
commonly required development facilities.
    Growing a small business in the environment sketched above has 
serious ramifications for the way we think about potential partnerships 
with the government and it will continue to do so at every stage of our 
company's life cycle, exemplified by the many ``Series'' of investment 
rounds a startup goes through and the partnerships that would be of 
maximum use at each stage:

  <bullet> Early Stage--``Series Seed'': Lower barriers to entry 
        through contracts: NASA's Tipping Point, Announcement of 
        Collaborative Opportunity (ACO), Small Business Innovation 
        Research (SBIR) program, DARPA and DoD opportunities

  <bullet> Product Development--``Series A'': Test stands, bigger 
        infrastructure, Venture Class Launch Services, DARPA and DoD 
        opportunities
  <bullet> Growth--``Series B/C'': Launch pads and infrastructure, 
        launch licenses and regulation, larger government contracts and 
        recurring payload launch procurement

  <bullet> Scale--``Series D+'': Certification for flying government 
        payloads, large procurement contracts like Commercial Resupply 
        Services (CRS), Commercial Orbital Transportation Services 
        (COTS), and Commercial Crew Development (CCDev) incentivize 
        early private investments and close the loop on investor ROI as 
        well as bootstrap commercial success

    Our key partnership to date has involved working closely with 
NASA's Stennis Space Center. After a brief description of our 
engagement with Stennis, the remainder of this testimony examines the 
ways in which Relativity has approached vital government partnerships. 
It includes a discussion of specific policy and regulatory fixes we 
believe could go a long way towards unencumbering the next generation 
of commercial space companies.
Working With NASA Stennis Space Center
    In February 2016, Relativity was contacted by the DoD accelerator 
MD5 to be one of their pilot companies. MD5 is a public-private 
partnership between the DoD, NYU, and other top research universities 
that accelerates startups by helping provide and facilitate access to 
government infrastructure. As a result, Relativity signed a 
Reimbursable Space Act Agreement with NASA Stennis Space Center in mid-
2016 for an extensive engine test campaign on an existing test stand. 
This agreement has allowed Relativity to reimburse NASA for direct 
costs incurred during the facility buildup, upgrade, and testing of our 
in-house designed rocket engines.
    We are pleased to report we have completed over six dozen hot fire 
tests to date with routine testing ongoing. We thank NASA Stennis 
Director Dr. Richard J. Gilbrech, along with David Coote, Gary Taylor, 
Ray Nichols, and the rest of the Stennis team for their work in helping 
us achieve these results to date, and look forward to our continued 
progress in the future.
    Relativity chose to partner with NASA and was initially drawn to 
partnership opportunity with Stennis due to the fact that the testing 
infrastructure was already built and that its team previously ran 
several successful testing campaigns. Working with NASA has saved 
Relativity almost a year toward commencing hot fire testing, enabling 
us to meet our targets far sooner than if we had to build our own 
engine stand from scratch and it allows us to develop faster against 
our current funding timelines. It is also important to note that our 
public-private partnership with Stennis allowed Relativity to invest in 
other unique elements of our technology development because we had 
capital available to deploy for those key initiatives rather than being 
forced to spend money on building our own engine test stand. Investing 
in the truly unprecedented side of our technology development, which is 
a critical element of our planned business model, has the additional 
benefit of putting us in a better position to receive further private 
funding.
    By partnering with the U.S. Government and using NASA's existing 
infrastructure, Relativity was able to more quickly test our 
proprietary new technologies, grow our operations, and ultimately 
accelerate our time-to-market so that we will eventually be competing 
with domestic and foreign competitors on an international scale. 
Working with Stennis on a ``lean team'' approach has provided solid 
learning experiences for both sides, and we wish to take these lessons 
learned and carry them forward in an expanded, future public-private 
partnership if Relativity's business needs can be optimally met.
Policy Recommendations: Startups and The Future of Partnerships
    Public-private partnerships have provided critical resources for 
our company's initial success. However, we have learned a lot about 
working with the government along the way and would like to offer a few 
suggestions for improvement. Our desire here is not merely self-
interested: We firmly believe that opening and strategically building 
up specialized government infrastructure could act as an 
``accelerator'' of space startups, in much the same way that President 
Eisenhower created the highway system and catalyzed the automobile 
industry.
    We recognize that the commercial space legislation under 
consideration today and in the weeks ahead may not be the proper 
vehicle for space infrastructure investments. But we also recognize 
that infrastructure writ large is very much a topic of discussion in 
Washington and an issue that generates bi-partisan support. Ultimately, 
we believe that if public-private partnerships can incentivize and 
maximize investment into the space industry from private sources they 
will, in turn, maximize the impact the U.S. Government can have in 
fostering the industry, further consolidating our Nation's dominant 
position when it comes to exploring the cosmos.
(1) Maximizing and Updating Launch Infrastructure
    As mentioned above procuring and qualifying launch infrastructure--
launch pad, ground support equipment, range and communication systems, 
and flight termination safety systems--is a daunting task for any 
company, and particularly for a startup that is simultaneously 
developing new manufacturing technologies and an orbital rocket on a 
timeline of just a few years.
    Relativity strongly support initiatives like NASA's development of 
a mobile Universal Propellant Servicing System (UPSS) and the 
Autonomous Flight Termination Systems (AFTS) developed by DARPA and 
NASA, as these are perfect examples of the types of commodity 
infrastructure development by the government, which adequately meet the 
needs of private companies looking to reach operational status more 
quickly and cost effectively.
    Of particular note is that for small class launch vehicles, the 
lack of accessible West Coast launch sites able to meet polar, sun 
synchronous, and retrograde orbital inclinations leaves many small 
satellite customers stuck with launching on foreign rockets from India, 
Russia, and Europe. Internationally located FAA-licensed launch sites, 
such as in New Zealand, are privately developed and not open to other 
U.S. companies, and have technical advantages that are nearly 
impossible to replicate in the United States other than potentially in 
Hawaii or other remote Pacific islands. One potential near-term option 
is to help create a small launch vehicle pad similar in design to KSC's 
39C at Vandenberg Airforce Base in California, or another suitable West 
coast location. Regardless, with emerging small satellite customers 
split between desiring launches from the East coast and West coast due 
to the orbits they provide, startups like Relativity must think about 
multiple launch facilities and operations spread across the country.
    The lack of a singular launch complex able to serve the bulk of 
small satellite customers is a thorny problem to solve, but we have 
postulated that the use of an offshore drone ship launch platform could 
potentially alleviate this problem by launching in international waters 
under an FAA license. The concept we envision is less complex than the 
repurposed oil platform known as ``Sea Launch,'' and is more akin to 
the reverse of the drone ships and barges SpaceX and Blue Origin have 
pioneered for landing recovered boost stages. We believe it is worth 
mentioning as a potential area for further regulatory and technical 
investigation. The expected influx of massively higher frequency of 
launches in the coming years will present new regulatory challenges. It 
could cause an eventual bottleneck where multiple small launchers and 
satellite constellations alike would be constrained in servicing a new 
wave of commercial customer needs. Even proposing an uncharted solution 
like international drone ship or barge launch goes to show just how 
dire the launch bottleneck could be with current regulatory processes 
and launch site limits to the total number of flights possible per year 
in the United States. This is also a key issue that is pushing 
companies to investigate air launch as an alternative solution, again 
with daunting technical unknowns and operational challenges.
    Finally, we are grateful for the government's foresight in helping 
to create ready-access launch pads and propellant loading systems such 
as 39C in Kennedy Space Center. However, Relativity is concerned that 
39C is located too close to the Space Launch System (SLS) pad 39B, 
potentially risking multi-month schedule delays as a national asset 
like SLS will rightfully take schedule priority. Due to this proximity 
to SLS, we are nervous about potential insurance premium increases that 
launching at 39C could entail. We also believe it will be difficult to 
serve multiple companies effectively from the same location, and while 
there appear to be several available moth-balled facilities at Cape 
Canaveral, for example, the growing scarcity of mature launch pads will 
hinder new entrants' ability to meet customer demand.
(2) A New Model for Service Agreements
    The current incarnations of the Space Act Agreement (SAA) and 
Commercial Space Launch Act (CSLA) agreement contain problematic 
provisions for handling conflicting test stand priorities.
    We fully understand that in the event of a national emergency the 
government may require the use of test infrastructure. Our primary 
concern is that as the SAA and CSLA are currently drafted, if another 
commercial company wants to use the same test stand as us (or any other 
launch startup) NASA would be required to accommodate them in a 
presumed ``one-month on, one-month off'' type testing arrangement. This 
is troubling to a startup company where a delay of this sort could 
seriously jeopardize our ability to hit milestones with enough momentum 
required for further private funding. This is precisely the sort of 
scheduling conflict that could wreak havoc with development deadlines, 
and thus force us to seek highly inefficient alternatives, i.e., 
building our own infrastructure. We are willing to reimburse direct 
costs and pay site maintenance fees in exchange for additional 
guarantees. If launch startups had a window of time during which we 
could lease engine and stage test stands this would go far to make us 
more comfortable relying on government infrastructure during critical 
development phases before operation.
    Agreements with local centers like Stennis are extremely valuable 
but risky mechanisms in the way they are formed. They save new small 
launch startups precious time and money but they are negotiated in an 
ad-hoc, case-by-case manner which creates a significant risk variable. 
A more certain framework and policy stance for making agreements 
between privately funded startups and the U.S. Government for 
infrastructure use could greatly help startups in particular navigate 
public-private partnerships.
    Relativity thus proposes the creation of a ``Commercial Space Lease 
Agreement''--a new framework similar to a reimbursable SAA or CSLA but 
with provisions for leasing development testing infrastructure at 
direct cost in much the same way launch infrastructure like LC-39A and 
LC-13 at Kennedy Space Center is leased. To ensure competition for an 
agreement of this type, public notices much like LC-39A and LC-13 could 
be held for a period of time, with similar optionality on proposing 
either exclusive-use or multi-user operations. Investment dollars from 
venture capital often follow--not precede--winning these types of 
agreements, worth noting for comparison of proposals versus more 
entrenched and initially-funded competitors. Potentially leasable 
facilities which are not considered moth-balled could be selectively 
duplicated or expanded to ensure a higher number of participants have 
equal access as the space industry grows. Continued support for 
flexibility in the Company's choice of using either Company or 
Government personnel, and supporting Company-funded facility upgrades 
and modifications are critical to ensuring the best-of-both-worlds in a 
testing infrastructure public-private partnership. As we envision it, a 
Commercial Space Lease Agreement framework would lower competitive 
barriers to entry and promote significantly more efficient use of 
private capital and time, while reducing risk across the breadth of 
company development phases by providing more certainty in negotiation 
outcomes.
(3) Reimagining Procurement
    While Relativity is currently entirely privately funded, the 
opportunity for any company to apply for competitive partnership 
contracts provides essential support and valuable signaling to 
potential commercial customers.
    As a startup operating under aggressive financial goals, Annual 
Recurring Revenue (ARR) is a key long-term metric and far superior to 
helping build our bottom line than one-off revenue generating events 
such as Venture Class Launch Services (VCLS). VCLS is an excellent 
opportunity for a company like ours because it enables us to gain 
initial traction, generate revenue, and validate that we can attract 
new commercial customers. While I strongly support any further rounds 
of flight opportunities where we may apply for funding, a one-off 
launch contract is unable to move the needle on a private investor's 
ROI expectations--although we understand that with the current 
incarnation of VCLS, that outcome perhaps was not the intent. We would 
also point out that delays in contract awards, yearly submission 
cycles, and any lags in funding a company once a contract has been 
awarded may cause undue harm to a startup where weeks and months are 
counted.
    We would encourage NASA to investigate a modulated version of the 
program that provides for recurring and larger launch contracts over 
multiple launches. This could include a hybrid model of sorts, one that 
predicated the award of a full contract on the successful execution of 
an initial run of two-three launches over an agreed-upon period time. 
Failure to meet clear benchmarks along the way would result in the 
immediate termination of such an agreement. Alternatively, some version 
of new public-private contracts like the Commercial Resupply Services 
(CRS), Commercial Orbital Transportation Services (COTS), and 
Commercial Crew Development (CCDev) that is geared towards smaller and 
newer launchers would also incentivize early private investment.
(4) Avoiding the Licensing Logjam
    The question of adequate resources for the Office of Commercial 
Space Transportation has been raised in previous hearings, but as a 
company that plans to soon join the ranks of those applying for launch 
licenses with greater and greater frequency, it is of the utmost 
importance in our minds that AST receive sufficient funding and 
personnel to avoid a significant back up in licensing applications. We 
understand that there is a broader and healthy debate taking place 
about AST's role vis-a-vis that of the Department of Commerce's Office 
of Space Commerce but this should in no way supplant a critical focus 
on ensuring AST is equipped to carry out its current mission.
(5) Continuing to Support a Robust Satellite Market
    Low cost, frequent, predictable orbital launch is simply the first 
step in accessing space and creating a large impact above Earth and 
beyond. Support of satellite companies--both established and emerging--
is needed to ensure the large total addressable market investors need 
to see grows and matures. Issues such as orbital debris reduction need 
to be tackled in a way that do not limit the potential revenues of 
satellite companies or the launchers that fly them. Limits to the total 
number of satellites in orbit would be more damaging than service 
lifetime limits, tracking requirements, or end-of-life deorbit 
requirements. This is especially true as many proposed orbital 
constellations specifically benefit from a high number of payloads 
circling the globe with rapid iteration of their technologies. We also 
support innovative solutions to spectrum rights that increase the 
number of satellite companies able to cost-effectively serve their 
customers without interference. Our potential customers need to access 
space today to prove their business models and survive until tomorrow, 
and we do not wish to hinder them in doing so. Thus, we do not support 
an explicit ban on unsubsidized foreign launchers as we wish to instead 
work on public-private partnerships to create other incentives toward 
fielding a low-cost U.S. designed, manufactured, and flown--non-ICBM 
derived--orbital vehicle for small satellite constellations.
Conclusion: A Startup Vision for Commercial Space in the 21st Century
    For the most part, Relativity has had an overwhelmingly positive 
experience in its partnerships with NASA and MD5. However, we believe 
it is important to point out that from conversations with our peers not 
every commercial space startup feels the confidence to rely on public-
private partnerships in key development infrastructure roles yet.
    Take, for example, this vital question of engine and vehicle stage 
testing infrastructure. A dearth of available stands, an occasionally 
cumbersome engagement process, an uncertain prioritization process--
those challenges and more will push many startups to spend valuable 
private funds building their own test stands and support hardware. 
Building our own development testing infrastructure continues to be an 
expensive and inefficient process that results in a loss of time, money 
and creative energy that could be better spent on cutting edge 
innovation rather than on items which are proven commodities--and which 
the U.S. Government is perfectly placed to provide access to be it via 
existing infrastructure or through the targeted, gradual buildup of new 
infrastructure to meet the demands of a new generation of private space 
exploration companies.
    Lastly, it is worth noting that no matter which strategy a company 
pursues, startups like Relativity initially compete directly with much 
larger and more well-funded competitors through new ideas, development 
speed, equity ownership, and novel big-payoff technologies. It is that 
willingness to innovate in the face of uncertain risk that uniquely 
bonds startups, even as competitors. There is one other thing that any 
startup worth its salt has in common: ambition. We grind and labor and 
persevere not merely to get rich--there are probably easier ways to do 
that--we do it to change the world. Commercial space startups do it 
because we want to change the world by reaching the cosmos.
    Relativity is here today as a representative example of a 
successful partnership with the United States Government. We also 
recognize that we are here today as one humble example of the hundreds 
of dynamic space startups currently hard at work in suburban garages 
and repurposed airplane hangars all across America. The United States 
Government has not always been known for the nimbleness of action that 
characterizes your average startup. But I would be so bold as to 
venture that we are united by one thing that is greater than all of us: 
A vision. A vision of the Stars and Stripes on the first spaceship to 
safely land men and women on Mars. A vision of how we will guide this 
world, our home, into a more fantastic future by learning to understand 
new worlds and applying that knowledge to our own. A vision of all the 
other missions that will expand the limits of our known universe and 
the bounds of the human spirit. What could be more human and American 
than aspiring to do something in the face of the impossible--and 
succeeding?
    Chairman Cruz, Ranking Member Markey, Members of the Committee--
thank you for this opportunity.
    I look forward to working with you in the months and years ahead.

    Senator Cruz. Thank you, Mr. Ellis.
    Mr. Hughes.

        STATEMENT OF TIM HUGHES, SENIOR VICE PRESIDENT,

            GLOBAL BUSINESS AND GOVERNMENT AFFAIRS,

         SPACE EXPLORATION TECHNOLOGIES CORP. (SPACEX)

    Mr. Hughes. Mr. Chairman, Ranking Member Markey, Senator 
Nelson, Senator Gardner, and members of the Committee, thank 
you for the opportunity to participate in this important 
hearing.
    I'm pleased to be here today representing the nearly 6,000 
men and women of SpaceX who are working hard every day to 
provide NASA, the Department of Defense, and our commercial 
customers with critical launches to space.
    SpaceX is a firm believer that public-private partnerships 
between commercial space entities and the government, if 
carried out with the right structure and the right incentives, 
are among the best ways to rapidly, safely, and cost 
effectively advance America's space program.
    Before outlining some views on how to best leverage 
commercial partnerships, I wanted to give the Committee a quick 
update on what has been happening at SpaceX of late.
    To begin, since the start of the year, we've completed 10 
missions, including 3 in just a 12-day period, and these have 
included landings of our first-stage booster, both at land and 
at sea.
    In addition to flying our commercial customers, SpaceX is 
routinely supporting cargo resupply missions to and from the 
International Space Station. And we have, in a set of historic 
firsts, successfully launched two previously flown boosters for 
commercial customers.
    Separately, we're making great progress on a fully reusable 
next generation launch system, which will enable large-scale 
human and cargo transportation to and from the surface of Mars.
    And most importantly, we are laser-focused on safely and 
reliably launching astronauts onboard our Falcon 9 and Dragon 2 
capsule with this launch to occur next year. This will restore 
America's human space flight capability for the first time 
since the Shuttle retired in 2011. And as noted by the 
Chairman, it will end our Nation's reliance on Russia to carry 
our own astronauts into space.
    Mr. Chairman, this is an exciting and dynamic time for 
space exploration. With new commercial space companies 
emerging, private capital investment and commercial space 
ventures surging, and new technologies and competition offering 
rapid innovation, affordability, and flexibility, now is the 
time for the U.S. space enterprise to make maximum use of 
commercial capabilities.
    There are a few points to that end that I'd like to make. 
First, we encourage the Committee to look back on the NASA COTS 
program. It offers important lessons about the utility of 
public-private partnerships and the right way to carry them 
out. NASA structured the COTS program very wisely. It shared 
the risks, the costs, and the rewards of developing new space 
transportation capabilities. Under the program, NASA provided 
seed money for the demonstration of private space flight 
capabilities, and it issued payments only after a company met 
technical or financial performance metrics.
    By using this approach, NASA was able to leverage its $800 
million investment in the program alongside significant 
commercial investment, and it yielded two new U.S. medium-class 
launch vehicles and two new cargo spacecraft. This partnership 
moved at rapid speed with the first flight of the Falcon 9 and 
Dragon to orbit occurring in less than 4 years, and with the 
first flight of an operational mission to the Space Station in 
less than 6 years.
    The features associated with the COTS program can be more 
broadly applied now to the development of deep space 
exploration systems for transportation, habitats, 
communications, reconnaissance, and resource utilization. In 
general, they include the use of pay-for-performance milestone-
based structures under firm-fixed-price contracts. Contractors 
should be paid when they deliver and they should take risks and 
they should share risks. Additionally, the government should 
set high-level requirements, objectives, and goals, but should 
not dictate how private partners achieve those goals. This 
encourages fresh thinking and creative problem solving. 
Further, competition is critical to the overall success of any 
such program.
    Overall, NASA should once again pursue a parallel track 
with nontraditional partners meant to augment and increase the 
probability of the long-term success of the Nation's space 
exploration goals. We recommend a new competitive public-
private partnership modeled on COTS for deep space exploration.
    Objectives here could include a sustained lunar presence, a 
large cargo carriage to Mars, commercial space habitats and 
weigh stations to other planets, or a deep space communications 
program meant to supplement our current capabilities. 
Regardless, we believe a competitive performance-based 
partnership program with relatively small investment by the 
government would yield great results for the Nation, along with 
high-paying jobs and critical national space capabilities.
    Mr. Chairman, thank you once again for the opportunity to 
share some thoughts on this topic. I look forward to any 
questions that you might have.
    [The prepared statement of Mr. Hughes follows:]

  Prepared Statement of Tim Hughes, Senior Vice President for Global 
 Business and Government Affairs, Space Exploration Technologies Corp. 
                                (SpaceX)
    Mr. Chairman, Ranking Member Markey, and Members of the Committee,

    Thank you for the opportunity to participate in this important 
hearing on ``Reopening the American Frontier.'' SpaceX is a firm 
believer that public-private partnerships between U.S. commercial space 
entities and the Government are the optimal vehicles to rapidly, 
safely, and cost-effectively advance space exploration and settlement 
of the solar system.
    Under your leadership, the Committee recently has reviewed an array 
of matters, including regulatory reform to enable commercial space to 
thrive and revisions to the Outer Space Treaty, which are critical to 
ensuring the Nation's continued leadership in space exploration. 
Today's hearing provides a timely opportunity to discuss the nature of 
NASA's recent successful partnerships with private industry and to 
review how the United States can leverage such innovative approaches in 
its deep space endeavors going forward. SpaceX's direct and significant 
experience working under unique, innovative public-private partnerships 
with NASA should help to shape the contours of this dialogue. In 
addition to existing programs at NASA focused on deep space exploration 
transportation and architectures, NASA again should pursue a parallel 
track that leverages non-traditional, public-private partnership 
approaches to increase the likelihood of success for the Nation's space 
exploration objectives.
    From its beginning, SpaceX has leveraged American innovation, 
technical savvy, and an iterative culture to yield the most advanced 
space launch vehicle and spacecraft systems in history. We are grateful 
for NASA's ongoing support, which has been critical SpaceX's success. 
We are proud to provide a dependable and affordable ride to space for 
NASA, the Department of Defense, and the world's most sophisticated 
commercial satellite manufacturers and operators. Today, we regularly 
conduct critical un-crewed cargo resupply missions to and from the 
International Space Station (ISS) with our Dragon spacecraft--which was 
developed in partnership with NASA--and next year, we will begin 
launching American astronauts on American rockets for the first time 
since the Space Shuttle was retired in 2011. Commercially, SpaceX has 
restored the U.S. as a leader in global commercial satellite launch, 
taking back a market that had been wholly ceded to Russia and France 
for over a decade. As we look to the future, SpaceX is committed to 
continuing to support America's space program and to contribute to our 
national exploration objectives through reliable, innovative, and 
affordable access to space.
    To begin, it bears noting that the National Aeronautics and Space 
Act of 1958 identifies one of NASA's core mission areas as follows: 
``[t]o seek and encourage, to the maximum extent possible, the fullest 
commercial use of space.'' \1\ Additionally, the National Space 
Transportation Policy expressly directs Federal agencies to ``[p]romote 
and maintain a dynamic, healthy, and efficient domestic space 
transportation industrial base,'' and to do so, in part, by cultivating 
``increased technological innovation and entrepreneurship in the U.S. 
commercial space transportation sector through the use of incentives 
such as non-traditional acquisition arrangements, competition, and 
prizes.'' \2\ American policy-makers dating back to the formation of 
NASA have recognized that the commercial use of space represents one of 
the country's greatest assets--private sector ingenuity and capital, 
rather than cost-plus contracts and open-ended requirements. This, 
coupled with unique Government capability, technical insight, 
experience, and resources, will sustain and grow American leadership in 
space, and more broadly, benefit all of humankind.
---------------------------------------------------------------------------
    \1\ Pub. L. 115-10, title III, Sec. 305(b), title IV, Sec. 443(b), 
Mar. 21, 2017, 131 Stat. 32, 47, added items 20148 and 20149.
    \2\ National Space Transportation Policy. November 1, 2013. 
Available at: https://www.nasa
.gov/sites/default/files/files/
national_space_transportation_policy_11212013.pdf
---------------------------------------------------------------------------
    My testimony today will focus on the following areas:

  (1)  The NASA Commercial Orbital Transportation Services (COTS) 
        program should serve as an object lesson in successful, high-
        value public-private partnership approaches. The COTS program 
        resulted in significant new capability for the U.S. Government, 
        saved hundreds of millions in taxpayer money, and helped 
        restore U.S. competitiveness in commercial space launch. The 
        lessons learned through COTS--a program to support cargo 
        transportation to low-Earth orbit (LEO)--could easily be 
        transposed on innovative partnership arrangements for deep 
        space exploration going forward.

  (2)  Public-private partnerships and commercial-type contract 
        approaches under the Federal Acquisition Regulations (FAR) can 
        provide cost-effective, accelerated development and deployment 
        of new space capabilities, if properly constructed and 
        tailored. Here, my testimony will focus on how the unique 
        features of such approaches can and should be applied to deep 
        space exploration initiatives to keep America at the cutting of 
        edge of space technology within reasonable budgets and 
        timetables.

  (3)  Specific commercial partnership concepts for deep space 
        exploration can complement and enhance the space exploration 
        efforts NASA is currently undertaking through more traditional 
        contract and development approaches. Here, my testimony sets 
        forth some possibilities that are additive, and emphasizes that 
        no single approach is perfect. That is, it is evident that the 
        country will benefit by applying multiple different approaches 
        and enabling multiple different, redundant pathways to space 
        exploration.
I. SpaceX Today
    Founded in 2002, SpaceX employs approximately 6,000 people 
dedicated to designing, manufacturing, and launching rockets and 
spacecraft in and from the United States. To this end, SpaceX was 
created with the express goal of dramatically improving the 
reliability, safety, and affordability of space transportation. We have 
made that goal a reality. And, of course, our ultimate goal is to help 
to establish a permanent human presence in the stars, with an initial 
focus on Mars as a destination.
    To date, the SpaceX Falcon 9 launch vehicle has successfully 
launched 37 times, all while achieving important evolutionary 
reductions in the cost of space launch. Among other things, SpaceX has 
focused on making our rockets reusable. After several years of self-
funded research and development on reusability, beginning with critical 
work at our McGregor, Texas Rocket Development Facility, SpaceX has now 
recovered a total of 13 Falcon 9 first stage boosters since December 
2015--5 at Landing Zone 1 at Cape Canaveral Air Force Station and 8 
aboard our autonomous spaceport droneships at sea. After a four-month 
qualification program, SpaceX successfully launched and landed a 
previously-flown Falcon 9 booster in March of this year, placing a 
high-value telecommunications satellite into orbit for SES, a global 
satellite operator. This was an historic first for an orbital-class 
booster. In June 2017, SpaceX repeated this success with the launch of 
the BulgariaSat-1 satellite using a flight-proven booster, which itself 
had previously launched in January of 2017.
    Currently, SpaceX has approximately 70 missions on manifest, 
representing more than $10 billion in signed contracts for a diverse 
and growing set of customers, including NASA, the Department of 
Defense, commercial satellite operators, and allied international 
governments. As our business continues to grow, SpaceX, as technology 
companies should, invests heavily in the company's manufacturing and 
launch infrastructure and advanced research and development projects, 
including spacecraft development.
    We remain laser-focused on reliability and safety as we prepare to 
launch U.S. astronauts next year. This is a sacred responsibility that 
we approach with the utmost dedication and diligence. Additionally, we 
continue efforts to reach a cadence of a launch every two weeks or less 
for 2017, with an even higher rate planned for 2018; to move toward 
rapid and complete reusability of our boosters; to launch our Falcon 
Heavy launch vehicle later this year, which will be the most powerful 
rocket to launch since the Saturn V Moon rocket; to develop and produce 
the initial prototypes for our broadband satellite system; and to 
continue design and development work of a Mars launch vehicle 
architecture. Critically, all of this innovation is occurring in the 
United States, creating high-paying jobs, advancing technology, and 
generating substantial economic activity.
    To update the Committee on SpaceX's major milestones for 2017:

  <bullet> We have completed 10 missions in the past 7 months, for a 
        total 37 successful Falcon 9 launches overall. Recently, SpaceX 
        launched 4 successful missions in 32 days (3 of those in just 
        12 days);

  <bullet> We have already successfully completed two cargo resupply 
        missions to the ISS for NASA, CRS-10 and CRS-11, which was the 
        first re-flight of a Dragon spacecraft;

  <bullet> We successfully launched two flight-proven Falcon 9 rockets 
        for commercial satellite customers;

  <bullet> We successfully delivered the NROL-76 national security 
        payload to orbit for the National Reconnaissance Office (NRO) 
        on May 1, 2017, the first dedicated national security mission 
        flown by SpaceX, under an innovative, commercial services 
        contract;

  <bullet> We were awarded a second GPS III missions under a 
        competitive procurement in the Evolved Expendable Launch 
        Vehicle (EELV) Program, yielding a significant cost savings to 
        the Air Force;

  <bullet> We have launched missions from both active East and West 
        Coast launch sites; and,

  <bullet> We are completing final upgrades to the Falcon 9 (Block 5), 
        after which we'll focus much of our launch vehicle engineering 
        talent on SpaceX's Mars vehicle.

    SpaceX maintains its manufacturing and engineering headquarters in 
Hawthorne, CA; a satellite system design and development office in 
Redmond, WA; a Rocket Development and Test Facility in McGregor, TX; 
and launch pads at Cape Canaveral Air Force Station, NASA Kennedy Space 
Center, Vandenberg Air Force Base, and, soon, a commercial launch site 
near Brownsville, TX. SpaceX also relies upon a network of more than 
4,400 American suppliers and partners--an investment in the American 
industrial base when others are spending heavily abroad.
II. COTS: A Successful Model for Public Private Partnerships
    The Commercial Orbital Transportation System (COTS) program has 
been widely and correctly hailed as a major success for NASA and its 
commercial partners, delivering significant new capability to the 
Government at incredible value to the taxpayer.\3\ After the Space 
Shuttle Columbia disaster in 2003, all Space Shuttle flight operations 
were suspended for more than two years, and the United States became 
reliant upon foreign governments to carry both American cargo and crew 
to the International Space Station (ISS). In 2006, NASA established the 
COTS program to develop new U.S. cargo capability to serve as a follow-
on to the Space Shuttle Program for missions to ISS. COTS was an 
innovative, commercially competitive program that successfully 
leveraged private sector dollars and ingenuity through public-private 
partnerships.
---------------------------------------------------------------------------
    \3\ ``The development of commercial cargo vehicles is considered by 
many as one of the major success stories at NASA in the last decade.'' 
Jeff Foust, ``For commercial cargo, ideas old and new,'' The Space 
Review, March 23, 2015. Available at: http://www.thespacereview.com/
article/2717/1.
---------------------------------------------------------------------------
    The COTS program was the first of its kind for NASA: a pay-for-
performance partnership between the U.S. Government and private 
businesses to rapidly design and prototype critical technologies. NASA 
structured the COTS program as a collaborative partnership with the 
commercial space industry, sharing the risks, costs, and rewards of 
developing new space transportation capabilities. Under the program, 
NASA provided seed money for the development of private spaceflight 
capabilities, but issued payment only after a company met technical and 
financial performance milestones. The participating COTS contractors, 
likewise, invested in the program and put their own financial skin in 
the game. The contractual mechanism utilized was a ``Space Act 
Agreement'' (SAA), which allows the agency to rapidly design and 
prototype technologies, and allows contractual flexibility such that 
private parties can contribute financially to what would otherwise be a 
Government effort. The SAA has its genesis in ``other transactions 
authority,'' which exists in Federal statute for NASA, as well as the 
Department of Defense and many other Federal agencies.
    NASA competitively awarded a COTS Space Act Agreement to SpaceX and 
another entity in 2006. For SpaceX, the SAA ultimately represented a 
total of $396 million of NASA investment, primarily focused on 
development of the Dragon cargo capsule and two demonstration flights 
of the Falcon 9 launch vehicle and Dragon spacecraft. SpaceX in turn 
invested more than $500M (at that time) in the development of the 
Falcon 9, including launch sites, production, and test facilities.\4\ 
In only four years, SpaceX went from a clean sheet design to launch of 
the Falcon 9 and the first orbit and reentry of Dragon--an 
unprecedented reduction in development time for a complex space system 
that was realized under the SAA approach.
---------------------------------------------------------------------------
    \4\ SpaceX has continued to invest in reliability, performance, and 
reusability enhancements for Falcon 9.
---------------------------------------------------------------------------
    In May 2012, Falcon 9 successfully launched Dragon to orbit and the 
spacecraft then successfully berthed with the Space Station, a mere six 
years after contract award. Shortly thereafter in October 2012, the 
first operational mission under the follow-on Commercial Resupply 
Services (CRS) contract lifted off, resulting in mission success and 
kicking off a new area of U.S. resupply to the space station.
    This level of output and speed relative to expenditures is 
unprecedented in the aerospace community and marked a major success for 
NASA and its innovative approach to restore a critical capability. In 
short, this was a major win for the U.S. taxpayer, for U.S. 
manufacturing, for NASA specifically, and for the U.S. commercial space 
industry. It was perhaps the greatest ``bang for the buck'' that NASA 
has ever achieved.
    Notably, in August 2011 NASA, using the NASA-Air Force Cost Model 
(NAFCOM), determined that had Falcon 9 been developed under a 
traditional NASA approach, the cost would have been approximately $4 
billion. The analysis also showed development of the Falcon 9 would 
have been approximately $1.7 billion based on the traditional 
commercial models and assumed factors. However, NASA independently 
verified SpaceX's development costs of both the Falcon 1 (our early 
``pathfinder'' vehicle) and Falcon 9 at approximately $390 million in 
the aggregate ($300 million for Falcon 9; $90 million for Falcon 1).\5\
---------------------------------------------------------------------------
    \5\ NASA Deputy Associate Administrator for Policy, ``Falcon 9 
Launch Vehicle: NAFCOM Cost Estimates,'' August 2011. Available at: 
https://www.nasa.gov/pdf/586023main_8-3-11_NAF
COM.pdf
---------------------------------------------------------------------------
    Beyond COTS, NASA has had other successes utilizing the innovative 
and flexible framework enabled by Space Act Agreements.\6\ For example, 
NASA successfully worked with Bigelow Aerospace, which makes expandable 
modules and habitats for use in space. Here, once again NASA used an 
SAA applying a firm-fixed-price structure and leveraging significant 
private investment by Bigelow, to launch the Bigelow Expandable 
Activity Module (BEAM) to the ISS. SpaceX launched BEAM to the Space 
Station on April 8, 2016 during a cargo resupply mission. Once Dragon 
berthed with the Space Station, NASA astronauts extracted the BEAM 
module from Dragon's unpressurized trunk and attached it as a new 
module to the ISS. When activated, BEAM expanded to ten times its size 
at launch to provide more than 565 cubic feet of new volume to the 
Station and became the first human-rated expandable module in space. 
With this success, Bigelow and others will now develop technologies for 
habitats in low-Earth orbit and beyond, which will likely later be 
utilized by space agencies and commercial customers for in-orbit 
research labs, habitats in LEO, lunar orbits, on Mars or elsewhere.\7\
---------------------------------------------------------------------------
    \6\ See: NASA, ``Public-Private Partnerships for Space Capability 
Development: Driving Economic Growth and NASA's Mission,'' April 2014. 
Available at: https://www.nasa.gov/sites/default/files/files/
NASA_Partnership_Report_LR_20140429.pdf
    \7\ NASA, ``Bigelow Expandable Activity Module (BEAM),'' May 31, 
2017. Available at: https://www.nasa.gov/mission_pages/station/
research/experiments/1804.html
---------------------------------------------------------------------------
III. Value of Partnerships and Commercial-Type Partnerships
    By any accounting, the COTS program has been an historic success. 
According to NASA, ``[b]ecause these were partnerships, not traditional 
contracts, NASA leveraged its $800M COTS program budget [less than a 
single Space Shuttle mission] with partner funds. This resulted in two 
new U.S. medium-class launch vehicles and two automated cargo 
spacecraft and demonstrated the efficiency of such partnerships.'' \8\ 
We encourage the Committee to consider ways to take the lessons learned 
from the COTS program and more broadly utilize of the basic features of 
this approach in future public-private partnerships that extend to deep 
space exploration initiatives.
---------------------------------------------------------------------------
    \8\ NASA, ``Commercial Orbital Transportation Services: A New Era 
in Spaceflight,'' February 2014. Available at: https://www.nasa.gov/
sites/default/files/files/SP-2014-617.pdf
---------------------------------------------------------------------------
    The basic features of the COTS program include:

  (1)  Establishing high-level requirements and encouraging contractors 
        to execute against them with creative, innovate, and cost-
        effective solutions, reducing ``requirements creep'' and 
        encouraging new thinking. The COTS program required contractors 
        to meet a clear set of established safety and interface ISS 
        requirements and high-level milestone requirements, rather than 
        implementing overly-specified and ever-changing detailed 
        Government requirements. This requires the Government customer 
        to tell contractors what they need to be done, rather than 
        prescribing how to do it. Coupled with firm, fixed-price 
        arrangements, the Government Accountability Office (GAO) has 
        found that ``the use of firm-fixed-price contracts--along with 
        well-defined requirements and a sufficient level of knowledge 
        about critical technologies--presents the least risk to the 
        government.'' \9\
---------------------------------------------------------------------------
    \9\ Government Accountability Office, ``NASA: Acquisition Approach 
for Commercial Crew Transportation Includes Good Practices, but Faces 
Significant Challenges,'' December 2011, (GAO-12-282). Available at: 
http://www.gao.gov/assets/590/587021.pdf. (Emphasis added).

  (2)  Using firm, fixed price, pay-for-performance, milestone based 
        agreements or contracts, creating proper incentives on the 
        contractor to execute toward successful conclusion, and 
        discouraging continuous Government requirement changes that add 
        costs and delay schedules. Pay-for-performance creates proper 
        incentives on both sides of the Government/contractor 
        relationship. Here, the GAO has reported: ``[f]irm-fixed-price 
        contracts place the onus on the contractor to provide the 
        deliverable at the time, place, and price negotiated by the 
        contractor and the government. In addition, firm-fixed-price 
        contracts place the maximum risk on the contractor as well as 
        full responsibility for all costs and any resulting profit or 
        loss.'' \10\
---------------------------------------------------------------------------
    \10\ Ibid.

  (3)  Maximizing competition, which is critical to drive value and 
        performance, and improve quality of service to the customer. 
        Again, GAO has reported that ``promoting competition can help 
        save the taxpayer money, improve contractor performance, and 
        promote accountability for results.'' \11\
---------------------------------------------------------------------------
    \11\ Ibid.

  (4)  Requiring a significant private capital contribution to the 
        overall program. The COTS agreements required commercial 
        partners to share costs and provide a significant percentage of 
        the overall total investment, resulting in lower costs to the 
        Government and high incentives for commercial firms to drive 
        toward operational success to generate revenue and recoup their 
---------------------------------------------------------------------------
        investment.

  (5)  Tolerating programmatic risk, and easy termination for failure. 
        One of the major early lessons learned under the COTS model was 
        borne of the failure of Rocketplane-Kistler, one of the 
        original winners of the first competitive down-select, 
        alongside SpaceX. Ultimately, Rocketplane-Kistler was unable to 
        execute against one of the financial milestones in its 
        agreement with NASA. As a result, NASA was able to early 
        terminate the agreement without significant lost investment or 
        time, and pivot to OrbitalATK (then Orbital Sciences) to serve 
        as the second provider under the program. This flexibility to 
        terminate contracts and rapidly ``stop the bleeding'' on non-
        functional programs is one that is largely lost when applied to 
        traditional FAR-based contracts.

  (6)  Encouraging new, non-traditional companies to work with NASA. 
        Due to the complexity and cost associated with conforming to 
        traditional FAR-based contract requirements, start-up companies 
        with small teams and no expertise interfacing with the complex 
        regulatory and contractual environment associated with U.S. 
        Government are often deterred from participating at all. As a 
        result, the Government is often not at the cutting edge of new 
        commercial technology offerings. The use of Space Act 
        Agreements--as with COTS--can help enable such firms to do 
        business with the Government.

  (7)  Facilitating the development of new markets, and leveraging 
        market-driven pricing to support U.S. Government requirements 
        and missions. Today, SpaceX is the world's leading commercial 
        launch services provider measured by manifested launches. A 
        substantial majority of our more than 70 missions under 
        contract are commercial. This year, we are on track to launch 
        more than half of the world's accessible \12\ commercial 
        missions to geostationary transfer orbit (GTO). Next year, we 
        expect to launch a majority of the world's missions to GTO with 
        our Falcon 9 and Falcon Heavy launch vehicles.
---------------------------------------------------------------------------
    \12\ Not all of the world's commercial satellite launches are open 
to competition.

      Prior to SpaceX entering the commercial space launch market with 
        the Falcon 9 launch vehicle, the U.S. had effectively ceded 
        this market to France and to Russia, and no U.S. company had 
        launched a single commercial mission to GTO since 2009. SpaceX 
        has brought this multi-billion dollar market back to the United 
        States. The benefit to NASA, and to the entire U.S. Government 
        when buying launch services, is that commercial competitiveness 
        drives launch prices lower for the Government customer (since 
        costs are widely distributed instead of borne entirely by the 
        Government), increases the robustness of the launch company's 
        business, and increases reliability and launch heritage through 
        higher flight rates. As a result of COTS--at least with respect 
        to SpaceX--NASA and the Department of Defense are paying lower 
        prices for launch with higher performance than in the past.
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
IV. Recommendations for Increasing Use of Public-Private Partnerships 
        for Deep Space Exploration
    SpaceX applauds this Committee for examining ways in which public-
private partnerships and commercial arrangements can contribute to the 
Nation's space exploration objectives, just as they have done to 
enhance America's capabilities in low-Earth orbit. To this day, 
America's achievement of landing men on the Moon and returning them 
safely to Earth likely represents humankind's greatest and most 
inspirational technological achievement. This was accomplished in eight 
years using slide rules and pencils, with engineers literally inventing 
rocket science as they progressed. Now, other nations like China seek 
to replicate an achievement America first accomplished 48 years ago.
    With the technology advancements and increased knowledge through 
decades of work by NASA in deep space, including Mars, the United 
States is now well-positioned to build upon past achievements in space 
and surpass them. Coupled with the NASA resources and unique expertise, 
American ingenuity, the principles of free enterprise, and the benefits 
of competition, the United States can do more in space than has ever 
been accomplished previously.
    SpaceX recommends that, in parallel with existing programs at NASA 
focused on deep space exploration transportation and architectures, 
NASA again leverages non-traditional, public-private partnerships to 
improve the likelihood of success for its space exploration objectives. 
By leveraging flexible, innovative contracting approaches as well as 
private capital, NASA and the space program could generate efficiency 
gains and accelerate progress, while expanding the potential pool of 
technology companies contributing to the overall effort to expand 
humanity's presence in the solar system and ultimately establish 
settlements on other planets.
    What are the goals and near-term outcomes of such an approach?

  <bullet> American Aspiration and Inspiration. The last astronaut left 
        the surface of the Moon in 1972, and no one has returned since. 
        Despite being an historic achievement for America and 
        humankind, the Apollo program did not create a lasting, 
        sustained presence in deep space for humanity. A permanent 
        human presence on the Moon presents humanity's next obvious 
        foothold outside of Earth. However, rather than look back to 
        the Moon alone, the United States should also lead the world to 
        the next great destination: Mars. Moving beyond the Earth-Moon 
        system will open the broader solar system to human exploration, 
        a potentially generations-long enterprise. Both missions would 
        enable settlement and tap into America's spirit of exploration.

  <bullet> U.S. Leadership. A realistic and sustainable human 
        exploration program will demonstrate American leadership in 
        space exploration, technology innovation, and scientific 
        discovery for many years to come. This leadership will enhance 
        the American economy, extend America's technological edge, and 
        project American power. The technologies and applications 
        developed invariably will have beneficial impacts to America's 
        national security goals and space superiority.

  <bullet> American Jobs and Industrial Growth. Every dollar spent on 
        effective public-private partnerships and commercial-type 
        contracts to establish an American presence on the Moon or Mars 
        represents an investment in our economy, our technological 
        infrastructure, and our ability to achieve accelerated 
        advancements in space exploration and settlement. A viable Moon 
        or Mars program will create tens of thousands of high-tech, 
        high-paying American jobs and revitalize the U.S. manufacturing 
        sector in order to develop and produce large scale systems for 
        deep space transportation and capability (e.g., propulsion 
        systems, launch vehicles, spaceships, orbiting reconnaissance 
        systems, and communications satellites), as well as systems to 
        enable a permanent human presence on celestial bodies other 
        than Earth (e.g., life support systems, habitats, surface 
        power, surface exploration, and resource extraction). A Moon-
        Mars initiative that leverages the strengths of the U.S. 
        Government and the strengths of the private sector and invests 
        in America's workforce will create new, high-paying American 
        jobs in dozens of states--but most importantly, it will move 
        the Nation's space exploration goals meaningfully forward.

    To run in parallel with existing programs and increase the 
probability of success of establishing initial human presence on the 
Moon or Mars within the next in eight years to ten years, NASA could 
build upon the already demonstrated successful COTS model and create a 
similar COTS-like program for deep space exploration initiatives based 
on the following proven elements:

  <bullet> Competition. NASA should hold an outcome-oriented, open 
        competition, and award initial contracts to at least four 
        companies. Later, NASA should down-select to at least two 
        contractors to maintain competition and, critically, to have 
        back up capability. Companies (or teams of companies) can 
        compete with existing or novel designs and technologies.

  <bullet> Focus on Performance Goals Not Requirements. Like the COTS 
        program, NASA should set overall goals and establish clear 
        milestones for the program and enforce only the necessary level 
        of requirements and conduct continuous insight to ensure 
        contractors are meeting milestones. NASA should let private 
        companies determine how to achieve high-level requirements, 
        rather dictate detailed specifications that suffocate 
        innovation and ingenuity.

  <bullet> Fixed-Price, Milestone-Based Payments. NASA should pay for 
        performance achieved along the way, on a firm, fixed-price 
        basis that encourages rapid prototyping and development, rather 
        than only use traditional cost-plus Government contracts that 
        historically have resulted in cost overruns and led to schedule 
        delays.

  <bullet> Contractor Investment/Public-Private Partnership. The 
        benefits and burdens of funding such a program should be shared 
        by the Government and awardees, with commercial space partners 
        making commitments of at least one-third of the funding for any 
        bid made. This will buy-down risk for the Government, 
        incentivize performance, and demonstrate commitment. 
        Corporations should view this as an investment in technology 
        and potential follow-on business.

    Mr. Chairman, I appreciate your invitation to testify before the 
Committee today. Commercial-type contracts and public-private 
partnerships have resulted in significant successful outcomes for NASA 
and the Nation with respect to space capability. The principles applied 
in past programs for low-Earth orbit capability can and should be 
applied to deep space exploration. The United States can achieve 
incredible advancements in technology by coupling NASA's established 
capabilities, technical skills, and resources with those of the private 
sector and American entrepreneurship.
    Again, we appreciate and support the work this Committee has 
undertaken to address policy matters before the commercial space 
industry, and we look forward to continuing the dialogue.

    Senator Cruz. Thank you, Mr. Hughes.
    Dr. Jah.

STATEMENT OF DR. MORIBA K. JAH, ASSOCIATE PROFESSOR, AEROSPACE 
   ENGINEERING AND ENGINEERING MECHANICS, COCKELL SCHOOL OF 
         ENGINEERING, THE UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Jah. Chairman Cruz, Subcommittee Ranking Member, Mr. 
Markey, and other members, Senator Nelson, thank you very much 
for having me here today coming to you from UT Austin.
    I would like to speak to you a little bit today about some 
of the problems that we have in space and why it's critical 
that we do some problem-solving with not just government, but 
academia and private industry.
    Right now, the United States Strategic Command maintains a 
database or a catalog of about 23,000 objects the size of a 
softball and large all the way to school bus size. The good 
news is that they are maintaining this day in and day out and 
really working hard at it. The bad news is that it's not all 
the objects in space that can threaten critical space services 
and capabilities.
    Before, when space first started with Sputnik, you only had 
a few objects on orbit, so it wasn't very difficult to know 
where things were or where things could be, but with 23,000 
objects that are being tracked and others that are detected but 
not tracked for a variety of reasons, it poses a huge problem.
    The other thing, too, is that we have countries like India, 
they just broke this record of launching 104 satellites in one 
fell swoop just a few months ago. They're going to continue to 
do this and just saturate the orbits with a lot of satellites, 
which in and of itself isn't a bad thing. We shouldn't be 
concerned with congestion; we should be concerned with not 
understanding where these things are going, how they're 
behaving, so that we can help businesses and commerce thrive.
    I really like the analogy of the Western Frontier of old 
because that's what space is pretty much today. Basically you 
have some folks that are going up there trying to make money. 
The big bonanza seems to be putting as much on orbit to look 
down to track human-based activity or to monitor the Earth. 
Also, you have OneWeb and SpaceX that are looking to do global 
Internet. These are all great things.
    But the guidelines that have been put in place to protect 
that sanctuary, which no longer is quite the sanctuary it was 
in terms of orbital safety and long-term preservation of space 
activities, those guidelines are ill-suited because they were 
based on a paradigm of decades ago, not what we're facing now 
with all these new launches. And, again, the new launches 
aren't a problem; the problem is that we don't have a space 
traffic management system to really understand how best to do 
these things.
    For instance, all the objects that the USSTRATCOM tracks, 
they're all modeled as spheres. How do we regulate spheres? How 
do we understand which sphere is doing what when? It's very 
difficult to do. On the roadways, we have guidelines on how to 
manage the traffic. Things are based on size, how many axles, 
that sort of thing. Trucks that are carrying hazardous material 
are treated very differently than Vespa scooters. Maritime oil 
tankers are treated very differently than kayaks and canoes. 
What do we have for space? Nothing. We don't have anything 
today, and that is a problem. There's a vacuum that needs to be 
filled, and the United States is in the best position to do 
that collaboratively between government, academia, and 
industry.
    Russia is basically saying that they want to have the UN 
lead a space traffic management system. That's not a widely 
adopted viewpoint for a variety of reasons. And so, again, the 
United States is in a great position to show some leadership 
and do something about this.
    Regarding that space traffic management system, what should 
this space traffic management system do? For sure, it should 
ensure the safety of operations in space, maximize and 
incentivize commercial opportunities. I hear some people on 
orbit saying, ``Oh, FCC, please don't grant any more licenses 
because any single object up here is going to pose this risk of 
cataclysmic failures and all these things.'' That's not 
necessarily the case. We have an unquantified risk because 
there is so much that we still don't know. There is science 
that still needs to be done.
    We also need to provide transparency. USSTRATCOM is doing 
the best it can to provide orbital safety products, but they 
can't disclose where everything is in space for very good 
reasons, so they shouldn't be asked to do that, and this is a 
good reason why I agree with General Hyten here why that should 
be moved outside of the DoD's purview.
    A CSTM, a Civil Space Traffic Management System, should 
observe and monitor, track and catalog these objects, and 
inform the public of where things are at for orbital safety 
purposes and reasons.
    And with that, I say thank you again very much for having 
me here. And I look forward to answering any questions that you 
may have.
    [The prepared statement of Dr. Jah follows:]

    Prepared Statement of Moriba K. Jah, Ph.D. Associate Professor, 
  Aerospace Engineering and Engineering Mechanics, Cockrell School of 
             Engineering, The University of Texas at Austin
    Mr. Committee Chairman Thune, Mr. Subcommittee Chairman Cruz, 
Subcommittee Ranking Member Mr. Markey, and other members of this 
subcommittee, thank you for the invitation to appear before you today 
to share my view of some salient issues that affect orbital safety, 
space traffic, and the future of our Nation's space exploration and 
exploitation program. It is an honor to be seated at this table with 
some of our world's Space sector giants. My name is Moriba Jah. I'm an 
engineer, scientist, and a technologist. The views I express today have 
been shaped through an 18-year aerospace engineering career in 
government, industry and academia. I started my career as a member of 
the technical staff of the NASA Jet Propulsion Laboratory. I navigated 
a variety of spacecraft to Mars and Asteroid Itokawa, and also 
developed advanced spacecraft navigation algorithms toward autonomy and 
improved orbital knowledge, beginning with Mars Global Surveyor and 
ending with the Mars Reconnaissance Orbiter mission. After JPL, I 
worked as a Civil Servant in the Air Force Research Laboratory, where I 
led the design, development, and implementation of algorithms that have 
successfully and autonomously detected, tracked, identified, and 
characterized man-made objects in space, so called ``Resident Space 
Objects,'' to include orbital debris. My last position within AFRL was 
as the Mission Lead for Space Situational Awareness. Amongst my 
achievements, I was given the highest award that can be earned as an 
AFRL employee, that of AFRL Fellow. Currently, I am fortunate to serve 
on the faculty of the Aerospace Engineering and Engineering Mechanics 
Department, in the Cockrell School of Engineering at the University of 
Texas at Austin. At UT Austin, I lead a research program called ASTRIA 
focused on the design, development, and technical transition of 
astronautical sciences and technologies relevant to Spacecraft 
Navigation, Space Situational Awareness, and Space Traffic Management. 
I am a Fellow of several organizations and professional societies and 
serve as a chair and member of several major space-related national and 
international technical committees. However, I am here today as an 
individual and the views I express are mine alone. I'd like to also 
thank my wife Cassaundra, and children Denali, Inara, and Satyana for 
lending me to you, today.
Executive Summary
    We have laws, regulations, and norms of behavior on our roadways, 
waterways, and airways. We classify and regulate traffic based upon 
things like size, maneuverability, weight, hazard potential, and 
others. An oil tanker is treated very differently than a kayak. A truck 
carrying hazardous fuel is treated quite differently than a Vespa 
scooter.
    Do we have an equivalent Civil Space Traffic Management (CSTM) 
System? No. Do we need one? Absolutely. Why? Uncontrolled and 
unpredictable growth of the use of near Earth space. What form could a 
CSTM System take? What role should America have in it? This is what I 
am here to discuss.
    To be clear, the question is not, ``do we need a Civil Space 
Traffic Management system'' but rather, ``What form does such a system 
involve and how do we design, test, implement, enforce, and maintain 
the system.''
    Today, I'm going to address this problem by briefly establishing:

  <bullet> Why we need such a CSTM system

  <bullet> What could be the components of a CSTM system

  <bullet> What are the next steps required to put this into effect

    Regarding the ``why'' of us needing a CSTM System, I'll begin by 
saying that our Space Domain and Environment is no longer the sparsely-
populated state-actor-dominant sphere of activity it was decades ago. 
Our need to explore and grow has motivated the commercial sector, 
epitomized by our own people the likes of Mr Jeff Bezos and Elon Musk, 
to discover the state-of-the-possible and turn that into our state-of-
practice. This is exactly what we want to see happen and indeed foster 
and encourage. However, the U.S. is not the only country with growing 
activities in space. India, just recently broke the record for the 
largest number of deployed satellites in a single launch, 104 to be 
exact. Licenses are currently being sought for the launch and 
deployment of thousands of satellites, within the next few years. So, 
who is rigorously and comprehensively analyzing the growth of the 
Resident Space Object population and how does this affect Orbital 
Safety of Operations and the Long-Term Sustainability of Space 
Activities? The view of most space actors and investors is that it is 
someone else's problem! I vehemently disagree.
    The Space Domain and Environment is still much like our Western 
Frontier of old. It suffers from a lack of monitoring, vast 
geographical sparsity, potential for ``lawlessness'', lack of 
environmental protection, etc. Space Piracy has likely already 
happened, is happening, and will happen so long as we lack the ability 
to comprehensively monitor all space activities. This unfortunate human 
behavior has happened in all other domains and to expect the Space 
Domain to be an exception is naive at best. The problem is exacerbated 
by the fact that our space technology has made access to space cheaper, 
which has brought greater numbers of space actors to participate in the 
space commerce sector, much like what the Transcontinental Railroad did 
for businesses connecting the East Coast with the Western Frontier.
    The United States of America has developed, maintains, and 
distributes, to the rest of the world, the largest free record of 
cataloged man-made objects in space, so called ``Resident Space 
Objects''. This catalog is owned and operated by the U.S. Department of 
Defense, specifically our dedicated men and women of the U.S. Strategic 
Command (USSTRATCOM). Many organizations and entities around the world 
use these Orbital Safety products on a daily basis. However, for the 
growing needs and demands of the space community these products have 
been shown many times to be inadequate. They incur an increasing burden 
upon the USSTRATCOM primary mission, which is National Defense.
    We need a CSTM system because:

  <bullet> Orbital Debris experts worldwide agree that

    <ctr-circle> Compared to what is being tracked in our USSTRATCOM 
            catalog, the number of mission-damaging and debris-
            generating RSOs (1 centimeter in diameter and larger) is at 
            least 100 times greater.

    <ctr-circle> Two-Line-Elements (TLEs), which provide basic orbital 
            information on RSOs, are insufficient to meet growing 
            Orbital Safety needs because the theory is based on 
            averaged motion and they lack any measure of uncertainty.

  <bullet> We do not fully understand the reasons we cannot track more 
        objects. All untrackable objects pose an unquantified level of 
        threat or hazard to space operations and safety.

  <bullet> For reasons of National Security, USSTRATCOM cannot be fully 
        transparent in providing knowledge of where all trackable RSOs 
        are located in space. This is at odds with efforts at the 
        United Nations Committee On Peaceful Uses of Outer Space (UN-
        COPUOS) where we talk about transparency and confidence 
        building measures (TCBMs) for collaboration.

  <bullet> Russia has suggested the creation of a UN-developed and led 
        effort to perform Space Traffic Management/Control. This is not 
        a view accepted by everyone, but if we do not step up as 
        leaders and provide a meaningful solution for others to join 
        and follow, someone else absolutely will. It's only a matter of 
        time.

  <bullet> Europe is developing their own Space Situational Awareness 
        (SSA) program and their own catalog of RSOs, as well as many 
        other nations, in part because the USSTRATCOM products do not 
        meet their SSA and STM needs and requirements.

  <bullet> The number of RSOs is growing at a rate that is outpacing 
        global governance measures for the space domain and 
        environment.
What are the proposed components of a Civil STM System?
    The CSTM Mission should:

  <bullet> Assure the safety of operations in space.

  <bullet> Maximize, foster, and incentivize the use of commercial 
        capabilities and data sources.

  <bullet> Provide transparency, advocacy of informed guidelines, and 
        safety services as a public good to preserve the space 
        environment for continued, unhindered, and uncontested access 
        and use of space.

    The CSTM Primary Functions would be to:

  <bullet> Observe and Monitor: Space Domain and Traffic Observations, 
        Space Situational Awareness (SSA)

  <bullet> Track and Catalog: Identify, Characterize, and Catalog 
        Objects; Relational Statistics, Catalog Updates, Traffic 
        Attribution, Achieve Track ``Custody''

  <bullet> Analyze and Inform: Information Dissemination, Safety 
        Products, Conjunction Data Messages
What are the next steps required to put this into effect?

  <bullet> Provide the FAA with an adequately funded and resourced 
        mandate to: (1) use their STM Pilot Program to work with the 
        community and provide the first instance of a Civil STM system 
        and (2) begin collecting and exploiting space object (e.g., 
        non-SSN tracking) data for orbital safety purposes, with an eye 
        to do this via a Public-Private-Partnership.

  <bullet> Create or expand the existing role of NASA to: (1) lead the 
        technical requirements for a robust, effective, and meaningful 
        CSTM System, and (2) to work closely with other government 
        agencies, industry, and academia.

    <ctr-circle> Conjunction Analysis concerns itself with predicting 
            close approaches between any two RSOs; it is a growing and 
            changing field, and research into new methods is critical 
            to keep up with the rapidly changing and marginally 
            predictable space environment. NASA already has a research 
            investment in this area (the CARA Program at Goddard Space 
            Flight Center) that can be leveraged along with 30+ years 
            of developing and executing this capability for use by 
            civil space operators. It is government's role to retire 
            risk, invest in Science and Technology (S&T) Research and 
            Development (R&D), and share the results with the community 
            to encourage growth.

  <bullet> Invest in and expand the role of University Affiliated 
        Research Centers (UARCs) as foundational, dedicated, and 
        focused government-academic partnerships to solidify science 
        and technology (S&T) research and development for critical 
        space-related core technical competencies and technology risk-
        retirement needed by the U.S. Space Exploration program and 
        Commercial Space Industry.

  <bullet> Engage and craft mechanisms for Industry to get their 
        investment and participation in a CSTM System:

    <ctr-circle> Satellite manufacturers

    <ctr-circle> Satellite launch providers

    <ctr-circle> Space Insurance Brokers and Providers

    <ctr-circle> Commercial Space Situational Awareness Providers

    <ctr-circle> Space Angel Investors and Venture Capitalists

    <ctr-circle> Space Service Users

    Mr. Chairman, in the years since the end of World War II, American 
Exceptionalism has set standards to which the world has aspired. Right 
now, today, the world needs leadership in this issue. Implemented 
effectively, Space Traffic Management will provide secure access to 
space for our critical national infrastructure. It will guarantee 
America can lead the world in the commercial exploitation of space, and 
that America can maintain its lead over the world in space exploration 
and space science. This committee could provide that leadership, and 
the opportunity to act is before you.
Narrative
    In my vast travels around the globe, speaking to and collaborating 
with space scientists, engineers, and policymakers, it is evident that 
``American Exceptionalism'' is still invoked and desperately yearned 
for, by the many. America's leadership in the space domain, underscored 
by taking on and delivering upon what seemed to be an impossible feat, 
to send humans to another celestial body and return them safely, has 
inspired not only our great nation, but an entire planet, and seeded 
some of the world's most creative and innovative ideas.
    Exploration is critical to who we are as a species; it drives our 
growth and evolution. When our minds and bodies are idle, we tend to 
self-defeating behaviors. What brings out the best in Americans? Rising 
to great challenges, and working as a nation to overcome them. What got 
Americans to the Moon and back, safely and repeatedly? Government, 
Industry and Academia working seamlessly, together. No one sector could 
do it by themselves.
    The U.S. Strategic Command (USSTRATCOM) currently has over 24,000 
records active in its space situational awareness database, commonly 
referred to as the Department of Defense ``catalog.'' Of these, well 
over 18,400 records correspond to well-tracked, well-understood RSOs in 
Earth-centric orbit, roughly 1,300 of which are operational satellites; 
the rest are so-called ``space junk.'' The remaining records in 
USSTRATCOM's active space situational awareness database are not as 
well-tracked or understood, which creates uncertainty when operational 
satellites are screened against them to identify possible spaceflight 
safety hazards, or conjunctions. The number of RSOs is increasing given 
an increase in launches, and on-orbit breakup events (i.e., when one 
RSO collides with another, a satellite explodes, or breaks on its own 
due to space aging and material fatigue and stresses). If we could 
track every detected object, we could wrap a sensible Space Traffic 
Management system around that and even develop empirically-based 
policies and regulations. Unfortunately, it is hypothesized that we can 
only track a few percent of the total number of RSOs that can cause 
loss, disruption, or degradation to critical space services, 
capabilities, and activities. In other words, we have an orbital 
iceberg equivalent of sorts. The ability to track an object in space 
depends on two main factors: our ability to detect the object AND our 
ability to uniquely identify the object. This is to underscore that an 
object that is detectable does not imply it is trackable, and this is a 
critical distinction to make moving forward.
    Tracking an object means that we know where it was, is, and have 
some idea of what it is and where it will be. Think of how we track air 
traffic, where the aircraft is in the custody of someone who monitors 
its motion and relationship to other aircraft. The following Figure (1) 
puts into perspective the problem we face in our inability to track 
more of the objects we can detect. It was generated from real data 
collected by the U.S. Space Surveillance Telescope, about to be shipped 
to Exmouth, Australia. It is worth mentioning that while we will soon 
have a long-awaited Space Fence on Kwajalein, the results are likely to 
be much like with the Space Surveillance Telescope, as seen in Figure 
1. When one has an exquisite sensor and it's unique, you'll get very 
accurate observations during a very small part of the total orbit and 
you'll be observing things that other sensors will not or cannot. Think 
of a hula-hoop. An exquisite sensor is having one hand on this hoop. 
Think about the variety of ways in which the hula-hoop can rotate if 
you only grab it with one hand. This is like the ambiguity you will 
have with a unique and exquisite sensor. It will help but you'll have a 
large number of objects that you can detect but will be unable to 
track.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. A Single Night's Worth of Resident Space Object (RSO 
Detections (for various orbital regions) from the U.S. Space 
Surveillance Telescope (SST) in New Mexico. Detections (dots) that are 
Black are those believed to be from known (cataloged) RSOs. All else 
(Cyan) are Detectable but Untrackable RSOs.

    So, what prevents us from doing better at tracking objects in 
space? First, we don't have ubiquitous observations, meaning we don't 
persistently detect all objects all of the time. In fact, we generally 
have very sparse observations on any given object in space. Globally, 
we do not share observational data as a community. This lack of data 
sharing is perhaps the single most problem in us having a more robust 
space traffic monitoring and management capability. Secondly, every 
single object in the world's largest space object catalog (that of our 
DoD) is represented and modeled as a sphere, a cannonball in space! 
Needless to say, there aren't many man-made cannonball-shaped objects 
in space. Only those space objects whose motion is not significantly 
different from that of a sphere in between observations, are ones we 
can ``track.'' Gravity is what I call an equal opportunity accelerator: 
just tell me where you are and I will tell you your acceleration due to 
gravity, regardless of your size, shape, material constitution, 
orientation, etc. However, there are non-gravitational forces 
experienced by objects and all of these depend on the object's physical 
characteristics. Thus, the lack of a rigorous object characterization 
and classification scheme is a strong contributor to our inability to 
track more objects in space. When we wish to understand any population 
of things, we first ``tag'' individuals in that population and then 
``track'' these individuals through time, space, frequencies, and 
evaluate their interaction with other individuals and their 
environment. We formulate hypotheses, test them, and draw conclusions 
based upon evidence. We do not do this, rigorously and scientifically, 
for space objects. If we wish to someday have a Code of Conduct for 
Outer Space, we will need to know how many classes or species of space 
objects there are, and how each class moves, behaves, is influenced by 
the local environment, etc. Trucks carrying hazardous fuel are 
regulated differently than Vespa scooters, Oil Tankers on our seas are 
regulated differently than kayaks and canoes. So, why would we treat 
all things in space as the same thing . . . cannonballs? The following 
figure (2) is a cartoon to show the difference between the limitations 
imposed by assuming space objects to be cannonball-like versus what 
they actually are like.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Difference between the motion experienced by a spherical 
(cannonball-like) space object and a satellite with realistic size, 
shape, orientation, and material properties. For the sphere, the 
acceleration due to the sun's effects are unidirectional. In reality, 
our tracking data informs us that objects experience accelerations due 
to the Sun's effects in 3-dimensional space (multi-directional).

    Lastly, regarding our inability to track more objects in space, are 
the mathematics and physics we use to process the observed data and 
infer physical quantities regarding these objects. It really matters . 
. . call these our algorithms. Our representation of uncertainties is 
demonstrably and inarguably oftentimes flawed, unrealistic, and 
inconsistent amongst our software and tools. The following figure (3) 
shows a picture our current problem with having multiple detections at 
multiple times and having to find clever methods of uniquely 
identifying objects in order to make them go from detectable to 
trackable. Most RSOs are defunct and therefore do not self-report their 
identities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. How to Uniquely Identify Space Objects from a Set of 
Unidentified Detected Objects in Order to Make Detectable Objects, 
Trackable. The method shown here is one of Multiple Hypothesis Testing 
as a mechanism to decide which detections should be paired to which 
objects.

    If the RSO population was held constant, I'd say we'd have more 
time on our hands to figure this all out. However, our global space 
environment is on a path of suffering a Tragedy of the Commons given 
that our Geospace belongs to all humans and that many space actors 
behave according to their own self-interests without full consideration 
of the impact of their space operations and activities on the whole 
environment . . . our Space Commons!
    As the cost of access to space is decreasing, the number of space 
actors is increasing. It's like what the Transcontinental Railroad did 
for helping businesses explode, connecting the East Coast and Western 
Frontier. Just a few months ago, we saw a record-breaking 104 
satellites being deployed by India's PSLV space capabilities. 
Unfortunately, while they did assess potential collisions amongst these 
104 satellites, no one performed analyses of potential collisions 
between those 104 newly deployed satellites and the remainder of the 
current RSO population. OneWeb just recently received the ``green 
light'' from the FCC to equip LEO with over a thousand satellites that 
will aim to provide global internet. SpaceX will surely be soon to 
follow with a planned 4000 satellites.
    As experienced in the Western Frontier of old, the environmental 
impact of runaway mining and prospecting was harsh and detrimental in 
many instances. Examples are mercury poisoning, silt in our water 
sources, etc. Our space environment is becoming much more commercially 
driven and populated. Many ``New Space'' companies or start-ups are 
getting significant investment from Angel Investors and Venture 
Capitalists who are focused on getting a Return On Investment (ROI) 
within a few years, believing Space Traffic and Orbital Safety to be 
someone else's problem. I have personally found an absence of space 
operations expertise amongst the workforce driving some of these ``New 
Space'' ventures, causing me further concern regarding orbital safety 
and long-term sustainability of space activities. There is a mentality 
of ``take risks and fail often.'' While this worked well for software 
companies in Silicon Valley, we can't afford to have this exact 
mentality in space.
    Existing orbital safety methods, information, and processes are not 
designed to handle the current space traffic conditions let alone the 
planned activities with larger satellite constellations. There are no 
standard ``rules of the road'' for space operations and activities, and 
we should avoid creating these in a vacuum, absent informed science and 
technology. While USSTRATCOM provides orbital safety products to the 
world for free on behalf of the U.S. Government, for very good reasons 
it cannot simultaneously be fully open and transparent and this is a 
self-evident obstacle to meaningful international collaboration and 
partnership due to its defensive responsibilities. I'm in full 
agreement with Gen Hyten, Gen Raymond, Rep Bridenstine, Rep Babin, and 
others in that a Civil Space Traffic Management (CSTM) system makes 
good sense to enabling more innovative U.S. space operations into the 
future.
    A government-only solution makes no sense given that transparency, 
open sharing, ease of working with international partners, etc. is a 
strenuous situation for the U.S. Government at best. The government 
also lack the full spectrum of expertise required to do this job 
exceptionally well. A commercial-only solution makes no sense because 
no single entity has the solution to such a multi-disciplinary problem, 
nor does it have all the expertise required. Moreover, funding a 
company or consortium of companies to do this is likely to result in an 
inability for external input to be well received and incorporated. I've 
witnessed and experienced this, many times, as a Civil Servant.
    Therefore, I propose that the best solution moving forward would be 
to create a Non-profit Civil Space Traffic Management (CSTM) Public-
Private-Partnership (PPP) that will:

  <bullet> Accelerate the pace and reduce the costs of CSTM development 
        by modernizing approaches to SSA and STM, with focus on long-
        term sustainability of space activities, through the creation 
        of new federated data standards, measurement standards, models 
        and ontologies, open source software, and data management and 
        analysis techniques that aid in the scientific evaluation of 
        the efficacy and safety of space operations, and attendant 
        policies.

  <bullet> Act as a neutral public-private entity that could create 
        consortia of industry, academia, and government for 
        collaboration and sharing of databases, computational 
        techniques, and standards.

  <bullet> Operate a CSTM system that provides the accuracies and 
        products necessary to safely enable innovative and non-
        traditional commercial uses of space.

    The CSTM Mission should be to:

  <bullet> Assure the safety of operations in space.

  <bullet> Maximize, encourage, and incentivize the use of commercial 
        capabilities and data sources.

  <bullet> Provide transparency, advocacy of informed guidelines, and 
        safety services as a public good to preserve the space 
        environment.

    The CSTM Primary Functions would be to:

  <bullet> Observe and Monitor: Space Domain and Traffic Observations, 
        Space Situational Awareness (SSA)

  <bullet> Track and Catalog: Identify, Characterize, and Catalog 
        Objects; Relational Statistics, Catalog Updates, Traffic 
        Attribution, Achieve Track ``Custody''

  <bullet> Analyze and Inform: Information Dissemination, Safety 
        Products, Conjunction Data Messages

    The Tenants of a Non-Profit CSTM Public Private Partnership (PPP) 
would be to provide and incentivize:

  <bullet> Open observational data--All collected or acquired data will 
        be made open and available for 3rd party analysis to improve 
        learning and enable high Quality of Service domain analysis.

  <bullet> Open catalog of space objects and events--All derived 
        conclusions from CSTM data will be made open and available for 
        3rd party verification and peer-review of results and 
        conclusions.

  <bullet> Open Safety Advisory Services--As these services are 
        intended to be a global public good, they will be made 
        available to the world.

  <bullet> Open and objective verification of data and analyses--As the 
        CSTM capabilities and processes improve, impartial feedback 
        will be made available to all service providers in the spirit 
        of achieving increasingly effective Quality of Service.

  <bullet> Open Market--It is not the role of the FAA to define the 
        economics of the data and/or analysis marketplace. The intent 
        of the CSTM PPP is to empower industry to stay involved in the 
        provision of service to all space domain actors.

  <bullet> Open Workforce Development--It is to the benefit of all for 
        the specialized skills required of effective space traffic 
        managers to proliferate globally. To this end this CSTM PPP 
        will support mechanisms which result in the education of 
        additional skilled space traffic managers and analysts.

    The Benefits of a CSTM PPP are that it would:

  <bullet> Provide standard and benchmark data sets that enable 
        quantifiably consistent comparative analyses between competing 
        tools, techniques, and algorithms.

  <bullet> Provide the government with a transparent mechanism to guide 
        and exploit CSTM activities and capabilities AND a sustained/
        focused investment in STEM education.

  <bullet> Provide industry with a free foundational CSTM service and a 
        marketplace of focused, cost-shared and openly available 
        sciences and technologies that it can ``pick up'' and 
        operationalize/commercialize for its own profit.

  <bullet> Provide academia with a sustained scientific and 
        technological CSTM research and educational investment, to 
        ensure that the U.S. is stocked with capable and skilled 
        workforce to handle the scientific and technological problems 
        of tomorrow.

    How does industry profit from such an activity, financially? It can 
easily wrap profit-making services around the foundational ``for public 
good'' layer of orbital safety services and products. It lowers the bar 
for entry for new space initiatives as they don't need to shoulder the 
burden of self-providing of these orbital safety services. It's like 
the benefit of the U.S. developed, owned, and operated Global 
Positioning System (GPS)! Think of not only the paradigm-changing 
science but explosion of commerce that has resulted from this U.S. 
Government investment and service. Many companies have developed 
profit-making applications which exploit the layer of foundational 
service provided by GPS.
    I also propose that the FAA's Center of Excellence in Commercial 
Space Transportation be leveraged as an existing mechanism under which 
a larger academic consortium could be assembled, invested in, and 
properly leveraged for Space Traffic Management. The current FAA CoE 
CST membership would need to be expanded upon and increased but focused 
funding would need to be appropriated and delivered to the CoE with a 
strategic roadmap on how the S&T is developed and transitioned to both 
government and industry. Several University Affiliated Research Centers 
(UARCs) should also be invoked, invested in, and leveraged, to be 
foundational partners in this STM research and development effort. The 
UARCs could provide foundational capabilities and sciences to the FAA 
CoE CST and those CoE academic members could then focus them uniquely 
on STM needs and requirements, working closely with the government and 
commercial communities.
    Two remaining points for me to make are (1) our society has become 
too risk averse. We say that we want to push the boundary of 
exploration except that we are intolerant to failure. This is a gross 
inconsistency. You can't have leading edge exploration with zero 
failure. Failure should be calculated but embraced as a necessity of 
pushing the limits of our science and technology. We maintain a leading 
edge by assuming and embracing risk. We would have never gotten man to 
the moon and back, safely, without taking risks! Had we not achieved 
this lunar exploration first and convincingly, our world would be quite 
different today, and I'm not sure it would be for the better. (2) I 
have been asked if the U.S. Government should take great strides in 
providing security clearances to as many academics as possible. My 
answer is, ``no.'' Instead, put the effort in declassifying material 
that should have never been classified to begin with and material that 
no longer requires it. In other words, make as much information 
available to the largest pool of smart and passionate people as 
possible, without sacrificing national security needs, and our country 
will emerge victorious!
    The motto of my research program at UT Austin, ASTRIA, is:

    Ex Coelestis, Scientia . . . Nihil Arcanum Est! This loosely 
translates to, ``from the heavens, knowledge . . . nothing hides!''
            As Ever,
                                       Moriba K. Jah, Ph.D.
                                               Associate Professor,
                   Aerospace Engineering and Engineering Mechanics,
                                        Cockrell School of Engineering,
                                     The University of Texas at Austin.

    Senator Cruz. Thank you, Dr. Jah.
    Mr. Cabana.

            STATEMENT OF ROBERT D. CABANA, DIRECTOR,

                 JOHN F. KENNEDY SPACE CENTER,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Cabana. Chairman Cruz, Ranking Member Markey, Senator 
Nelson, thank you for this opportunity to appear today to 
discuss NASA's public-private partnerships enabling commercial 
space. I submitted a statement for the record, but I've got a 
few remarks.
    Since the end of the Shuttle program in July 2011, the 
Kennedy Space Center has gone through a major transformation, 
establishing itself as the Nation's premier multiuser 
spaceport, enabling both government and commercial operations 
to and from low-Earth orbit and beyond. This would not have 
been possible without the authorities granted by law that 
allowed us to establish the public-private partnerships that 
have totally reshaped KSC and Florida Space Coast. And I would 
like to thank Senator Nelson for his help in support of this 
effort.
    Following the last flight of the Space Shuttle, KSC 
performed a thorough evaluation of all its facilities, 
identifying those necessary to support the Space Launch System 
and Orion, those that were excess and could support commercial 
operations, and those that were no longer needed and could be 
razed, thus, reducing our operating costs and becoming more 
cost efficient and effective.
    Using a notice of availability in 2011, KSC went out to the 
commercial space industry to see who might be interested in 
operating and maintaining the excess facilities not scheduled 
for demolition. Working directly with the commercial space 
industry, and in partnership with Space Florida, KSC now has 
SpaceX, Boeing, and the Air Force all operating from former 
Shuttle facilities. And in Exploration Park, a research and 
development park, on Kennedy property, but outside the secure 
perimeter, Blue Origin is now building a manufacturing facility 
approximately half the volume of the Vehicle Assembly Building 
for their New Glenn rocket, and OneWeb is building a satellite 
manufacturing facility.
    These partnerships are not successful just because of the 
unique facilities made available, but also because of the 
effort made to allow our commercial partners as much autonomy 
as possible in their day-to-day operations.
    Public-private partnerships work. Instead of having these 
facilities rust away in the salt air, we have enabled a vibrant 
and diverse commercial-government operation on the Space Coast 
that has already seen eight successful launches by SpaceX this 
year.
    The International Space Station is a unique National 
Laboratory in low-Earth orbit that provides a destination for 
our commercial partners: Orbital ATK and SpaceX for resupply 
under the Commercial Resupply Services Contract, and Sierra 
Nevada Corporation, under CRS-2, as well as the destination for 
the Commercial Crew Program for Boeing and SpaceX, who will be 
flying crews to the International Space Station on test flights 
next year.
    The NASA investment in ground systems to launch deep space 
exploration systems creates enormous synergies with private 
investment, leading to our shared future in space. As we move 
deeper into space with SLS and Orion, NASA is looking to expand 
our public-private partnerships through Next Space Technologies 
for Exploration Partnerships-2, or NextSTEP-2, where in August 
of last year, six companies were selected to develop prototypes 
or concepts for deep space habitats.
    Public-private partnerships have worked well at KSC and 
across the agency. In order for us to be a successful nation, 
we need both government and commercial space integrated 
together. KSC is committed to successfully meeting NASA's 
mission needs and continuing to grow as a multiuser spaceport.
    In all of human history, only three nations have sent 
humans to space: the United States, Russia, and China. Today, 
at the Kennedy Space Center, there are four United States 
companies building hardware and infrastructure to launch humans 
to orbit: Blue Origin, Boeing, Lockheed Martin, and SpaceX. I 
think that's pretty darn amazing and something that we can be 
proud of as a nation, and public-private partnerships have 
played a key role in making that happen.
    Thank you for your time. And I look forward to your 
questions, sir.
    [The prepared statement of Mr. Cabana follows:]

Prepared Statement of Robert D. Cabana, Director, John F. Kennedy Space 
         Center, National Aeronautics and Space Administration
    Chairman Cruz, thank you for the opportunity to appear today to 
discuss NASA's public-private partnerships and enabling commercial 
space.
    Since 1962, when it was formally established as NASA's Launch 
Operations Center, the Agency's John F. Kennedy Space Center (KSC) has 
helped set the stage for America's adventure in space. From the early 
days of Project Mercury, Gemini, and Apollo to the Space Shuttle and 
International Space Station (ISS) programs, from the Hubble Space 
Telescope to the Mars rovers, KSC enjoys a rich heritage in its vital 
role as NASA's processing and launch center.
    Today, KSC is upgrading its ground systems in preparation for 
America's next great spaceflight endeavor--the exploration of deep 
space beyond low-Earth orbit with the Space Launch System and Orion. 
KSC's Ground Systems Development and Operations Program has transformed 
Launch Complex 39B to support the Space Launch System (SLS) heavy-lift 
vehicle and the Orion crew vehicle and the overall Exploration Systems 
Development work for human exploration of deep space. By the end of 
this calendar year, the construction of all the hardware and facilities 
necessary to support the processing and launch of the SLS and Orion 
will be complete and validation testing will ensue. The Orion 
spacecraft for Exploration Mission-1 is currently being built in the 
recently refurbished Operations and Checkout Building High Bay, and 
Launch Complex 39 will be ready to support the first test flight of the 
SLS and Orion in 2019.
    In keeping with the history of terrestrial exploration, Government-
led space exploration has enabled the rise of private sector space 
ventures that build off of Government-emplaced infrastructure. Since 
the end of the Space Shuttle Program in 2011, KSC has utilized public-
private partnerships to establish itself as the Nation's premiere 
multi-user spaceport, supporting both Government and commercial flights 
to and from low-Earth orbit and beyond. With the extension of the 
International Space Station to at least 2024, the Commercial Crew 
Program is working diligently with our commercial providers, Boeing and 
SpaceX, to carry astronauts on flight tests to the Space Station from 
United States soil in 2018. Meanwhile, our Launch Services Program 
continues to procure and manage the commercial launch services needed 
to launch NASA's scientific, weather, and communications satellites, as 
well as robotic missions into the solar system and beyond. We have been 
successful in numerous commercial partnerships that have been 
instrumental in revitalizing underutilized facilities at no cost to 
NASA and taxpayers, while enabling commercial space operations.
    NASA and KSC are moving forward into a new era of human spaceflight 
with activities in both low-Earth orbit and deep space, and we are 
committed to partnering with industry to enable commercial spaceflight 
companies to manufacture, process, and launch their systems from the 
Space Coast.
KSC's Philosophy on Public-Private Partnerships
    Following the 2004 decision to end the Space Shuttle Program, it 
became clear that many of the facilities utilized to support the 
Shuttle would not be required to support SLS or Orion. Therefore, NASA 
conducted an assessment of the $2.7 billion worth of Shuttle assets to 
identify those we needed and those we did not. As a result of that 
assessment, KSC was able to determine which of those facilities should 
be demolished and which should be candidates for partnerships with 
outside entities. In 2010, KSC created what is now known as the Center 
Planning and Development (CPD) directorate to manage the strategic 
planning for this transition. CPD is tasked with developing partnering 
opportunities with Federal and non-Federal entities, including broadly 
announcing opportunities seeking partners to use KSC assets, as well as 
evaluating unsolicited partnership offers and ensuring that proposed 
partners offer value compatible with NASA's vision and strategic goals. 
Using this process, KSC was able to (1) leverage underutilized 
facilities to help U.S. companies develop new capabilities, reduce the 
cost of space activities, and create jobs on the Space Coast, while (2) 
preserving and revitalizing critical NASA assets by transitioning 
financial responsibility for those facilities to our partners.
KSC's Partnerships
    Through a January 2011 Notice of Availability, NASA sought to 
identify potential outside interest in KSC assets that the Agency 
determined to be partially or fully available for other users at the 
conclusion of the Space Shuttle Program. The Notice sought to ensure 
broad awareness and visibility of the anticipated opportunities for 
partnerships between NASA and industry and other non-Federal public 
entities. NASA's purpose in pursuing such partnerships was to maximize 
utilization of KSC's unique infrastructure, while minimizing the 
Center's operations and maintenance (O&M) burden, and to enable 
commercial space operations.
    KSC's partnership efforts have resulted in agreements of varying 
sizes with commercial entities, universities, as well as Federal, 
state, and local government for physical assets and services. The types 
of services range from providing launch sites to access to technical 
capabilities. KSC has been able to use our extensive launch vehicle and 
processing expertise to enhance the success of our commercial partners.
    Looking across the KSC landscape, you can visually see the 
construction and modifications that Blue Origin, Boeing, Florida Power 
and Light (FPL), OneWeb, Space Florida, SpaceX, the U.S. Air Force and 
others have made to grow the industry on the Space Coast. Blue Origin 
is building a 750,000 square foot manufacturing facility, just outside 
of KSC's secure area in Exploration Park, which is about half the 
volume of our historic Vehicle Assembly Building.
    All three former Orbiter Processing Facilities house new 
spacecraft, the former Shuttle main engine shop is being used by Boeing 
to manufacture the service modules for its CST-100 Starliner 
spacecraft, and the former Processing Control Center will be used to 
monitor on-site spacecraft manufacturing and processing and throughout 
mission phases.
    FPL currently is using 60 acres of former orange grove as a solar 
field to produce 10 megawatts of power to supply the grid. As part of 
our agreement, FPL built a one-megawatt solar field for NASA to offset 
our energy costs. FPL is responsible for the O&M of the solar field for 
30 years.
    OneWeb Satellites is building a 150,000-square-foot factory in the 
Exploration Park. OneWeb, in partnership with Airbus' American branch, 
intends to build 2,000 satellites that will form a constellation 
capable of wirelessly connecting every portion of the world to the 
Internet.
    SpaceX commenced launches from Launch Complex 39A in February of 
this year. Amidst launches, they are modifying the launch pad to 
support future commercial crew missions aboard the company's Crew 
Dragon, as well as future Falcon Heavy launches.
    In 2013, NASA selected Space Florida to take over operations at the 
Shuttle Landing Facility (SLF). Through this partnership, KSC's 15,000-
foot runway can be converted to accommodate a wide range of users, 
supporting Government and commercial needs, while removing NASA's 
responsibility to maintain the associated facilities.
    NASA has also selected Orbital ATK to negotiate an agreement under 
which it will occupy and operate from Vehicle Assembly Building High 
Bay 2, and negotiations are underway to use other processing 
facilities. These facilities are some of the largest on KSC and 
contribute significantly to the Center's O&M costs. NASA seeks to build 
on that success by continuing to search for opportunities to partner 
with outside organizations to reduce Government costs and enable the 
aerospace industry.
International Space Station
    As NASA's processing and launch center, KSC is the gateway to the 
Station along with the Wallops Flight Facility. NASA is continuing to 
develop initiatives to use the Station to enable increased commercial 
investment and to transition to more public-private partnership models. 
The Center for the Advancement of Science In Space manages the 
activities of the ISS National Laboratory to increase the utilization 
of the Space Station by other Federal entities and the private sector. 
National Laboratory partners can use the unique microgravity 
environment of space and the advanced research facilities aboard 
Station to enable investigations that may give them the edge in the 
global competition to develop valuable, high-technology products and 
services.
    Under the original Commercial Resupply Services (CRS) contracts, 
our two commercial cargo partners, SpaceX and Orbital ATK, provide 
cargo deliveries to Station. Through CRS contract modifications, KSC 
has been able to provide processing support of Orbital ATK's fourth, 
sixth, and seventh Cygnus cargo resupply missions to the Space Station. 
This opportunity enabled Orbital ATK to capitalize on the Center's 
expertise and infrastructure while also enabling the use of an 
alternate launch vehicle for cargo resupply missions to enhance 
operational flexibility. KSC also is currently looking at future 
partnership opportunities with Sierra Nevada Corporation as part of the 
follow-on CRS-2 contract.
    NASA's commercial crew providers, Boeing and SpaceX, are developing 
the Starliner and Crew Dragon spacecraft, respectively. These companies 
have made significant progress toward returning crew launches to the 
United States, and NASA anticipates having these capabilities in place 
by 2019 to regularly fly astronauts on operational missions safely to 
and from Station. The crew and cargo vehicles, as well as the launch 
vehicles developed by these providers, have the potential to support 
future commercial enterprises as well.
    It is NASA's intention to transition low-Earth orbit operations to 
private platforms and capabilities enabled by commercial markets, 
academia, and Government agencies, including NASA, that have an 
interest in and need for research and activities there. NASA continues 
to seek ways to further commercialize operations on the International 
Space Station. The next payload processing contract, Research, 
Engineering, Mission and Integration Services or REMIS, will enable the 
design and conduct of science operations in low-Earth orbit by the 
commercial market. The contract is targeted to be awarded July 2017.
Deep Space
    NASA looks forward to expanded partnerships as we leave low-Earth 
orbit and head for deep space. In August 2016, NASA selected six United 
States companies to help advance our mission to put humans deeper into 
our solar system by developing ground prototypes and concepts for deep 
space habitats.
    Through the public-private partnerships enabled by Next Space 
Technologies for Exploration Partnerships-2, NASA and industry partners 
will expand commercial development of space in low-Earth orbit while 
also improving deep space exploration capabilities to support more 
extensive human spaceflight missions.
    Expandable habitats are one such concept--they require less payload 
volume on the rocket than traditional rigid structures, and expand 
after being deployed in space to provide additional room for astronauts 
to live and work inside. The Bigelow Expandable Activity Module (BEAM) 
is the first human-rated expandable habitat to be tested in space. 
During its two-year demonstration attached to the Station's Tranquility 
port, crew members will routinely enter the habitat to take 
measurements and monitor its performance to help inform future designs 
of habitat systems. BEAM will be tested to see how it performs in the 
thermal environment of space and how it reacts to radiation, 
micrometeoroids and orbital debris.
Government and Industry
    Public-private partnerships have worked well at KSC and across the 
Agency. In order for us as a Nation to be successful, we need both 
Government and commercial space exploration. For instance, industry's 
vital role in low-Earth orbit transportation has lowered development 
and launch costs, and enabled NASA to invest in uncharted territories, 
like new technologies and deep space exploration. The work we do 
together and the lessons learned that we share are essential for the 
United States space economy.
Conclusion
    KSC is committed to successfully meeting NASA's mission 
requirements and continuing to grow in its role as a multi-user 
spaceport that launches NASA's deep space exploration missions and 
catalyzes the continued growth and development of the commercial space 
industry. The long-term strategy to expand United States access to 
space and stimulate the development of the domestic launch industry 
continues to gain traction and minimize operating costs. NASA remains 
committed to meeting our Nation's goals in deep space human exploration 
with careful stewardship of our critical resources and wise investment 
of taxpayer dollars. NASA is making strides toward these goals with 
KSC's transformation into a multi-user spaceport of the future, where 
both Government and commercial space operations can be conducted and 
support one another.
    In all of human history only three nations (United States of 
America, Russia, and China) have launched humans into space. Today at 
the Kennedy Space Center, there are four United States commercial 
companies building systems to launch people from the Space Coast (Blue 
Origin with the Space Vehicle, Boeing with the CST-100 Starliner, 
Lockheed Martin with NASA's Orion, and SpaceX with the Crew Dragon). 
This is an amazing time for our Nation, and one that I am proud to say 
that we have enabled at KSC.

    Senator Cruz. Thank you, Mr. Cabana.
    And thank you to each of you for your testimony.
    In the last Congress, this committee worked with our 
counterparts in the House to enact the U.S. Commercial Space 
Launch Competitiveness Act. One of the major components of that 
legislation was the continuation of the regulatory moratorium, 
preventing the FAA from implementing regulations governing 
commercial space flight that would affect the operations of the 
crews' transportation capabilities currently under development. 
While there is a regulatory moratorium right now pertaining to 
the FAA--and this is a question to any of the witnesses--can 
any of you identify for this committee any regulations that in 
your judgment are having a negative impact on the industry that 
Congress should examine?
    Dr. Jah. Yes. Thank you. Right now, there's a policy issue 
that needs to be fixed with regards to commercial companies 
being able to go up in orbit and provide space situational 
awareness data to folks. Other countries can do that; we can't 
yet. And NOAA has to provide a waiver for these companies to be 
able to do that. Unfortunately, there are reasons that some 
people feel, well, we should really take a look at this to 
figure out the best way forward, but I think that that will be 
something, a positive thing that could be done, is to remove 
that barrier because I think that's a severe hindrance in us 
being able to monitor and understand what's going on in space.
    Senator Cruz. OK. That's helpful.
    Anyone else?
    Mr. Hughes. With respect to launch and reentry, this is 
governed by the FAA. And SpaceX, for instance, has 70 launches 
on manifest. Nearly all of them will be commercially licensed. 
The cadence and pace with which we are now launching, combined 
with startup companies and other companies that will be 
offering launch from the United States very soon, gives rise to 
concerns that the existing regulatory regime isn't rightsized 
for this volume of launch. So we want to make sure that the FAA 
has the right resources to carry out the launches and not be an 
inhibitor to growth in this business.
    We also think the time is ripe for the FAA to go back and 
scrub the Part 400 regulations that are used for launch and 
reentry. They were written at a time where the United States 
might be launching six to eight times a year. They aren't 
really rightsized at this point for the volume that we're 
talking about. And here we're talking about things like 
transitioning from one-off boutique licenses to mission 
authorizations for missions that look similar in nature, and 
moving rapidly toward a recognition that the cadence of pace 
and launch dictates a new approach by the FAA. And here's--this 
is an area where we think a re-review would be quite helpful.
    Senator Cruz. Now, when you talk about rightsizing, are you 
focused on dollars and manpower, or do you think there need to 
be structural changes as well?
    Mr. Hughes. Primarily focusing on dollars and manpower, 
but, you know, I think any sort of study on this should look to 
the way to optimize any structure.
    Senator Cruz. Another significant component of the 
Commercial Space Launch Competitiveness Act was extending the 
life of the International Space Station to 2024. It is not 
clear from a technical perspective when we will reach the end 
of life of the ISS. However, to ensure that our national space 
program doesn't face a gap in capability post-ISS similar to 
what we are experiencing post-Space Shuttle, the NASA 
Transition Authorization Act of 2017 instructed NASA to come up 
with a plan so that at some point we can have a smooth 
transition from the ISS to our next capability.
    To each of the witnesses, in your judgment, what will our 
national space program look like post-ISS? And do you have any 
recommendations for what the next major capability should be?
    Mr. Manber. Obviously, I spend little time thinking about 
that. Thank you, Senator.
    As we look out in the next decade, we don't think there 
will ever be a facility in low-Earth orbit like the 
International Space Station. You can tell it was built by 
governments. I mean, it's just large, it's connected. So if you 
want to do microgravity research, well, you don't really maybe 
want visiting astronauts. It's just everything is together in 
one place.
    So logically, as you look out, you see a multiplicity of 
commercial platforms, some unmanned for in-space manufacturing. 
We are focused on in-space manufacturing deployment. Some will 
be for professional astronauts, warehouses, fuel depots, 
stepping stones as we go to deep space. We're looking at 
supporting ventures like Blue Origin and Orion as they go 
further out into deep space. We're looking at it with factories 
and warehouses.
    So the answer to your question is I think we're going to 
see a multiplicity of commercial platforms, less expensive, 
dedicated to one use, just as you have on the Earth.
    Senator Cruz. Anyone else?
    Mr. Hughes. I share the view that low-Earth orbit will 
become a place where there are multiple platforms. There are a 
number of companies working on really exciting technologies for 
space habitats, whether in conjunction with the International 
Space Station, if it goes in the direction of privatization, or 
independent of the International Space Station. And to 
Jeffrey's point, this can be viewed as a stair step into deeper 
space exploration needs.
    So when we talk about the U.S. enterprise after the 
International Space Station, I think it's important to think 
about a sustained human presence out further whether it's the 
Moon or Mars, SpaceX's focus, we've made no mistake about it, 
is focused on Mars. It's really one of the reasons for our 
being, to put human boots on Mars.
    And NASA's program right now is focused on Mars as well. 
And we think there are complementary things that could occur to 
make sure that there is a sustainable presence on Mars long 
term, for instance, large cargo carriage to Mars to put the 
resources in place that would allow permanent human presence. 
That's not something that's currently in the trade space, and 
it might be something that would be really ripe for a prize or 
for a public-private partnership that sets a high-level 
requirement against which companies could bid to demonstrate 
their capability to do that.
    Senator Cruz. OK. Very good.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Cabana, do you believe that there is a risk that we 
will lose key scientific and research capabilities in space if 
we largely turn over functions closer to Earth to private 
companies? What is the balance there to make sure that as a 
nation we are guaranteed to have access to that knowledge?
    Mr. Cabana. Yes, sir. Well, I think the International Space 
Station has proven to be an outstanding test bed in preparing 
the Nation to actually have a permanent presence in low-Earth 
orbit to enable the commercial operations. I agree with the 
other panel members that have said that, you know, eventually 
it's NASA's goal to move out of low-Earth orbit. We know how to 
do that, and utilizing the Space Station as a stepping stone to 
enable operations to low-Earth orbit, I think we will establish 
the commercial presence to allow NASA to focus on the more 
challenging mission of exploring beyond our home planet.
    So I think that as commercial space grows--and it's 
critical that we have a transition from the International Space 
Station and low-Earth orbit, that we continue to maintain that 
presence. I think that we will be able to do science in low-
Earth orbit, and NASA will also participate in that science. It 
won't be a NASA space station, hopefully it will be a 
commercial space station that's up there as we transition, but 
that doesn't mean that we won't continue to do science in low-
Earth orbit participating with our commercial partners. And I 
think that's where these commercial-government--these private-
public partnerships are going to be critical to making that 
happen.
    Senator Markey. OK, great. Thank you. Now, how do you 
believe the public would be best served by the National Lab 
when the International Space Station is retired? Should it be 
hosted by a new International Space Station or should it be 
hosted by a private station, or should it be a public-private 
partnership?
    Mr. Cabana. Sir, I'm going to defer on that one to other 
folks at NASA, and we'll give you a more detailed written 
statement for the record rather than my opinion.
    Senator Markey. Anyone out there have a view? Does SpaceX 
have a view, Mr. Hughes?
    Mr. Hughes. I think there's a natural progress for the 
International Space Station to transition to a private venture. 
When you look at the overall NASA budget, there is obviously a 
significant outlay year after year for the International Space 
Station. And if you want to do bigger things in space, 
eventually you may transition off the International Space 
Station into these broader goals. That said, the International 
Space Station is, as Mr. Cabana indicated, a critical stepping 
off point for deeper space exploration, and we shouldn't move 
off it prematurely.
    Senator Markey. Mr. Cabana.
    Mr. Cabana. I would just like to enforce that point. I 
think it's critical that we don't end the International Space 
Station until we have established commercial operations in low-
Earth orbit. So right now the Space Station serves as a 
critical destination for our commercial partners for both crew 
and cargo as we develop this capability for commercial entities 
to operate in low-Earth orbit.
    Senator Markey. And what do you think a reasonable 
timeframe would be, Mr. Cabana, for NASA reaching a conclusion 
as to what makes the most sense for the next era?
    Mr. Cabana. Well, again, I agree, you know--I support--it's 
really good that we have until 2024, the Space Station would be 
capable of going beyond that. Again, I think it's something 
that we need to look at, and working with Bill Gerstenmaier in 
NASA headquarters, we can give you a more detailed answer on 
that.
    Senator Markey. Thank you, Mr. Cabana.
    Yes, Mr. Manber.
    Mr. Manber. Yes. If I may say that as I said in my remarks, 
that certainty is very important to us in the private sector. 
And so it's almost less important to us whether it's 2024 or 
2026, as at some point in the next several years, I call for 
2019, we say if these conditions are met in the private sector, 
we can see transitioning from current Station services so that 
we're able to raise the capital and other requirements that are 
necessary.
    Senator Markey. So you're saying you don't want the 
decision in 2024 or 2026, that in 2019, everyone can adjust to 
the new----
    Mr. Manber. If the decision is announced and let's say you 
and Congress task NASA to say, ``What would be the 
conditions?'' We would like to see that by 2019 where we in the 
private sector can then begin to prepare and be ready by--I 
think we'll be ready before 2024, but if the Station is there 
to 2026 or 2028, fine, as long as we have certainty.
    Senator Markey. Do you agree with that, Mr. Cabana, that 
the sooner that kind of a policy can be established, the better 
it will be for everyone, government and private sector?
    Mr. Cabana. I think that it's important to work together 
with the government, with Congress, and the private sector to 
come up with a date that we want to transition from the Space 
Station, but we have to ensure that there is something to 
transition to.
    Senator Markey. Exactly.
    Mr. Manber. Exactly.
    Senator Markey. Mr. Manber?
    Mr. Manber. Yes, I would of course agree. I lived through 
the Shuttle gap, and we're all living through it now, and given 
the foreign interests as well, it's very important that the 
United States does not give up its role in low-Earth orbit.
    Senator Markey. So are you saying, Mr. Manber, but it's 
better that we telescope the time-frame that it will take for 
us to reach some certainty----
    Mr. Manber. Yes.
    Senator Markey.--because that plan would then most likely 
unleash a lot of the capacity----
    Mr. Manber. Yes, exactly.
    Senator Markey.--which we have. So NASA has a stake.
    Mr. Manber. Right.
    Senator Markey. The American--yes.
    Mr. Manber. And I'll say that I've been frankly pleasantly 
surprised how serious NASA--we interface with the folks at 
Johnson Space Center--how seriously they are taking this issue. 
And we're speaking to them monthly about, ``How do you have, 
let's say, an International Space Station and also have a 
commercial platform at the same time? When does NASA give up 
offering on Station certain services if we have a platform and 
it also offers those services?''
    These are complex issues. We recognize that. And I'm very 
pleased at how much our NASA colleagues are looking into this, 
but for us, it's certainty. We need private sector capital, and 
the first thing they ask us is, ``When is the--,'' you know, 
``What's the policy?''
    Senator Markey. Can you explain that to me just a little 
bit more? You're kind of saying that NASA is like a carnivorous 
vegetarian. It's----
    [Laughter.]
    Mr. Manber. I wasn't aware I was doing that.
    [Laughter.]
    Senator Markey. Well, in a way you were.
    Mr. Manber. Yes. Well----
    Senator Markey. You were saying, well--you know, there's an 
old song, ``Did you ever have to make up your mind to choose as 
to one and leave the other behind? Did you ever have to make up 
your mind?'' And that's what you're saying, that that creates 
more certainty in the private sector----
    Mr. Manber. Yes.
    Senator Markey.--because they know then what their 
opportunities are, they can go to the capital markets and then 
they can move. So can you just expand upon that a little bit?
    Mr. Manber. Yes, yes. I mean, NASA and all the partners on 
the International Space Station have done a tremendous job of 
looking at, ``How do you utilize a station? What do we use it 
for? How do we work together?'' And now they're looking at, 
``How do you involve the private sector?'' So I give them full 
credit for this mindset change.
    But we've also identified at NanoRacks four to six markets 
that are not silly markets like branding or advertising, but 
certain in-space manufacturing and other markets we can't do on 
the International Space Station. It's holding back the 
development of in-space resources. It can't be done in the 
Station because it's manned. It can't be done on the Station 
because there are certain international requirements.
    So as we look at further utilization, clearly there is a 
sunset where the Station has proven itself. I mean, my 
company's revenue is dependent on Station, so don't get me 
wrong, I'm not being critical, but the Station is serving its 
purpose, and we, in the private sector, believe in public-
private partnerships, we can offer commercial platforms, we 
just need to know what you folks in Congress want from us.
    Senator Markey. I understand. Thank you.
    Thank you, Mr. Chairman.
    Senator Cruz. Thank you, Senator Markey.
    Dr. Jah, on January 11, 2007, China launched a ballistic 
missile from Xichang Space Launch Center that aimed at a 
nonoperative Chinese weather satellite, the Fengyun 1C, 
completely destroying the satellite. The destruction of the 
satellite created more than 3,000 pieces of space debris, the 
largest ever tracked, and much of it is expected to remain in 
orbit for decades. According to NASA, more than 21,000 orbital 
debris larger than 10 centimeters are known to exist today.
    For members of this committee who may not be as familiar 
with space debris, could you please explain the current state 
of space debris, how it is impacting space exploration, and 
what steps Congress should consider taking to address this 
issue?
    Dr. Jah. Absolutely. Thank you very much. So, correct, 
there are about 21,000 pieces of debris that the U.S. Strategic 
Command tracks and maintains every day.
    What are these things? Well, for one thing, most of the 
things that we launch in space don't come back, and at the end 
of their lives, it's almost like the car runs out of fuel, it 
just stops wherever it stops, and then you go get another car 
and you jump into that, and then you keep on driving. That's 
the state of what's going on up there.
    Now, are there highways in space? Absolutely. There are 
certain orbital regimes that are being more and more impacted. 
In fact, thank you, Mr. Cruz, for the example with the Chinese 
ASAT test. At the sun synchronous altitude--so there are these 
kind of Goldilocks places, places where the gravity field is 
just right so that certain missions can be enabled for Earth 
observation, for communication satellites, the geostationary 
ring. So there are certainly Goldilocks kind of regimes. And 
sun synchronous orbital altitudes are becoming more and more 
congested.
    Where the Chinese decided to do this was really a bad place 
because it falls into that sun synchronous orbital regime, a 
place where other people are trying to put satellites, like 
OneWeb and SpaceX, and these sorts of things.
    And so what it does is two things. One, because we don't 
really understand the risk and we're not able to track 
everything because the smaller pieces are very difficult to 
track. I mean, 1-centimeter diameter pieces can be mission 
catastrophic, and those are extremely difficult to track.
    So we detect many things. We can't track everything for a 
variety of reasons. Certain orbital altitudes are becoming more 
congested. And, again, it's not so much the number of things 
that we should be concerned about, but it's not being able to 
predict where these things are going to be from one moment to 
the next, and you have USSTRATCOM that are providing these free 
services to the globe saying, ``We predict that at this time at 
this place there is a likelihood of collision of two objects,'' 
so that operators can try to move out of the way.
    But how many of those are real? How many of those would 
actually happen? That's very difficult to calculate. And so 
that's part of the problem when it comes to the debris. It's 
increasing, it's not going down. There is no way to clean the 
stuff up. The European Space Agency has something called Clean 
Space, they're trying to identify different pieces of debris 
that they can go and remove, but it's not economically feasible 
to do that because it costs more to bring something down than 
to put something up that works.
    And politically, it's not very feasible because any given 
nation that has a piece of debris assigned to them, they're the 
sovereign owners of that piece of garbage, and so it becomes 
problematic to just go up and clean other people's stuff.
    Senator Cruz. So are there any steps we can take that would 
be positive in terms of addressing this challenge?
    Dr. Jah. Yes, sorry about that. So I think positive steps 
are, one, monitor things more collaboratively. And what do I 
mean by that? So USSTRATCOM has a Space Surveillance Network. 
It collects these data and it tries to produce orbits for 
things, but the actual sensor observations aren't shared. 
They're not shared with other people for very good reasons. 
Different countries have different sensors. And so everybody 
has their own eyes, but we don't have all eyes together.
    And so because we don't share these observations kind of 
ubiquitously internationally and with other partners, I think 
the first step is create a data lake where all these 
observations can come together, expose it to as many people as 
possible to analyze, and just infer things, and through the 
exercise of the analysis and the inference, I think you're 
going to end up with a better idea of what's up there and 
understand that better.
    Senator Cruz. So the FAA's Office of Commercial Space 
Transportation has licensed ten spaceports in seven states 
since 1996: two each in California, Florida, and Texas, and one 
each in Oklahoma, Alaska, New Mexico, and Virginia. I wanted to 
ask the witnesses, how is NASA working with these spaceports to 
support or enable its missions? And what can NASA be doing 
better?
    Mr. Cabana. From a NASA point of view, we work very closely 
with the Air Force and the FAA at the Kennedy Space Center to 
make commercial operations a lot easier than they have been in 
the past. I think we've got a great partnership with the FAA, 
and especially the 45th Space Wing and General Monteith right 
now as we work to make it easier to launch from KSC, what's 
required for a commercial launch license, how the commercial 
customers meet that requirement.
    As far as operating away from NASA's Kennedy Space Center, 
I'm not familiar with what NASA is doing in direct regards with 
any other spaceport. Now, we're working with other commercial 
customers to supply services for NASA, such as Virgin Galactic 
in the future, and so on, and they'll be operating, of course, 
out in New Mexico. So from that point of view, we work with the 
commercial customers, not necessarily the spaceports 
themselves.
    Senator Cruz. Anyone else on this?
    Mr. Hughes. I just wanted to echo some things in Mr. 
Cabana's statement there. First of all, I read his statement 
with great interest because it's remarkable the transition that 
Kennedy Space Center has undertaken since Shuttle retirement in 
2011. Bob and his team have done an amazing job bringing 
commercial firms to Kennedy and getting us to a place where we 
can operate effectively. And the cadence of launch that I 
mentioned earlier that SpaceX is undergoing is a direct tribute 
to the work that he and his team are doing. And that is true 
relative to the Air Force, the 30 Space Wing and the 45th, 
General Monteith, Colonel Hough.
    I think one of our chief concerns relative to the ranges 
and the spaceports is that there is infrastructure that could 
probably use modernization: the roads, some of the bridges. The 
electrical infrastructure at Vandenberg in particular is aging. 
We've had situations in the past where actually the electricity 
had gone out prior to a launch. And Senator Nelson has been 
very active in helping to modernize the infrastructure at the 
spaceports.
    In order to keep the commercial companies running in 
conjunction with NASA, I think additional modernization of 
infrastructure would be quite helpful.
    Senator Cruz. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Let me come back to you, Mr. Manber, if I can. Your initial 
partnership with NASA involved no funding from the agency to 
your company, which when dealing with the government is quite 
an innovative approach, and importantly, this meant that 
NanoRacks assumed most of the risk of the arrangement and could 
benefit from success, but protect taxpayers' dollars because 
very few of them were exposed.
    Can you talk about how you see that expanding in the years 
ahead and what that could mean for as long as there is an 
established understandable policy for, again, a more rapid 
innovative era to unfold?
    Mr. Manber. It's a great question, Senator, because there 
are some things that governments do well and there are some 
things that government does not do well. And one of the things 
that government does well is provide some of the basic 
infrastructure that the private sector cannot. And just as Mr. 
Hughes was just alluding to, the infrastructure, the roads, in 
space, we have the Space Station, and it's a foundation, it's a 
platform. And what the private sector is doing through 
companies like mine is we're leveraging that investment that 
you've made on behalf of the taxpayer.
    So really moving forward, I see the public-private 
partnerships of the future being where there are occasions 
where the government continues to provide an infrastructure. It 
could be, for example, the lower cost or space transportation 
that SpaceX and Dream Chaser and Orbital and others will be 
doing, and leave it to the private sector to provide some of 
the add-on services.
    It could be, as we've talked about now with Orion, where 
there are certain basic things that the government is 
supporting, but the private sector, as I mentioned earlier, 
provides the fuel depots, the warehouses, at our cost, and we 
look to customers, whether it's in the government or whether 
it's in the private sector, asteroid mining or whatever it 
might be.
    So some of my colleagues talk about this utopian view with 
less government. I don't see that and I don't welcome that. We 
need government, of course, as regulator, we need government as 
provider of infrastructure. So I think we need to find the 
right--I mean, look at aviation. I'll leave my expertise for a 
moment and say in this country, the government provides the 
safety officials, the FAA, and the air traffic controllers, and 
the government helps maintain the airports, but the private 
sector has the planes, sells the tickets, and worries that we 
get home on Thanksgiving along with the government. So for me, 
that's a model that may work in space as we move further out, 
with the government providing the infrastructure and the 
private sector selling the tickets.
    Senator Markey. Mm-hmm. Interesting. Although there are 
many who want the FAA to be privatized as well.
    Mr. Manber. I said I was leaving my expertise.
    [Laughter.]
    Senator Markey. No, I appreciate that, provides this 
Committee.
    Mr. Manber. Yes.
    Senator Markey. So, Mr. Hughes, could you speak to that 
question of where you see the balance in the future?
    Mr. Hughes. Yes, yes. So as we move into outside of low-
Earth orbit into deep space exploration, I think that there's 
obviously a program of record right now that is NASA's central 
focus for deep space exploration, but I think it can be readily 
supplemented with public-private partnerships to allow us to 
sustain a permanent presence in space. So I mentioned earlier 
the idea of putting forward either prizes or high-level 
requirements that companies can meet relative to maintaining 
that human presence. One idea might be for the government to 
put forward high-level requirements relative to large cargo to 
Mars, or vertical takeoff and landing demonstrations on the 
Moon, or perhaps even something like establishing a more robust 
communications network that would enable more rapid and 
efficient communication to and from Mars.
    Senator Markey. Do you need a prize to do it----
    Mr. Hughes. You don't----
    Senator Markey.--or is the reward financially sufficient in 
order to make sure once the rule is set, that it's more like 
the Oklahoma Sooners, and they're just ready to go once they 
know what the rules are? So do we really need a prize?
    Mr. Hughes. No, I actually don't think a prize is 
necessarily the right approach. A prize could be one way to 
pursue it, but actually I think the preferable approach would 
be a COTS-like program that I referenced in my testimony where 
there would be some element of public-private partnership where 
high-level requirements are set, companies put their own skin 
in the game in conjunction with the government, and there's a 
long-term market against which you work.
    Senator Markey. Mm-hmm. Interesting. OK.
    Thank you, Mr. Chairman.
    Senator Cruz. Thank you, Senator Markey.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and I appreciate 
you and the Ranking Member holding this hearing. I think it's 
a--you know, we've always got to look out to the future and be 
inspired, and I think that's what we're trying to do here in a 
lot of ways. And I appreciate the witnesses and all your 
expertise on this important issue.
    I wanted to ask about the importance of U.S. FAA-licensed 
spaceports to commercial space launches. In Alaska, we have the 
Pacific Spaceport Complex in Kodiak. Actually, just yesterday, 
you may have seen in the news, it conducted a THAAD missile 
test that was very successful.
    And can you give me from your perspective what the benefits 
are from a commercial perspective of having these kind of--they 
go into really one of the topics of the hearing, which is 
really a public-private partnership approach, a little bit 
different from, say, the Kennedy Space Center. But just your 
thoughts on the importance of those kind of space complexes 
that we have like, for example, in Kodiak?
    Mr. Ellis. I can speak to that one. Thank you, Senator 
Sullivan. So as Dr. Jah pointed out before, there are different 
types of orbits, and there's kind of a Goldilocks zone that 
different markets fit into. So for us, especially being a small 
satellite launch company, and as OneWeb and SpaceX and these 
companies are making constellations, that having a launch site 
that is geography dependent to the technical requirements of 
the customer is very important. So in Alaska, at the Kodiak 
site you reference, you could reach what's called polar or sun 
synchronous orbits----
    Senator Sullivan. And it's the only non-government-owned 
space complex that allows you to do that in the world, correct?
    Mr. Ellis. I'm not sure about the world, but in the United 
States that is true.
    Senator Sullivan. Yes.
    Mr. Ellis. There is also a military missile range in 
Hawaii, Barking Sands, but they are doing more missile testing.
    Senator Sullivan. But--go ahead.
    Mr. Ellis. Yes. So it's just very important that we look at 
markets and how they're changing and what needs customers have 
because right now having a West Coast launch site that is 
accessible other than Kodiak, it is a challenge.
    Senator Sullivan. Great. Thank you. Any other thoughts on 
just kind of those kind of commercial space complexes, space 
launch complexes, what they can do for our capability?
    Mr. Hughes. So a little bit different than the spaceport 
concept, I can speak to SpaceX's experience with launch sites. 
So we have two launch sites at Cape Canaveral and one launch 
site at Vandenberg Air Force Base, and then a private launch 
site under development in Texas. Our work at Vandenberg and at 
Cape Canaveral has been critical, and we worked hand-in-glove 
at the Cape with Mr. Cabana's team to establish processes by 
which we can provide commercial launch, national security 
launch, and NASA launch as well.
    And in the absence of public-private partnerships like the 
kind that enabled SpaceX to take on LC-39A, which is our newest 
launch site, the former Shuttle site, we would be inhibited 
from taking on the big manifest that we've acquired. Right now 
we have 70 launches on manifest. We took more than 50 percent 
of the global market last year for commercial satellite launch 
away from the French and the Russians. And in the absence of 
our commercial partnerships with NASA at both Kennedy and 
Vandenberg, we would not be able to service that manifest. So 
it's quite critical.
    Senator Sullivan. Great. Let me broaden kind of a topic 
here. Did any of you--did any of the witnesses see the movie 
The Martian?
    [Laughter.]
    Senator Sullivan. So I took one of my daughters to see the 
movie The Martian, and I'm not a Hollywood movie critic or 
anything, but when you come out of a movie and your eighth 
grade daughter says, ``Boy, I need to study math and science 
more because that looks like that could be a real interesting 
future,'' to me that was pretty inspiring and a pretty good 
movie.
    And what do you see we should be doing to try to inspire 
the next generation of Americans beyond movies like that that 
can get them interested in what this whole hearing is about, 
which is kind of the future of space where, you know, in the 
NASA days and the Apollo space mission days, every young 
American was inspired? I think we've lost some of that, but we 
can regain it.
    You guys are the experts. What do you think beyond just a 
good Hollywood movie we can be doing to inspire the next 
generation of Americans to do more math and science and maybe 
be on Mars in a couple decades? Yes. Anyone.
    Dr. Jah. Yes. So thank you, Senator Sullivan. I think first 
and foremost, one of the things that--you mentioned Apollo and 
that sort of inspiration. Those were days of what I would call 
real exploration where we strapped on the idea of taking risk.
    Senator Sullivan. Yes.
    Dr. Jah. I think we've become very risk averse----
    Senator Sullivan. And why? Why did--after the Shuttle 
accidents and things like----
    Dr. Jah. Yes. So the thing is, you know, taxpayers say, ``I 
want to know where my dollars are going. I want guaranteed 
success as much as possible.'' And when you start levying those 
requirements of it has to be successful or else--I mean, JPL 
had a couple failures as well with Mars when I worked at JPL. 
And so when you levy that requirement, that really turns into 
doing the last thing that you did that worked, and that is not 
really pushing the boundary of exploration. And I think 
allowing NASA to go back to those days of you're in a risk 
retirement kind of mentality, and, you know, some bad things 
are going to happen and some lives are likely to be lost, I 
think strapping on that idea of risk to get out there and 
explore, I think that's the thing that will inspire our next 
generation, is to see bold moves and not just argument upon 
argument and incremental kind of things, but just bold, ``We're 
going to do this and we're committed to it, and it's just going 
to happen.''
    Senator Sullivan. By the way, the Chairman and I are very 
interested in missile defense, and we hear that a lot from our 
experts in the missile defense area, that the risk of failure 
really inhibits us from making significant advances.
    Anyone else on that question? I know--sorry, Mr. Chairman, 
is that all right?
    Senator Cruz. Take your time.
    Senator Sullivan. OK. Thank you.
    Mr. Cabana. I would like to add to that, sir. I think 
taking risk is important, I just want to take informed risk. I 
want to understand the risk that I'm taking and mitigate it as 
best as possible. Our Visitors Center at the Kennedy Space 
Center, it's totally run by--there are no appropriated dollars 
that run it.
    Last year, we set a record for the number of visitors that 
we had, 1.6 million, and we're on track to beat that this year. 
There is great interest in space. And I go over there on a 
regular basis, and I'll just walk up to kids and ask them, 
``Hey, how did you enjoy your day?'' and it's the exact right 
mix of entertainment, but also learning. And they are truly 
inspired when they see what's going on, when they see our 
history, but they also get a chance to see what our future is. 
And I think to continue to generate that interest in students 
today to pursue math and science, we need to continue on the 
path we're on.
    We have to continue having launches at the Cape. I don't 
care what rocket it is or what's on it. Anytime a rocket ship 
leaves planet Earth, that is an inspiring experience, and 
people walk away from it motivated and enthused and wanting to 
be part of what we're doing.
    I think we're on the right track. We just need to follow 
through, continue to build on what we've done, continue to have 
commercial launches, to have an exploration program for NASA to 
go beyond planet Earth to work in partnership with our 
commercial companies to make that happen. I think we're doing 
all the right things and we've just got to press ahead.
    And I want to make--I read the book, the book is a lot 
better than the movie, but I saw the movie, too. I want to make 
The Martian happen for real.
    Senator Sullivan. Yes.
    Mr. Cabana. Everything except that part for the story at 
the beginning----
    Senator Sullivan. Yes, we don't want to leave Matt Damon on 
Mars.
    Mr. Cabana. I don't want to leave anybody behind. But----
    Senator Cruz. Do you have someone in mind that you want to 
leave there?
    [Laughter.]
    Mr. Cabana. No, but I volunteer to go. I'm ready. I think 
we need to continue to pursue this bold path that we're on and 
continue to have the success that we're having, and that's 
going to continue to generate this interest in math and 
science.
    Senator Sullivan. Anyone else?
    Mr. Manber. Yes. Sorry. If I may make two quick comments. 
The first is on the risk aspect, one of the toughest things at 
NanoRacks was getting NASA and the Space Station program early 
on to recognize that failure was OK as long as it didn't hurt 
the safety of the crew. And they were just so focused that we 
had to build the customers' payloads so it would work 100 
percent of the time, but the customer didn't want to pay that 
cost. And maybe they get 70 percent of their results, as long 
as it didn't--and today we're at a point with the Space Station 
program where they understand failures on the private sector 
side. If I don't get the hardware to work, my customer doesn't 
pay me. And so we're reaching a very interesting balance with 
NASA now.
    On the education, let me say that one of the biggest 
surprises for NanoRacks when we started was our early customers 
were educational schools, and it's gotten to be such a huge 
program for us that we've created a new company, a public 
benefits company, called DreamUp. And it's separate from us. 
And we've flown four or five schools in Texas, in Houston. 
We've flown I think it's something like 40 high schools, we've 
flown high schools in Israel, 160 congressional districts of 
schools, with no NASA funding. And some of the parents have 
bake sales, they get together, they get local--the Subaru 
dealers, gives them sponsorship.
    And so I can tell you that in the trenches out there, you 
know, in the small towns, the enthusiasm for space and 
education and research is huge, and that DreamUp is growing 
significantly, and it's wonderful, and there is no government 
funding.
    Senator Sullivan. Great. That's great to hear. Anyone else 
on that important topic?
    Mr. Ellis. Yes, yes, I can speak to it. So as CEO of 
Relativity, I am humbled to speak on behalf of all of venture-
backed startups. I can definitely tell you if you're getting 
venture capital, you do not dream small, you dream big, and you 
take huge risks, and you're looking for outsized returns.
    So I think that setting an example, you know, myself, being 
a 27-year-old co-founder of a space company that's now tested 
rocket engines at NASA Stennis Space Center, that I hope to be 
an inspiration for other people, and that members that join our 
team at Relativity and all of the other venture-backed startups 
are able to see that success, and having more winners will 
actually inspire people to go make that reality happen 
themselves.
    Senator Sullivan. Great.
    Mr. Hughes. And I'll jump in as well. So SpaceX's goal, 
stated goal, for years now is to make humanity a multi-
planetary species, a rather lofty goal, and it's one that we 
deeply believe in, and it drives almost every decision that we 
make within the company. And so I think setting big goals like 
that is critical.
    And the way that the government can help to encourage this 
through public-private partnerships are to set high-level 
requirements and not tell companies how to complete them, but, 
rather, establish the requirements, partner with the companies 
to get them done and to get them in a way that is rapid and 
efficient, safe and reliable. There are a number of 
opportunities I think that we've got out to the right here to 
complement our existing program to get to Mars that can rely 
upon commercial capabilities, set these big goals, let private 
capital work in conjunction with government money to achieve 
these goals, and get it done in 4 to 8 years.
    Senator Sullivan. Great. Thank you.
    And thank you, Mr. Chairman. Thank you for holding this 
hearing. And I didn't get a--are you a fan of The Martian as 
well?
    Senator Cruz. I am, although an even more important 
technological innovation, if any of you could develop a 
lightsaber----
    [Laughter.]
    Senator Cruz.--I think that would truly energize interest 
in space exploration.
    I want to thank all the witnesses for being here. I think 
this was a productive hearing, a helpful hearing, with a lot of 
good, positive suggestions that came out of it.
    The hearing record is going to remain open for 2 weeks. 
During this time, any Senators that have follow-up questions 
for the record, they're asked to submit them for the record, 
and upon receipt, the witnesses are requested to submit their 
written answers to the Committee as soon as possible.
    And with that being said, thank you again. This is hearing 
is adjourned.
    [Whereupon, at 10:29 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Jeffrey Manber
Challenges Hindering DOD-Commercial Partnerships
    Question 1. Earlier this year, in response to a provision that I 
included in the FY2017 National Defense Authorization Act (NDAA), the 
Department of Defense (DOD) released an Arctic strategy that among 
other points, highlights severe challenges caused by the limited 
satellite and terrestrial communications above 65 degrees north. When 
the DOD needs to quickly address gaps in capabilities, commercial 
partnerships can--where appropriate--play a key role in filling these 
needs.
    What are the primary challenges that have hindered or prevented you 
from working with the U.S. Government to fill critical gaps in U.S. 
space capabilities, like the domain awareness and communications gaps 
in the Arctic?
    Answer. There are challenges to working with the U.S. Government, 
but in more cases than before there is a mutual understanding that the 
commercial community can provide services, rather than hardware. And 
these services are economically efficient, and place the burden of risk 
not on the taxpayer but on the commercial organization. We are moving 
the scale of the needed public private partnerships more to the private 
sector. We at NanoRacks welcome that. But challenges remain. They are 
contractual and they are challenges of mindset. To many in the USG, 
small is still not desirable. Whether small hardware or smaller budget. 
It is changing, but it remains an obstacle. Also contractual. For a 
company like NanoRacks some of the key programs require an onramp that 
is thousands of pages long and require dedicated proposal writers who 
understand the jargon. During the Mercury and Gemini and Apollo days, 
some of the contracts were several pages long. We need a return to 
that. Here is what the USG needs. Please provide. If you don't provide, 
you don't get paid. If you do provide, here is the rate.
Internet Access in Rural Areas
    Question 2. In Alaska, many places do not have any connectivity and 
many times are not even connected by road. It is costly to deploy 
telecommunications infrastructure, and while these communities are 
extremely innovative, a lack of connectivity hinders business growth 
and increased economic activity.
    Commercial space provides the possibility of increased 
communications, including satellite-based broadband internet, at a 
reduced cost. Especially if the cost of launches continues to decline, 
this could provide real benefits to consumers in extremely rural places 
like Alaska.
    How can recent advances in commercial space help provide broadband-
level Internet to the most rural areas?
    Answer. First off, commercial space offers a diversification of in-
space opportunities. To be specific, this means that states like Alaska 
can have their own spaceport. How wonderful. We support the development 
of regional spaceports that meet the needs of the region. In this case, 
for Alaska, it is polar orbit launches that can accommodate small 
satellite constellations that meet much of the needs of the business 
and residential sectors. Commercial space offers off the shelf 
opportunities in satellite communications, satellite navigations, earth 
observation to monitor environmental issues and so on. There is now 
growing private sector capital available where there is a regional 
customer.

    Question 3. Is latency still an issue?
    Answer. As we understand, latency is still an issue.
    Thank you for allowing us to respond. We welcome further dialogue 
on advancing commercial in-space services via the Alaska spaceport to 
meet the needs of the people of Alaska.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                               Tim Ellis
Challenges Hindering DOD-Commercial Partnerships
    Question 1. Earlier this year, in response to a provision that I 
included in the FY2017 National Defense Authorization Act (NDAA), the 
Department of Defense (DOD) released an Arctic strategy that among 
other points, highlights severe challenges caused by the limited 
satellite and terrestrial communications above 65 degrees north. When 
the DOD needs to quickly address gaps in capabilities, commercial 
partnerships can--where appropriate--play a key role in filling these 
needs. What are the primary challenges that have hindered or prevented 
you from working with the U.S. Government to fill critical gaps in U.S. 
space capabilities, like the domain awareness and communications gaps 
in the Arctic?
    Answer. Relativity is a new launch services provider for payloads 
following the ``small satellite'' form factor of less than 1,000 kg. 
Satellites in this weight class can potentially be a primary solution 
to communication gaps in remote locations, such as the Arctic areas 
described.
    Primary challenges include open access to a launch site capable of 
satisfying the commonly used polar or sun synchronous orbits used by 
these satellite communication systems. Geography dictates that in the 
United States, a West Coast launch location is ideal to reach high 
inclination orbits without prohibitively flying over land or using a 
costly ``dog leg'' flight maneuver, such as from Wallops Island. The 
Pacific Spaceport Complex on Kodiak Island, Alaska is one such 
potential commercially-usable site, as well as Vandenberg Airforce Base 
in California. Both sites would need modification to be ideally capable 
of launching cryogenic liquid fueled orbital rockets optimized for 
small satellite launches. Some of these modifications include shipping, 
receiving, and ground transport infrastructure for rocket vehicles, 
cryogenic propellant loading and ground handling equipment, and 
expanded support for Autonomous Flight Termination Systems. We are 
beginning conversations with both sites to assess applicability to 
Relativity's needs, and would be happy to follow up with any other 
roadblocks or challenges we find.
    A potential Hawaiian island located site, or drone and barge ship 
launch platform, could also help solve the challenge of U.S.-based 
launch sites open to smaller orbital rockets performing on a commercial 
basis. Streamlining procurement by the government through expanded use 
of Other Transaction Agreements (OTA) would incentivize emerging 
companies and startups with the most cutting-edge technologies to work 
with the government earlier in their lifecycles. This is due to the 
lower overhead requirements and streamlined procurement process 
agreements such as OTA's provide, which reduce the burden on personnel-
strapped startups and allow transactions to happen more quickly for 
both parties.
Internet Access in Rural Areas
    Question 2. In Alaska, many places do not have any connectivity and 
many times are not even connected by road. It is costly to deploy 
telecommunications infrastructure, and while these communities are 
extremely innovative, a lack of connectivity hinders business growth 
and increased economic activity.
    Commercial space provides the possibility of increased 
communications, including satellite based broadband internet, at a 
reduced cost. Especially if the cost of launches continues to decline, 
this could provide real benefits to consumers in extremely rural places 
like Alaska.
    How can recent advances in commercial space help provide broadband-
level Internet to the most rural areas?
    Answer. Relativity believes we are at the beginning of a huge 
growth phase in satellite Internet and connectivity capabilities. 
Several major, well-funded constellations of distributed ``small 
satellites'' are being developed that would greatly aid in solving the 
issue of rapidly deployable, low cost, high bandwidth access to remote 
areas such as in Alaska.
    As mentioned above, this future is possible ``especially if the 
cost of launches continues to decline''. Relativity and several other 
private, commercial space launch companies are emerging to fill the 
needs of the emerging small satellite sector. Currently, none of the 
proposed and in-development Low Earth Orbit (LEO) satellite 
constellations are in full operating service. There is great promise, 
with significant funding going to both satellite companies and the 
launchers that will serve them. However, for the space ecosystem to 
capitalize on this opportunity requires an ROI incentive for continued 
private funding, advanced technology development, infrastructure 
buildup, and successful relationships with regulators and the U.S. 
Government.

    Question 3. Is latency still an issue?
    Answer. Yes. For streaming internet, video and voice 
communications, and applications with high inout bandwidth needs, 
latency at traditional Geosynchronous Earth Orbits (GEO) high above the 
Earth will always inhibit these systems from serving these low latency 
applications. This is a fundamental physical limit to the speed of 
signals traveling through a long, fixed distance through space. Medium 
Earth Orbits (MEO) and Low Earth Orbits (LEO) increasingly improve 
latency by locating satellites at lower and lower altitudes, and thus 
shorter transmission distances and times to the surface of the Earth. 
However, using MEO and especially LEO satellite constellations 
necessitates much larger numbers of satellites to provide continuous, 
effective coverage due to the orbital periods and ground tracks they 
require. The future of distributed LEO satellite constellations 
promises latency and bandwidth that is comparable to terrestrial 
coaxial cable and fiber internet, however none of these constellations 
are currently fully operational and are in various development phases.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                               Tim Hughes
Challenges Hindering DOD-Commercial Partnerships
    Question 1. Earlier this year, in response to a provision that I 
included in the FY2017 National Defense Authorization Act (NDAA), the 
Department of Defense (DOD) released an Arctic strategy that among 
other points, highlights severe challenges caused by the limited 
satellite and terrestrial communications above 65 degrees north. When 
the DOD needs to quickly address gaps in capabilities, commercial 
partnerships can--where appropriate--play a key role in filling these 
needs.
    What are the primary challenges that have hindered or prevented you 
from working with the U.S. Government to fill critical gaps in U.S. 
space capabilities, like the domain awareness and communications gaps 
in the Arctic?
    Answer. SpaceX agrees that commercial partnerships can serve to 
rapidly support the development and deployment of capability for the 
Department of Defense, as well as other U.S. Government entities. We 
recommend the Government make fuller use of innovative Federal 
contracting strategies, like Other Transaction Authority (OTA) and 
commercial contracting methods in leveraging commercial capability. 
Specifically, some challenges include:

  <bullet> Government requirements that add cost and schedule delay;

  <bullet> Vague or poorly defined requirements;

  <bullet> Use of non-commercial contracts and the imposition of 
        unnecessary or inappropriate contract clauses and requirements 
        onto commercial contracts;

  <bullet> Costs and time associated with certification of commercial 
        products and commodities for Government use;

  <bullet> Number and scope of compliance documents associated with DOD 
        contracts;

  <bullet> Onerous and time-consuming proposal process for DOD 
        contracts; and

  <bullet> Unnecessarily slow acquisition processes.
Internet Access in Rural Areas
    Question 2. In Alaska, many places do not have any connectivity and 
many times are not even connected by road. It is costly to deploy 
telecommunications infrastructure, and while these communities are 
extremely innovative, a lack of connectivity hinders business growth 
and increased economic activity. Commercial space provides the 
possibility of increased communications, including satellite-based 
broadband internet, at a reduced cost. Especially if the cost of 
launches continues to decline, this could provide real benefits to 
consumers in extremely rural places like Alaska.
    How can recent advances in commercial space help provide broadband-
level Internet to the most rural areas?
    Answer. SpaceX agrees that even the latest terrestrial 
telecommunications infrastructure is often costly (or cost-prohibitive) 
with respect to extending broadband services to remote areas, 
particularly to certain terrains like those in Alaska. We also 
recognize the undeniable social and economic value that comes when 
communities can access quality, high-speed broadband. The disparity in 
available service to rural and ``hard-to-reach'' areas is the result of 
the heavy, up-front capital expenditures that terrestrial build-outs 
require to connect small and dispersed communities in such remote 
locations. Regulatory approvals, such as environmental approvals and 
local rights of way issues associated with siting cable and fiber 
broadband infrastructure, compound this problem. Additionally, given 
higher latitudes, traditional satellites located high above the equator 
often cannot ``see'' all of Alaska's territory with comparable speeds 
and costs offered elsewhere in the Continental U.S.
    SpaceX seeks to address the challenges of access by developing a 
next-generation satellite system that will apply innovative 
technologies to provide rapid broadband data rates and minimal latency. 
Initially, the SpaceX system will consist of 4,425 satellites operating 
in 83 orbital planes in orbits close to the Earth. This will include 
polar orbiting satellites designed specifically to serve high-latitude 
areas like Alaska. The SpaceX constellation is designed to provide a 
wide range of broadband and communications services for residential, 
commercial, institutional, governmental, and professional users 
worldwide. The goal of the system is to provide high-speed, low-latency 
broadband directly to end-users.
    Our planned satellite constellation would remove the per-mile 
construction costs inherent in rural and remote broadband access 
solutions and bypass the complexity of expanding terrestrial broadband 
networks (for instance, digging trenches, environmental approvals, and 
property rights issues). By operating close to the earth, the system 
will replace typical speed and latency complaints from current-
generation satellite broadband offerings with service speeds, 
latencies, and pricing equivalent to terrestrial and 5G wireless 
technologies available in urban centers.
    By investing upfront in a large-scale global satellite 
constellation, the cost of reaching additional customers--even in the 
most remote areas of the world--becomes incremental. Because the system 
will bring global coverage, including high-latitude customers, the cost 
of reaching these areas becomes essentially the price of a consumer 
terminal.
    Commercial space is further contributing to the deployment of such 
systems by driving down the high cost of launch. SpaceX, for example, 
has developed its Falcon 9 rocket to be highly reliable and affordable. 
We have further innovated to enable our rockets to be reusable by 
landing the first stage of rockets on land or at sea on ocean-going 
droneships, and then re-launching previously flown boosters. Reduced 
launch costs will enable the deployment of large satellite 
constellations that can then help Alaskans get connected to affordable, 
high-speed broadband internet.

    Question 3. Is latency still an issue?
    Answer. Current-generation satellite broadband services utilize 
geostationary (GEO) satellites that fly at altitudes of 35,000 km, 
resulting in higher latencies (typically around 250 milliseconds) as 
the broadband signals traverse to and from the satellite in space. By 
contrast, the SpaceX broadband system will operate in low-Earth orbit 
(LEO), at altitudes ranging from 1,110 km to 1,325 km. This 
dramatically shorter distance allows for latencies between 25-35 
milliseconds.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                           Dr. Moriba K. Jah
Challenges Hindering DOD-Commercial Partnerships
    Question 1. Earlier this year, in response to a provision that I 
included in the FY2017 National Defense Authorization Act (NDAA), the 
Department of Defense (DOD) released an Arctic strategy that among 
other points, highlights severe challenges caused by the limited 
satellite and terrestrial communications above 65 degrees north. When 
the DOD needs to quickly address gaps in capabilities, commercial 
partnerships can--where appropriate--play a key role in filling these 
needs.
    What are the primary challenges that have hindered or prevented you 
from working with the U.S. Government to fill critical gaps in U.S. 
space capabilities, like the domain awareness and communications gaps 
in the Arctic?
    Answer. Thank you for the question sir. The primary challenges I 
have had have been:

  (1)  There is no real strategic and coordinated investment in 
        government-related science and technology (S&T) research. There 
        is an army of researchers and academics waiting to tackle our 
        most dire S&T challenges and problems, but we cannot engage 
        this community without a dedicated investment. Moreover, the 
        small investment in S&T research that currently exists is 
        scattered and each government entity funds work without being 
        aware of what other government entities are funding. The U.S. 
        Government is likely paying may times for the same work without 
        knowing it. Each government entity needs to be free to invest 
        in S&T research as it needs to satisfy its own gaps but much 
        benefit could be had by having an office that coordinates this 
        investment such that S&T can be leveraged across the government 
        and to prevent funding the same work more than once. There 
        should also be a strategic roadmap that clearly identifies how 
        the S&T research will be transitioned as it matures. The U.S. 
        Government should also favor companies that propose solutions 
        that leverage or build upon previous U.S. Government (taxpayer) 
        investment. Germany has so called ``Fraunhofer Institutes \1\'' 
        which are an effective marriage between government, industry, 
        and academia. The U.K. has the so called ``Satellite 
        Applications Catapult.''\2\ The U.S. has so called ``University 
        Affiliated Research Centers.''\3\ These too should be 
        reenergized and enlisted to serve a cohesive government, 
        industry, and academic partnership in S&T research and 
        development and risk retirement. These could be made to augment 
        or compliment Public-Private-Partnerships for space domain 
        awareness, space traffic management, orbital safety, and space 
        commerce.
---------------------------------------------------------------------------
    \1\ https://www.fraunhofer.de/en/institutes.html
    \2\ https://sa.catapult.org.uk/services/centres-of-excellence/
    \3\ http://www.acq.osd.mil/chieftechnologist/publications/docs/
20130426_UARC_Engagement
Guide.pdf

  (2)  The National Science Foundation (NSF) has not been historically 
        keen to fund research in space-related technologies, areas 
        where the Air Force Office of Scientific Research (AFOSR) has 
        but AFOSR has a much much smaller budget. If the NSF could be 
        motivated to complement AFOSR's investment areas in these 
---------------------------------------------------------------------------
        topics, that would be greatly beneficial.

  (3)  Many U.S. Government meetings have required security clearances 
        which I have, but most researchers do not. More unfortunately 
        is that almost all of these meetings are absent any classified 
        information being exchanged or shown. I've questioned why the 
        U.S. Government continues to over-classify material and the 
        answer is complicated. However, a great effort must be 
        undertaken in making as much information as possible, available 
        to the scientific and technological communities if we wish to 
        empower our country in maintaining a leading edge regarding our 
        space services and capabilities.

  (4)  The U.S. Government has focused upon developing systems making 
        sure that the space systems (including the ground segments) 
        themselves are robust and work, but paying much less attention 
        to the accuracy of information being generated and distributed 
        by these space systems. No one has been assessing the physical 
        and statistical consistency amongst various space situational/
        domain awareness funded efforts. The assumption is that as long 
        as different products and applications meet interface control 
        requirements, all is good. This is a flawed assumption that 
        works to our collective detriment. The world's best plumbing 
        can distribute potable water or sewage.

  (5)  The U.S. Government is losing its internal competency to 
        quantify and assess the goodness and accuracy of funded 
        projects and delivered products. So, it relies strongly on what 
        is called SETA support or FFRDCs. Unfortunately, these 
        oftentimes work in their own self-interest and under the guise 
        of information security, avoid independent scrutiny and peer-
        review. Many innovative, disruptive, and paradigm-shifting 
        solutions never make it to the U.S. Government's table so to 
        speak. The U.S. Government lacks an independent and unbiased 
        group of people who can help it quantify and assess products to 
        meet its needs for space situational and domain awareness. 
        Scientific and Technological solution developers, providers, 
        and integrators must never be the same people!

  (6)  Very rigid acquisition processes also hinder rapid and agile 
        deployment of space services and capabilities, like 
        communications in the Arctic. I suspect that initiatives like 
        the Defense Innovation Unit Experimental (DIUx)\4\ is a method 
        to remedy this discrepancy.
---------------------------------------------------------------------------
    \4\ https://www.diux.mil
---------------------------------------------------------------------------
Internet Access in Rural Areas
    Question 2. In Alaska, many places do not have any connectivity and 
many times are not even connected by road. It is costly to deploy 
telecommunications infrastructure, and while these communities are 
extremely innovative, a lack of connectivity hinders business growth 
and increased economic activity.
    Commercial space provides the possibility of increased 
communications, including satellite-based broadband internet, at a 
reduced cost. Especially if the cost of launches continues to decline, 
this could provide real benefits to consumers in extremely rural places 
like Alaska. How can recent advances in commercial space help provide 
broadband-level Internet to the most rural areas?
    Answer. This is a very relevant question. Companies such as Planet 
Labs \5\ have demonstrated an innate capability to rapidly and 
effectively deploy space based assets to fill gaps. Planet has paved 
the way for companies such as OneWeb and SpaceX to deploy massive 
numbers of space-based assets to deliver the very capabilities that you 
desire for Alaska and the world writ large. The activities of these 
companies should be encouraged and assisted as appropriate, without 
sacrificing the ability to motivate competing technologies. General 
Hyten created a commercial cell in the National Space Defense Center 
\6\ for Battlespace Management, Command, and Control (BMC2) at 
Schriever AFB in Colorado Springs. The U.S. Government could take a 
page from this book and create a commercial cell that addresses 
communications and global Internet to meet our national needs. Perhaps 
this could be championed under the newly formed National Space Council.
---------------------------------------------------------------------------
    \5\ https://www.planet.com
    \6\ http://breakingdefense.com/2017/04/jicspoc-morphs-to-national-
space-defense-centerwhat-it-means/

    Question 3. Is latency still an issue?
    Answer. Yes, latency is very much still an issue but this can be 
mitigated and remedied via (a) leveraging other on-orbit assets as 
effective relays (b) heavily investing in quantum computing and 
communications as recently demonstrated by China.\7\ (c) investing in 
autonomous satellite systems and networks (e.g., via the Air Force 
Research Laboratory's Space Vehicles Directorate \8\ including academic 
partnerships, and the Operationally Responsive Space \9\ office) that 
can capitalize on Machine Learning and Artificial Intelligence to self-
heal/repair and reconfigure in near real time in the presence of sensed 
latencies and/or outages.
---------------------------------------------------------------------------
    \7\ http://www.sciencemag.org/news/2017/06/china-s-quantum-
satellite-achieves-spookyaction-record-distance
    \8\ http://www.kirtland.af.mil/Units/AFRL-Space-Vehicles-
Directorate/
    \9\ http://www.kirtland.af.mil/Units/ORS/
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                            Robert D. Cabana
Challenges Hindering DOD-Commercial Partnerships
    Question 1. Earlier this year, in response to a provision that I 
included in the FY2017 National Defense Authorization Act (NDAA), the 
Department of Defense (DOD) released an Arctic strategy that among 
other points, highlights severe challenges caused by the limited 
satellite and terrestrial communications above 65 degrees north. When 
the DOD needs to quickly address gaps in capabilities, commercial 
partnerships can--where appropriate--play a key role in filling these 
needs.
    What are the primary challenges that have hindered or prevented you 
from working with the U.S. Government to fill critical gaps in U.S. 
space capabilities, like the domain awareness and communications gaps 
in the Arctic?
    Answer. NASA employs several kinds of commercial partnership 
mechanisms to address U.S. space capabilities, including--but not 
limited to--Federal Acquisition Regulation (FAR)-based contracts to 
fulfill Agency requirements, as well as funded and unfunded Space Act 
Agreements (SAAs), which support and encourage commercial innovation. 
The Commercial Resupply Service (CRS) contracts, under which Space 
Exploration Technologies (SpaceX) and Orbital ATK have been providing 
cargo resupply to the International Space Station (ISS), are examples 
of the former. NASA's Lunar Cargo Transportation and Landing by Soft 
Touchdown (Lunar CATALYST) initiative, which has established multiple 
no-funds-exchanged SAA partnerships with U.S. private sector entities, 
is an example of the latter. The purpose of these SAAs is to encourage 
the development of robotic lunar landers that can be integrated with 
U.S. commercial launch capabilities to deliver payloads to the lunar 
surface. NASA looks forward to continuing commercial partnerships to 
address Agency requirements and to support commercial innovation in the 
future.
    As to addressing U.S. space capabilities such as domain awareness 
and military communications in the Arctic, the Committee may wish to 
contact the Department of Defense for details on their efforts in these 
areas.
Internet Access in Rural Areas
    Question 2. In Alaska, many places do not have any connectivity and 
many times are not even connected by road. It is costly to deploy 
telecommunications infrastructure, and while these communities are 
extremely innovative, a lack of connectivity hinders business growth 
and increased economic activity.
    Commercial space provides the possibility of increased 
communications, including satellite-based broadband internet, at a 
reduced cost. Especially if the cost of launches continues to decline, 
this could provide real benefits to consumers in extremely rural places 
like Alaska.
    How can recent advances in commercial space help provide broadband-
level Internet to the most rural areas?
    Answer. While NASA defers to private industry to articulate the 
business case supporting the provision of services to specific 
customers, a number of companies currently offer launch services and 
satellite-based communications services that could potentially increase 
broadband Internet access in rural areas.

    Question 3. Is latency still an issue?
    Answer. Please see response to Question #2, above. NASA defers to 
private industry on the specifics for their ability to provide 
broadband Internet service to rural areas.

                                  <all>
</pre></body></html>
